<html>
<title> - STATE EFFORTS TO COMPLY WITH FEDERAL CHILD WELFARE REVIEWS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]


 
       STATE EFFORTS TO COMPLY WITH FEDERAL CHILD WELFARE REVIEWS

=======================================================================


                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 13, 2004

                               __________

                           Serial No. 108-54

                               __________

         Printed for the use of the Committee on Ways and Means





                 U.S. GOVERNMENT PRINTING OFFICE

99-673                  WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, JR., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM MCCRERY, Louisiana               JIM MCDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. MCNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHIL ENGLISH, Pennsylvania           LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona               EARL POMEROY, North Dakota
JERRY WELLER, Illinois               MAX SANDLIN, Texas
KENNY C. HULSHOF, Missouri           STEPHANIE TUBBS JONES, Ohio
SCOTT MCINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin
ERIC CANTOR, Virginia

                    Allison H. Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                   WALLY HERGER, California, Chairman

NANCY L. JOHNSON, Connecticut        BENJAMIN L. CARDIN, Maryland
SCOTT MCINNIS, Colorado              FORTNEY PETE STARK, California
JIM MCCRERY, Louisiana               SANDER M. LEVIN, Michigan
DAVE CAMP, Michigan                  JIM MCDERMOTT, Washington
PHIL ENGLISH, Pennsylvania           CHARLES B. RANGEL, New York
RON LEWIS, Kentucky
ERIC CANTOR, Virginia

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also, published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________
                                                                   Page

Advisory of May 6, 2004, announcing the hearing..................     2

                               WITNESSES

U.S. Department of Health and Human Services, Hon. Wade F. Horn, 
  Assistant Secretary for Children and Families..................     8
U.S. General Accounting Office, Cornelia M. Ashby, Director, 
  Education Work force and Income Security Issues................    24

                                 ______

New Jersey Department of Human Services, Edward E. Cotton........    38
Maryland Department of Human Resources, Hon. Christopher McCabe..    43

                       SUBMISSIONS FOR THE RECORD

Baca, Hon. Joe, a Representative in Congress from the State of 
  California, statement..........................................    53
Child Welfare League of America..................................    56
Crowley, Anita M., Wichita Falls, TX, statement..................    62
Family Rights West Virginia, Keyser, WV, Christina M. Amtower, 
  statement......................................................    65
Fostering Results, Mike Shaver, Chicago, IL, statement...........    66
Miller, Hon. George, a Representative in Congress from the State 
  of California, statement.......................................    72
Miller, Thomas E., Smithfield, UT, statement.....................    73
New York State Office of Children and Family Services, 
  Commissioner, John A. Johnson, Rensselaer, NY, statement.......    75
Reeves, Elaine, Fort Walton Beach, FL, statement.................    78
Untershire, James D., Long Beach, CA, statement and attachments..    82


       STATE EFFORTS TO COMPLY WITH FEDERAL CHILD WELFARE REVIEWS

                              ----------                              


                         THURSDAY, MAY 13, 2004

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
room B-318 Rayburn House Office Building, Hon. Wally Herger, 
(Chairman of the Subcommittee) presiding.
     [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
May 6, 2004
HR-9

Herger Announces Hearing on State Efforts to Comply with Federal Child 
                            Welfare Reviews

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing to review State efforts to come into 
compliance with Federal child welfare reviews. The hearing will take 
place on Thursday, May 13, 2004, in room B-318 Rayburn House Office 
Building, beginning at 10:00 a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include Federal and State officials familiar with State 
efforts to come into compliance with Federal child welfare reviews. 
However, any individual or organization not scheduled for an oral 
appearance may submit a written statement for consideration by the 
Subcommittee and for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    The 1994 Social Security Amendments (P.L. 103-432) required the 
U.S. Department of Health and Human Services, in consultation with the 
relevant State agencies, to develop a review system to determine if 
State child welfare programs were operating in compliance with the 
requirements of Title IV-B and Title IV-E of the Social Security Act. 
After pilot reviews, focus groups, and public comment, the final 
regulations on the Child and Family Services Reviews (CFSRs) were 
released on January 25, 2000, and became effective on March 27, 2000.
      
    The CFSRs cover child protective services, foster care, adoption, 
family preservation, family support, and independent living programs. 
The reviews examine outcomes for children and families in three areas: 
safety, permanency, and child and family well-being. They also examine 
a number of systemic factors that affect the quality of services 
delivered to children and families and the outcomes they experience. 
States are required to develop and implement Program Improvement Plans 
(PIPs) designed to address and improve all of the outcomes or systemic 
factors in which the State is not in compliance with the Federal 
requirement. States have 2 years to implement their plans to improve 
their programs, and during this period any penalties for non-compliance 
are waived.
      
    On January 28, 2004, the Subcommittee held a hearing to examine 
Federal and State oversight systems designed to prevent abuse and 
neglect of children, including those under State protection. Government 
and State officials testified at this hearing about the importance of 
the CFSR process underway in the States in identifying areas in need of 
improvement. As of April 2004, reviews had been completed in all 
States. However, no State passed its review, meaning that all States 
must develop and implement PIPs.
      
    In announcing the hearing, Chairman Herger stated, ``We must do all 
we can to ensure the safety, permanency, and well-being of at-risk 
children. I'm concerned that none of the States are operating programs 
that meet Federal expectations in these basic functions. This hearing 
will give us the opportunity to hear from the States what steps they 
are taking to improve their programs to comply with Federal 
requirements and better protect vulnerable children.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on State efforts to comply with Federal 
child welfare review requirements related to safety, permanency, and 
child and family well-being.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person or organization wishing to submit written 
comments for the record must send it electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfb7babeadb6b1b8bcb3baadb4acf1a8bea6acbeb1bbb2babeb1ac9f">[email&#160;protected]</a> mail.house.gov, along with a fax copy to 
(202) 225-2610, by close of business Thursday, May 27, 2004. In the 
immediate future, the Committee website will allow for electronic 
submissions to be included in the printed record. Before submitting 
your comments, check to see if this function is available. Finally, due 
to the change in House mail policy, the U.S. Capitol Police will refuse 
sealed-packaged deliveries to all House Office Buildings.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="573f3236253e3930343b32253c247920362e243639333a32363924173a363e3b793f3822243279303821">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, in WordPerfect or MS Word format and MUST NOT exceed a 
total of 10 pages including attachments. Witnesses are advised that the 
Committee will rely on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All statements must include a list of all clients, persons, or 
organizations on whose behalf the witness appears. A supplemental sheet 
must accompany each statement listing the name, company, address, 
telephone and fax numbers of each witness.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman HERGER. Good morning. I would like to welcome all 
of you to today's hearing to explore State efforts to comply 
with Federal child welfare reviews. Since 2001, the U.S. 
Department of Health and Human Services (HHS) and the States 
have been working together to assess whether State child 
welfare programs comply with Federal standards and 
requirements. These reviews, known as the Child and Family 
Services Review (CFSR), examine whether States are ensuring 
safety, permanency and well-being for vulnerable children.
    As of April 2004, all of the States have completed their 
CFSR. No State has passed this Federal review, although States 
vary in the extent to which their programs meet some Federal 
standards. States not meeting all of the Federal requirements 
must work with HHS to develop and implement a 2-year program 
improvement plan (PIP) in order to avoid financial penalties. 
Since no State has passed their review, every State must 
develop a plan to improve their child welfare programs. While 
many of us are disappointed with the results of the reviews, 
the process is working as it was intended. This review process 
emphasized accountability by requiring States to respond with 
improvement plans when they failed to meet a Federal 
requirement related to safety, permanency or well-being, 
because of this process, efforts are underway in every State to 
improve the delivery and quality of child welfare services.
    This Subcommittee has examined a number of oversight issues 
in child welfare over the past several months. The purpose of 
today's hearing is to move this process forward by focusing on 
what States are doing to improve their child welfare programs. 
I am pleased to welcome representatives from two States to 
provide firsthand knowledge of their initiatives to improve 
child welfare services. I hope the States make the most of this 
opportunity for reform to ensure their child welfare programs 
comply with Federal requirements.
    After our series of hearings, prompted by the story of the 
four Jackson boys, I would especially like to thank New Jersey 
for their willingness to come today to discuss their efforts. 
One of these hearings investigated one of the worst cases of 
neglect and abuse in the child welfare system, and New Jersey 
has taken prompt action to hold those foster parents 
accountable by prosecuting and winning an indictment just last 
week. I also welcome the U.S. General Accounting Office (GAO) 
testimony today which will focus on their assessment of the 
review process in the States.
    Finally, I appreciate the willingness of Assistant 
Secretary Horn to testify about what HHS has learned from this 
process about the quality of child welfare services, and what 
improvements we might consider to better protect children in 
foster and adoptive homes. This Subcommittee has received 
numerous comments from families involved with the child welfare 
system. A number of these comments speak to the issues raised 
as part of the review process. I thank these individuals for 
taking the time to share their comments with us. All of us 
share the same goal, to ensure safety, permanency and well-
being for at-risk children. We look forward to hearing from all 
of our witnesses today about the efforts underway and issues 
for us to consider as we explore proposals that could enhance 
the quality and availability of child welfare services. Without 
objection, each Member will have the opportunity to submit a 
written statement and have it included in the record at this 
point. Mr. Cardin, would you like to make an opening statement?
    [The opening statement of Chairman Herger follows:]
   Opening Statement of The Honorable Wally Herger, Chairman, and a 
        Representative in Congress from the State of California
    Good morning. I'd like to welcome all of you to today's hearing to 
explore State efforts to comply with Federal Child Welfare Reviews.
    Since 2001, HHS and the States have been working together to assess 
whether State child welfare programs comply with Federal standards and 
requirements. These reviews, known as the Child and Family Services 
Reviews, examine whether States are ensuring safety, permanency, and 
well-being for vulnerable children.
    As of April 2004, all of the States have completed their Child and 
Family Services Review. No State has passed this Federal review, 
although States vary in the extent to which their programs meet some 
Federal standards.
    States that do not meet the Federal requirements must work with HHS 
to develop and implement a two-year Program Improvement Plan in order 
to avoid financial penalties. Because no State has passed their review, 
every State must develop a plan to improve their child welfare 
services.
    While many of us are disappointed with the results of the reviews, 
the process is working as it was intended. This review process 
emphasized accountability by requiring States to respond with 
improvement plans when they failed to meet a Federal requirement 
related to safety, permanency, or well-being. Because of this process, 
efforts are underway in every State to improve the delivery and quality 
of child welfare services.
    This Subcommittee has examined a number of oversight issues in 
child welfare over the past several months. The purpose of today's 
hearing is to move this process forward by focusing on what States are 
doing to improve their child welfare programs.
    I'm pleased to welcome representatives from two States who are with 
us to provide first-hand knowledge of their initiatives to improve 
child welfare services. I hope the States make the most of this 
opportunity for reform to ensure their child welfare programs comply 
with Federal requirements. After our series of hearings prompted by the 
story of the four Jackson boys, I would especially like to thank New 
Jersey for their willingness to come today to discuss their efforts. 
One of these hearings investigated one of the worst cases of neglect 
and abuse in the child welfare system, and New Jersey has taken prompt 
action to hold those foster parents accountable by prosecuting and 
winning an indictment just last week. I also welcome GAO whose 
testimony today will focus on their assessment of the review process in 
the States.
    Finally, I appreciate the willingness of Assistant Secretary Horn 
to testify about what HHS has learned from this review process about 
the quality of child welfare services and what improvements we might 
consider to better protect children in foster and adoptive homes.
    This Subcommittee has received numerous comments from families 
involved with the child welfare system. A number of these comments 
speak to the issues raised as part of the review process. I thank these 
individuals for taking the time to share their comments with us.
    All of us share the same goal--to ensure safety, permanency, and 
well-being for at-risk children. We look forward to hearing from all 
our witnesses today about efforts underway and issues for us to 
consider as we explore proposals that could enhance the quality and 
availability of child welfare services.

                                 <F-dash>

    Mr. CARDIN. Thank you, Mr. Chairman. First, let me welcome 
Dr. Horn back to our Committee. On both sides of the aisle we 
respect the work you are doing to improve families and children 
in our community, and we thank you for your public service.
    Mr. Chairman, I want to thank you for holding this hearing. 
Failures of our child welfare system have been chronicled in 
gut-wrenching stories in the news, in expert testimony before 
our own Committee and in numerous reports and surveys.
    One recent example was a report issued by the comptroller 
of the State of Texas, and it is illustrative. What happens in 
Texas is happening throughout the Nation. He stated, ``In 
Texas, we pride ourselves on taking care of our own. Today, we 
are failing at this task. Some Texas foster children receive 
the compassion and care they deserve, but many others do not. 
The heartbreaking truth is that some of these children are no 
better off in the hands of the State than they were in the 
hands of the abusive and neglectful parents.''
    This disturbing description does not just apply to Texas. 
Too many vulnerable children across the country do not receive 
the protection and care they deserve. As we will hear today, 
the current Federal review of the child welfare system has 
discovered serious shortcomings in every State in this Nation. 
These CFSRs have found that most States do not even meet half 
of the Federal standards for safety, permanency and well-being, 
and no State has passed all of the standards.
    My own State of Maryland has recently completed its review. 
Preliminary results suggest that it is failing short in many 
critical areas, including preventing the repeated maltreatment 
of children, providing stable placement for children in foster 
care. In fact, it appears that Maryland has failed to meet 
Federal standards in any of the seven outcome measures for 
child safety, permanency and well-being. Once the results of 
the Federal review are final in Maryland, the State will be 
required to implement a PIP.
    I look forward to hearing from our Secretary of Human 
Resources, Chris McCabe, a very distinguished former legislator 
who understands the practical problems that we deal with in the 
legislative arena and was a great leader in the State Senate on 
child welfare issues and is carrying that commitment to the 
Ehrlich Administration. It is a pleasure to have Chris as a 
witness today.
    A majority of States have already implemented their so-
called PIPs to address problems revealed during the CFSRs. 
However, the GAO recently reported that a lack of resources has 
become a significant barrier to States effectively implementing 
these plans. I know Dr. Horn would hope the Congress would move 
forward in approving some of the requests that the 
Administration has made for additional resources, and we 
certainly hope that that will happen before this Congress 
adjourns.
    Eighty-four percent of the States responding to the GAO 
survey said insufficient funding presented a challenge 
affecting the implementation of their PIP and over half the 
States said it was a very great challenge. This is not to say 
that more money is the single silver bullet that will defeat 
the problem. It won't, but the GAO report and other assessments 
do suggest that additional resources need to be part of the 
solution. We can pass all of the laws we want in Washington, 
but we need to recognize that the actual decisions affecting 
the lives of individual children are being made by caseworkers 
who are too often underpaid, under trained, overburdened with 
too many cases. Furthermore, we have to acknowledge the 
devastating impact that substance abuse has had on the child 
welfare system, and we need to place a greater value on 
prevention activities and family support services. Confronting 
these realities will not be free.
    Mr. Chairman, it has been said that the children in the 
foster care system are America's forgotten children. It is 
incumbent upon us to prove that statement false. We can and 
must do more to protect and help these vulnerable children. Mr. 
Chairman, I do look forward to working with you to come out 
with an aggressive program to improve the quality of foster 
care in America, to live up to our commitment to these 
vulnerable children and to do everything we can to make sure 
that we act in a responsible way to help this target 
population. Thank you.
    [The opening statement of Mr. Cardin follows:]
Opening Statement of The Honorable Benjamin L. Cardin, a Representative 
                 in Congress from the State of Maryland
    Mr. Chairman, the failures of our child welfare system have been 
chronicled in gut-wrenching stories in the news, in expert testimony 
provided in this very room, and in numerous reports and surveys. One 
recent example is a report issued by the Comptroller of the State of 
Texas (who happens to be a Republican), which declared:

           ``In Texas, we pride ourselves on taking care of our own. 
        Today, we are failing at this task. Some Texas foster children 
        receive the compassion and care they deserve, but many others 
        do not. The heart-breaking truth is that some of these children 
        are no better off in the care of the state than they were in 
        the hands of abusive and negligent parents.''

    This disturbing description does not just apply to Texas. Too many 
vulnerable children across the country do not receive the protection 
and care they deserve. As we will hear today, the current Federal 
review of the child welfare system has discovered serious short-comings 
in every State. These Child and Family Services Reviews have found that 
most States do not meet even half of the Federal standards for safety, 
permanency and well-being; and no State has passed all of the 
standards.
    My own State of Maryland has recently completed its review. 
Preliminary results suggest that it is falling short in many critical 
areas, including preventing the repeat maltreatment of children, and 
providing stable placements for children in foster care. In fact, it 
appears Maryland has failed to reach the Federal standard in any of the 
seven outcome measures for child safety, permanency and well-being. 
Once the results of the Federal review are final in Maryland, the State 
will be required to implement a program improvement plan or PIP.
    I look forward to hearing from Maryland's Secretary of Human 
Resources, Christopher McCabe, about reforms the State may already be 
considering to improve our child welfare system. A majority of States 
have already implemented their so-called PIPs to address problems 
revealed during the Child and Family Services Reviews (Maryland was in 
the last group of States to be reviewed).
    However, the General Accounting Office (GAO) recently reported that 
a lack of resources has become a significant barrier to States 
effectively implementing these plans. 84% of the States responding to 
the GAO survey said insufficient funding presented a challenge 
affecting the implementation of their PIP, and over half said it was a 
``very great'' challenge.
    This is not to say that more money is the single silver bullet that 
will defeat the problem --it won't. But the GAO report and other 
assessments do suggest that additional resources need to be part of the 
solution.
    We can pass all the laws we want in Washington, but we need to 
recognize that the actual decisions affecting the lives of individual 
children are being made by caseworkers who are too often underpaid, 
under-trained, and over-burdened with too many cases.
    Furthermore, we have to acknowledge the devastating impact that 
substance abuse has on the child welfare system, and we need to place a 
greater value on prevention activities and family support services. 
Confronting these realities will not be free.
    Mr. Chairman, it has been said that children in the foster care 
system are America's forgotten children. It is incumbent upon us to 
prove that statement false. We can and must do more to protect and help 
these very vulnerable children.
    I look forward to working with you to achieve that goal. Thank you.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Cardin. I too look forward 
to working with you on this very important issue. Before we 
move on to our testimony, I want to remind our witnesses to 
limit their oral statement to 5 minutes. However, without 
objection, all of the written testimony will be made a part of 
the permanent record. To begin our hearing, I would like to 
welcome Dr. Wade Horn, Assistant Secretary for Children and 
Families at HHS. Dr. Horn has been before the Subcommittee on a 
number of occasions, and I thank you for appearing before us 
today. Dr. Horn?

   STATEMENT OF THE HONORABLE WADE F. HORN, Ph.D., ASSISTANT 
SECRETARY FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF HEALTH 
                       AND HUMAN SERVICES

    Dr. HORN. Thank you, Mr. Chairman and Members of this 
Subcommittee, for this opportunity to testify before you again, 
to discuss the results-oriented CFSRs and child welfare reform. 
This comprehensive review process has played a critical role in 
engaging States and assessing the quality of their child 
welfare systems and, more importantly, undertaking the 
difficult process of improving their systems.
    Today, I would like to discuss with you the latest findings 
of the CFSRs and the status of the PIP efforts in the States. 
In addition, I would like to speak to you about the importance 
of taking action now to provide States with more resources and 
greater flexibility so they can improve their child welfare 
systems.
    The CFSRs are the cornerstone of our efforts to review 
State child welfare programs, monitor performance, promote 
improved outcomes, and ensure compliance with key provisions of 
the law. The reviews cover outcomes for children and families 
served by the State child welfare agency in all areas of child 
welfare services from child protection and family preservation 
to family reunification and adoption services.
    The CFSRs have now been completed in all 50 States, the 
District of Columbia and Puerto Rico. We have learned many 
important lessons through this process, including the finding 
that every State needs to take steps to improve their systems 
in order to ensure children's safety, permanency and well-
being.
    By themselves, the review findings would be of little use, 
however, if the CFSR simply stopped at reporting on current 
State practice. Rather, to be useful, these findings must be 
employed to improve State child welfare practice. That is why 
the most important product of the CFSRs is to engage the States 
in developing and then implementing PIPs.
    These plans are designed to serve as a catalyst for 
significant reforms of State child welfare systems. Through the 
PIP process, we are looking for meaningful changes that will 
lead to lasting improvements in the way that States operate 
their programs. To date, 33 PIPs have been approved, and we are 
actively engaged with the remaining States to complete their 
plans. Many States have been challenged through this process to 
conceptualize and plan fundamental reforms, and we have been 
unwilling to accept plans that do not target the key issues 
affecting outcomes for children and families.
    We are hopeful that the innovative solutions being 
implemented through the State PIPs will result in more positive 
outcomes for children. For significant improvements in child 
welfare to be realized, the Federal Government must provide 
more funding and greater flexibility in the use of Federal 
funds. Accordingly, the President has proposed increasing 
funding for the Promoting Safe and Stable Families (P.L. 107-
133) program by $1 billion over 5 years, half of which has thus 
far been appropriated.
    In the fiscal year 2005 budget, the President seeks to 
nearly double the funding level for two key child abuse 
programs reauthorized this past year as part of the Keeping 
Children and Families Safe Act (P.L. 108-36). We urge the 
Congress to support these vital investments in our Nation's 
families as you proceed with your work on the fiscal year 2005 
budget.
    The President recognizes, however, that States need more 
than increased funding if they are to achieve real improvements 
in their child welfare systems. They also need increased 
flexibility in the use of Federal funds. That is why the 
President has proposed a bold Child Welfare Program Option that 
would allow States to choose a flexible alternative funding 
structure under the current Title IV-E foster care entitlement 
program.
    States that choose this program option would be able to use 
funds for foster care payments, prevention activities, 
permanency efforts, including subsidized guardianships, case 
management, administrative activities, training for child 
welfare staff and other such services that are related to the 
child welfare field. They would be able to develop innovative 
and effective systems for preventing child abuse and neglect, 
keeping families and children safely together and moving 
children toward adoption and permanency quickly. Although 
States that do choose the program option would have greater 
flexibility in how they used the funds, they would still be 
held accountable for positive results and would be required to 
maintain the child safety protections under current law.
    We have now completed a comprehensive review of every 
State's child welfare program. It is clear that much work needs 
to be done to ensure the safety, permanency, and well-being of 
every child who comes into contact with the child welfare 
agency or the court. Of course, changing complex child welfare 
systems will not be fast or easy. We are committed to working 
with the States and Members of Congress, particularly Members 
of this Subcommittee, to continuously strive for better 
outcomes for all of these children and to make the President's 
bold vision for strengthening the child welfare system through 
the child welfare program option a reality and secure critical 
funding in the 2005 fiscal year budget. Thank you for this 
opportunity to testify before you, and I would be pleased to 
answer any questions you may have.
    [The prepared statement of Dr. Horn follows:]
Statement of The Honorable Wade F. Horn, Ph.D., Assistant Secretary for 
  Children and Families, U.S. Department of Health and Human Services
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you to discuss the results-oriented Child 
and Family Services Reviews (CFSR) and child welfare reform. The CFSRs 
represent one of the most important initiatives the Federal Government 
has ever undertaken to improve child welfare services across the 
nation. As I have discussed with you at previous hearings, this 
comprehensive review process has played a critical role in engaging 
States in assessing the quality of their child welfare systems and, 
more importantly, undertaking the difficult process of improving their 
systems.
    Today I would like to take this opportunity to discuss with you the 
latest findings of the Child and Family Services Reviews and the status 
of Program Improvement Plan (PIP) efforts in the States. In addition, I 
would like to speak to you about the importance of taking action now to 
provide States with both more resources and greater flexibility so that 
they can improve their child welfare systems.
Child and Family Service Reviews
    The Child and Family Services Reviews are the cornerstone of our 
efforts to review State child welfare programs, monitor performance, 
promote improved outcomes, and ensure compliance with key provisions of 
law. The reviews cover outcomes for children and families served by the 
State child welfare agency in the areas of safety, permanency and child 
and family well-being. The CFSR reviews assess seven outcome measures 
and seven systemic factors, and include children in foster care as well 
as those receiving in-home services. We look at casework practices in 
the field, review the State agency's capacity to serve children and 
families effectively, and examine the relationships between the various 
child welfare serving agencies. The Child and Family Services Reviews 
cover all areas of child welfare services, from child protection and 
family preservation, to family reunification and adoption services.
    CFSR reviews have now been completed in all 50 States, the District 
of Columbia and Puerto Rico. We have learned many important lessons 
through this process, including the finding that all States need to 
take steps to improve their systems in order to ensure children's 
safety, permanency and well-being. The following is a summary of some 
of the key conclusions we have drawn from these reviews:

    <bullet>  States are performing somewhat better on safety outcomes 
for children than on permanency and well-being outcomes. Still, only 
six States were in substantial conformity with the outcome measure 
reflecting the ability to protect children from abuse and neglect. In 
particularly, States need to work to prevent the repeat abuse and 
neglect of children and need to improve the level of services provided 
to families to reduce the risk of future harm, including better 
monitoring of families' participation in services.
    <bullet>  The timely achievement of permanency outcomes, especially 
adoption, for children in foster care is one of the weakest areas of 
State performance. Indeed, no State was found to be in substantial 
compliance with the outcome measure reflecting whether or not children 
have permanency and stability in their living situation.
    <bullet>  A strong correlation was found between frequent 
caseworker visits with children and positive findings in other areas, 
including timely permanency achievement and indicators of child well-
being.
    <bullet>  States need to improve the ways in which they assess the 
needs of family members and provide services, and engage parents and 
children when developing case plans.
    <bullet>  Less attention and fewer services are often provided to 
families whose children have not been removed compared to families 
whose children are placed in foster care. States need to strengthen up-
front preventive services they provide to families in order to prevent 
unnecessary family break-up and protect children who remain at home. 
Overall, only six States were in substantial conformity with the 
outcome measure reflecting whether or not children are maintained in 
their own homes when appropriate.

    By themselves, these findings would be of little use if the CFSRs 
simply stopped at reporting on current State practice. Rather, to be 
useful, these findings must be employed to improve State child welfare 
practice. That is why the most important product of the CFSRs is to 
engage the States in developing, and then implementing, Program 
Improvement Plans designed to address the underlying practice issues 
that affect outcomes for children and families who come in contact with 
state child welfare systems.
Program Improvement Plans
    Program Improvement Plans are designed to serve as a catalyst for 
significant reforms of State child welfare systems. Through the Program 
Improvement Planning process, we are looking for meaningful changes 
that will lead to lasting improvements in the way that States operate 
their programs. Of the 46 States for which we have released final 
reports, all were required to develop Program Improvement Plans (PIP) 
within 90 days of the completion of the final CFSR report to address 
areas needing improvement.
    Because the PIPs are intended to result in long-term, measurable 
improvements in State child welfare programs, we rejected PIPs that are 
``plans-to-plan'' rather than plans that include concrete strategies 
that will lead to positive results. Many States have been challenged 
through this process to conceptualize and plan fundamental reform, and 
we have been unwilling to accept plans that do not target the key 
issues affecting outcomes for children and families and instead have 
taken the time to work with States to help them re-shape their initial 
PIP submissions.
    To date, 33 PIPs have been approved and we are actively engaged 
with the remaining States to complete their plans. Below are just a few 
examples of the kind of innovative efforts we are seeing in States as 
they use the PIP process to achieve sustained improvements in their 
child welfare systems:

    <bullet>  The Florida Program Improvement Plan emphasizes training 
supervisors and staff in the principles of family-centered practice, 
and re-directing front line caseworkers to focus on improved needs 
assessments of children and families, and using those assessments to 
develop meaningful case plans.
    <bullet>  Through its PIP, Oklahoma has implemented a comprehensive 
quality assurance review system that focuses front-line supervisors on 
achieving positive outcomes in cases under their direct supervision. 
Results of all case reviews are now being posted on an internal website 
which allows administrators to identify specific supervisory units, 
offices and counties that are making significant progress toward 
positive outcomes.
    <bullet>  Over the past two years, Minnesota has been implementing 
a statewide quality assurance system that mirrors the CFSR and is using 
this system to provide qualitative feedback to staff and managers on 
the outcomes of their work. The State also has implemented measures to 
improve the quality of supervision in local offices as well as improved 
risk assessment techniques statewide, and has made improvements in case 
planning and documentation.
    <bullet>  Pennsylvania identified four key strategies to assist 
them with achieving positive outcomes for children and families 
involved in its child welfare system, including expanding competency-
based training, creating a Center for Excellence in Child Welfare 
Practice, expanding the quality assurance process, and creating an 
evaluation and data analysis resource. When the State's quality 
assurance reviews identify a county or a private provider as performing 
below an acceptable standard on a CFSR/PIP item, that county receives 
priority for technical assistance from the Center for Excellence using 
evidence-based information and effective practices implemented across 
the country.
    <bullet>  Kentucky is implementing an initiative entitled Coaching, 
Mentoring and Monitoring though its PIP designed to improve the ability 
of front-line supervisors to guide social workers in their work with 
families and children and to apply the knowledge that caseworkers gain 
through training to their day-to-day activities. Its PIP also is 
designed to increase the capacity of child welfare supervisors to 
monitor the practice of front-line social workers and to quickly 
identify and target areas needing improvement.

    We are hopeful that innovative solutions like these being 
implemented through state PIPs will result in more positive outcomes 
for children. But for significant improvements in child welfare to be 
realized, the federal government needs to provide two additional 
resources: more funding and greater flexibility in the use of federal 
funds.
Increase Funding
    In order to support State efforts to provide needed child welfare 
services to children and families, the federal government needs to 
provide additional funding. That is why the President has proposed 
increasing funding for the Promoting Safe and Stable Families program 
by $1 billion over five years. Although Congress has only appropriated 
half that increase thus far, the Administration stands firm in its 
commitment to seek full funding for this vital program.
    In addition, the President's FY 2005 budget seeks to nearly double 
the funding level for two key child abuse programs reauthorized this 
past year as part of the Keeping Children and Families Safe Act. The 
requested level of funding for the Child Abuse Prevention and Treatment 
State Grants would enable State child protective service systems to 
expand post-investigative service for child victims, shorten the time 
to the delivery of post-investigative services and increase services to 
other at-risk families. Likewise, increased funding for the Community-
Based Child Abuse Prevention program would boost the availability of 
prevention services to an estimated additional 55,000 families. We urge 
the Congress to support these vital investments in our Nation's 
families as you proceed with work on the FY 2005 budget.
Child Welfare Program Option
    The President recognizes, however, that States need more than 
increased funding if they are to achieve real improvements in their 
child welfare systems. They also need increased flexibility in the use 
of federal funds. That's why the President has proposed a bold Child 
Welfare Program Option that would allow States to choose a flexible, 
alternative financing structure over the current title IV-E foster care 
entitlement program. Over the years, we consistently have heard from 
States that the title IV-E foster care program is too restrictive 
because it only provides funds for the maintenance of children in 
foster care who have been removed from a home that would have been 
eligible for AFDC if AFDC still existed as a federal program, as well 
as for costs associated with administering the program and for child 
welfare training. Under current law, title IV-E funds can not be used 
for services that could prevent a child from needing to be placed in 
foster care in the first place, that facilitate a child's returning 
home, or that help move the child to another permanent placement.
    Under the President's proposal, States could choose to administer 
their foster care program more flexibly, with a fixed allocation of 
funds over a five-year period. States that choose the Program Option 
would be able to use funds for foster care payments, prevention 
activities, permanency efforts (including subsidized guardianships), 
case management, administrative activities, training for child welfare 
staff and other such service related child welfare activities. They 
would be able to develop innovative and effective systems for 
preventing child abuse and neglect, keeping families and children 
safely together, and moving children toward adoption and permanency 
quickly. They also would be freed from the time-consuming and 
burdensome requirements of the current law's income eligibility 
provisions that continue to be linked to the old AFDC program.
    It is important to remember that the President's proposed Child 
Welfare Program Option would be just that--an option. If for any reason 
a State did not believe it was in its best interest to participate in 
the program, then that State could continue to participate in the 
current title IV-E entitlement program.
    Although States that do choose the Program Option would have much 
greater flexibility in how they use funds, they would still be held 
accountable for positive results. They would, for example, continue to 
be required to participate in the CFSR process. They also would be 
required to maintain the child safety protections under current law, 
including requirements for conducting criminal background checks and 
licensing foster care providers, obtaining judicial oversight over 
decisions related to a child's removal and permanency, meeting 
permanency timelines, developing case plans for all children in foster 
care, and prohibiting race-based discrimination in foster and adoptive 
placements. The Program Option also includes a maintenance of effort 
requirement to ensure that States selecting the new option maintain 
their existing level of investment in the program.
    We believe this option would offer a powerful new means for States 
to structure their child welfare services programs in a way that 
supports the goals of safety, timely permanency and enhanced well-being 
for children and families while relieving them of unnecessary 
administrative burdens. We appreciate the continued support of this 
Committee for consideration of this State flexible funding option as 
demonstrated through the holding of hearings and in working with the 
Administration on creating legislative language to make this proposal a 
reality.
Conclusion
    We have now completed a comprehensive review of every State's child 
welfare program. It is clear that much work needs to be done to ensure 
the safety, permanency and well-being of every child who comes to the 
attention of a child welfare agency or court in this country. Of 
course, changing complex child welfare systems will not be fast or 
easy. We are committed to working with the States, Members of Congress, 
community and faith-based organizations and concerned citizens to 
continuously strive for better outcomes for all of these children. We 
also remain committed to making the President's bold vision for 
strengthening the child welfare system through the Child Welfare 
Program Option a reality and to secure critical funding in the FY 2005 
budget.
    Thank you for this opportunity to testify before this Committee. I 
would be pleased to answer questions at this time.

                                 <F-dash>

    Chairman HERGER. Thank you, Dr. Horn. Congress authorized 
HHS, back in 1994, to create the CFSR process. While it took 7 
years to begin these reviews in the States, you have recently 
completed all of these reviews. No State has passed their 
review, which concerns me, given the review's emphasis on 
ensuring safety, permanency and well-being for at-risk 
children.
    Dr. Horn, could you give a broad overview of the current 
funding streams available for States to spend on child welfare 
services? There has been a lot of attention focused on what the 
reviews measure, as well as the data used to assess the State's 
performance. Is there any reason for us to think that different 
data or different measurements would tell us that these 
programs are, in fact, performing well?
    Dr. HORN. First of all, I think it is important for us to 
keep in mind that in developing the CFSRs, we intended to set a 
high bar, a high standard to challenge States to improve their 
systems. We decided not to set a low bar, a minimal standard, 
that would merely be minimally adequate, but rather to set a 
high bar to challenge States to improve their systems.
    So, I am not quite as surprised as others may be that 
States have not been able to pass all of the outcome areas and 
systemic factors in the CFSRs because we wanted to do more than 
simply say, ``Okay. States are doing a minimally acceptable job 
in their child welfare systems.'' We wanted to challenge them 
to do even better, not simply issuing a report card, but 
working with them, in partnership, through the development of 
their PIPs and then the implementation of those plans to 
improve outcomes for children within the child welfare system.
    In terms of the various funding streams, the major funding 
stream is Title IV-E of the Social Security Act (P.L. 74-271), 
which helps to fund both foster care and adoption assistance. 
Then there is Title IV-B, also in the Social Security Act, 
which provides States more flexible funds through a State 
formula grant program, where they can use those funds for a 
variety of purposes within child welfare. Then we have the 
Child Abuse Prevention and Treatment Act (CAPTA) (P.L. 93-247), 
which provides funding for both the prevention of child abuse 
and also for support of the child protection system itself, in 
terms of investigation of reports of child abuse and neglect 
and follow-up services.
    The difficulty, in my view, is that the largest Federal 
funding stream is Title IV-E. States can use these funds for 
eligible children including a look-back provision to the old 
Aid to Families with Dependent Children Act (AFDC) (P.L. 74-
271) program. States can use these funds to help pay for the 
maintenance costs of those children in foster care. States can 
also draw down money for the administrative costs of overseeing 
the program and for training child welfare staff and foster 
care personnel within the foster care system.
    Notice, when I talked about the IV-E program, I never used 
the word ``services,'' and that is the problem. You cannot use 
a penny of the largest Federal funding stream to provide 
services to children. You can't use it to provide prevention 
services, you can't use it to provide reunification services, 
you can't use it to support family preservation services, you 
can't use it to provide intensive wrap-around services once the 
child is in foster care. We are paying for a lot of process, 
for administrative costs, and we are paying for some of the 
maintenance payments for some of the children in care. It seems 
to us, if we are going to drive real improvements, we have to 
find a way to provide funding for services, and that is what 
the President's Flexible Funding State Option would do.
    Chairman HERGER. Thank you, Dr. Horn. The gentleman from 
Maryland, Mr. Cardin, to inquire.
    Mr. CARDIN. Dr. Horn, again, thank you for your service and 
your testimony here today. We may differ on what approach to 
reach the results, but I think we share the same, common 
objective. It is highly unlikely this Congress is going to pass 
the reforms that you are referring to. The last time I checked, 
I don't believe we even have a bill that has been filed yet 
that represents the Administration's proposal in this area.
    The Pew Foundation just recently came out with a report 
that I would hope that the Chairman will have a chance to 
review, and there are suggestions out there that we need to 
sort of put together and come up with a strategy on more 
flexibility to the States, while still maintaining the strong 
and increasing Federal role in dealing with this problem.
    I guess my question to you, I understand that you are 
proposing the full funding of the Promoting Safe and Stable 
Families Act, but beyond that, to implement these PIPs, it is 
going to cost money. States don't have the money. Would you be 
prepared to support additional Federal resources this year so 
that we can make some progress in expecting the States to be 
able to implement these correction plans? Shouldn't we be a 
partner in that?
    Dr. HORN. We are supportive of increased resources and 
funding in the child welfare field. In the President's fiscal 
year 2005 budget, there is nearly $190 million annually in new 
spending for child welfare. That includes a $100-million 
increase for the full funding of the Safe and Stable Families 
program. It includes about $75 million a year in additional 
funding under the Child Abuse Prevention and Treatment Act, and 
it includes about $15 million new dollars for additional 
training and education vouchers under the Independent Living 
Program. If you add those up, we are up to $190 million in 
additional funds coming from the Federal Government to help 
support the child welfare system.
    Mr. CARDIN. I hope that we will be successful in getting 
those funds, but I would suggest we need to be even more 
aggressive. In 2002, there was a survey done of investigation 
of 3.2 million children, nearly 90 to 100,000 were found to be 
victims of abuse and neglect, but the report showed that over 
40 percent received no additional services. It seems to me that 
that is going to be an extremely costly intervention for just 
that target population, in addition to the other problems we 
have in the child welfare system. I believe it was the 
Children's Defense Fund estimated that alone could cost an 
extra billion dollars a year. Now, we may argue with that 
dollar amount, but it is certainly a significant amount of 
additional resources if we are going to really expect States to 
follow up services with these abused children. So, I guess do 
you agree with that? Do we need to do a lot more in regards to 
this target population? Where are the resources coming from?
    Dr. HORN. We certainly agree that more resources are a part 
of the solution. If you look at, for example, our increases 
under CAPTA, our increase of $20 million for the child abuse 
State grant program would allow States to increase the 
percentage of post-investigative services to child victims of 
abuse and neglect from 58 percent to 75 percent. We also 
estimate that we could reduce the length of time between the 
initial investigation and delivery of those services from the 
current 48 days to 30 days. That is an improvement.
    Under the President's increase of $32 million for the 
community-based Child Abuse Prevention Program, it is estimated 
that currently we serve about 184,000 families, and with this 
$32-million increase, we could increase that by 55,000 
families. That is real progress. Unfortunately, in the 
budgetary process, we sometimes make the perfect the enemy of 
the good.
    Mr. CARDIN. No, and I agree with that. I don't expect we 
are going to solve this problem overnight, and I do acknowledge 
that this has been one area where the Administration has come 
in with additional resources. I would just urge that we figure 
out a way to make sure these resources become real and as 
significant as possible, targeted to our expectations on the 
evaluations. I will just mention one other area: casework 
issues. The surveys that I have seen is that caseworkers 
basically have twice as many children to supervise, as we would 
expect them to, and the reports also show that the more 
supervision in a case, the better the outcome. That is just 
another example that we really need to focus on.
    I agree, money is not the answer to the problem, but we are 
not going to solve the problem without additional resources, 
and I think at this point it is incumbent upon the Federal 
Government to figure out ways that we can work with the States 
and get them the help, with the expectation that we are going 
to demand progress, as we are under these reviews. I hear your 
responses, and I am encouraged by it, but I think we are going 
to have to be even more bold in our approaches here on Capitol 
Hill. Thank you, Mr. Chairman.
    Chairman HERGER. You are welcome. The gentleman from 
Louisiana, Mr. McCrery, to inquire.
    Mr. MCCRERY. Thank you, Mr. Chairman, and thank you, Dr. 
Horn, for your continued work. I am glad you are where you are 
and really appreciate not only your expertise, but your 
dedication to the job. Just a note, not in response necessarily 
to Mr. Cardin, but just to try to show us where we are, the 
States do have the capability to add funding to provide 
services., and even though we have gone through a couple of 
tough years budgetwise at the State level, they seem to be 
recovering now with the economy. In fact, the National 
Conference of State Legislatures recently predicted that 36 
States, I believe, are projecting surpluses for 2004. So, that 
is quite a turnaround for the last couple of years, and so we 
are hopeful that States will be able to start picking up some 
of that slack. In your written testimony you report that, 
``Particularly, States need to work to prevent repeat abuse and 
neglect of children.'' What are some things that States can do 
to accomplish that?
    Dr. HORN. One of the things that I think is important is 
that States have the resources to be able to implement services 
to children after, it has been determined that they have been 
abused and neglected. One of the sources for those kinds of 
services is the CAPTA. As I have mentioned, the President feels 
strongly about increasing funding under CAPTA so that we can 
both shorten the length of time it takes to deliver those 
services to families after a child has been determined to have 
been abused or neglected and increase the number of families 
that get those kinds of services. If we are able to do that, we 
will be in a better position to prevent recurrent maltreatment.
    In addition, we also have to also focus on prevention of 
child maltreatment in the first place, and there are some very 
promising models for doing that. I am particularly impressed 
with David Olds' work in using nurse practitioners to visit 
homes of high-risk families after a child is born, provide 
services early in the life of that child, and support for that 
family in parenting that child. He has been able to demonstrate 
that by providing voluntary home visiting by a nurse 
practitioner, substantiated child abuse and neglect can be 
reduced, by 75 percent over the next 16 years of that child's 
life.
    So, we do have some good models about how to do this. I do 
agree with Congressman Cardin and others that we need to 
provide additional resources so that States can provide these 
kinds of services, but I also agree with you that this is not 
solely a Federal Government responsibility and that State 
governments also have a responsibility to provide funding 
through the State legislatures to support these kinds of 
services as well.
    Mr. MCCRERY. Just to be accurate, I misspoke. I said 36. 
They actually predict 32 States will have surpluses. I had a 
chance to review that note. Originally, this responsibility was 
a State responsibility, wasn't it? States were doing this 
before the Federal Government got involved.
    Dr. HORN. Yes.
    Mr. MCCRERY So, I would hate to think that we are moving 
toward total Federal funding, total Federal control of this 
system. It is true that States I think needed some assistance 
from the Federal Government, certainly, in terms of standards 
and so forth, but I hope that we are not moving toward total 
Federal control. I would certainly not be in favor of that. So, 
I am hopeful that the States will start to exercise their 
traditional role and fund these programs adequately. Why do you 
think States are not focusing enough attention on up front 
preventive services, such as preventing family breakup and 
protecting children who remain at home with their family?
    Dr. HORN. One of the reasons, at least in terms of the 
Federal Government's role, is because we provide them with the 
bulk of the money to be used after the fact, not to prevent 
child and abuse from occurring in the first place. As I have 
said, the biggest funding source from the Federal Government is 
Title IV-E. Title IV-E is all about after-the-fact funding, and 
not services.
    A more rational system and a more compassionate system 
would be one that would say we are going to try to prevent the 
abuse and neglect from happening in the first place, not simply 
working to try to have a pristine system that takes care of 
kids after they have been abused and neglected. The problem is 
that States are sort of hamstrung, to a large degree, by the 
categorical nature of the Federal funding streams, and so I 
think that they have not been able to focus as much as they 
would like to on those prevention services.
    I think more than that, having worked in and around the 
child welfare system all of my professional life as a child 
psychologist, child welfare is a system that is driven by 
headlines, and you do not hear a headline, ``Child abuse was 
prevented today.'' So, if you never see that headline, then it 
is hard to get the political will within States to dedicate 
resources for prevention.
    One of the good developments that has come out of this CFSR 
process is focusing the attention of the political leadership 
within States on the need to invest State resources in 
prevention to get better outcomes for kids. So, we are hopeful 
that one of the good things that has happened, as States emerge 
from difficult economic times, as you have noted, that when 
they start to see additional resources available to them, one 
place they will look to invest them is in the child welfare 
system.
    Chairman HERGER. The gentleman from Michigan, Mr. Levin, to 
inquire.
    Mr. LEVIN. Thank you. Welcome. We seem to have a hearing on 
this every, how often has it been, no matter who is ruling the 
roost here, and it is hard to really figure out where things 
are, and how much progress has been made and what the answers 
are, and you say that there is not enough State flexibility 
because of the way the program is devised. In a way, you would 
think that since the Federal Government is picking up a 
considerable portion of the foster care programs, it would free 
the States to spend more of their money on prevention, but that 
does not seem to happen, and I think we have to do more for 
prevention. Let me ask you, the program option, I guess no 
specific proposal has been introduced along these lines?
    Dr. HORN. The Administration hasn't introduced legislation, 
but we are very actively engaged in working with the staff of 
this Subcommittee to help develop such legislation.
    Mr. LEVIN. How long has that been going on?
    Dr. HORN. For about the last year.
    Mr. LEVIN. How, I mean, what is the problem?
    Dr. HORN. Well, there are a lot of technical details to 
work out. The biggest difficulty is trying to figure out a 
method that keeps the program option cost neutral.
    Mr. LEVIN. Cost neutral?
    Dr. HORN. That is right, but that is not an insurmountable 
obstacle.
    Mr. LEVIN. The assumption it has to be cost neutral?
    Dr. HORN. The State option does need to be cost neutral, 
but again recall that we have also asked for increased funding 
so that all States, including those that do not choose the 
flexible funding option, would benefit from increased funding.
    Mr. LEVIN. What has happened to that? We pass bills here 
all the time, and we do not worry about funding them.
    [Laughter.]
    So, you are talking about, no, I meant that seriously.
    Dr. HORN. In terms of what has happened to the budgetary 
increases?
    Mr. LEVIN. So, let me ask you some more about the program 
option. The moneys would go to the States, it is your idea, for 
a 5-year period, and the States could draw the money year-by-
year or they could draw the money, they could draw more than a 
fifth of the money each year?
    Dr. HORN. They would have the option to either take the 
money in annual increments, according to what baseline 
projections suggest----
    Mr. LEVIN. So, they could take more than a year from the 
baseline, they could take 2 years at once?
    Dr. HORN. No. The most they could take would be the total 
amount over 5 years divided by 5 and take a fifth of that in 
equal installments across the 5 years. The advantage of that is 
that as the baseline spending increases, they would actually 
get more money up front than they would get under the current 
system. They could invest that in prevention, and thereby 
prevent the need for foster care services later on.
    Mr. LEVIN. Say that didn't work out, and they had to use 
the money for other services, what would happen then?
    Dr. HORN. We have planned for that. What we have suggested 
is that, in cases where there is an unexpected increase in the 
foster care population, not due to policy changes that they 
have implemented, but due to a real increased need for foster 
care, that States would be able to draw down additional funds 
from the billion dollar contingency fund currently authorized 
under the Temporary Assistance for Needy Families program (P.L. 
104-193). No State has ever drawn any money down from this 
fund.
    So, we feel that there is a safety valve for States who 
experience unexpected increases in foster care caseloads, 
despite their best efforts to implement prevention programs.
    Mr. LEVIN. So, what is the difference between this idea, 
and it is useful to talk about it, and a block grant to the 
State?
    Dr. HORN. A block grant is one in which you take the entire 
amount of money, and then you figure out some formula, 
distribute it to all 50 States plus Puerto Rico and the 
District of Columbia and then they spend the money based upon 
the State plan that they have submitted, but this is an option. 
So, a State that didn't want to do this, doesn't have to do it.
    Mr. LEVIN. So, this is an optional block grant.
    Dr. HORN. If that is the way you want to think of it, sure.
    Chairman HERGER. Thank you. The gentlelady from 
Connecticut, Mrs. Johnson, to inquire.
    Mrs. JOHNSON. Thank you. Let me summarize what I conclude 
from your testimony. We have a chart that shows that many 
States have complied with every systems improvement 
requirement. All States have complied with a number of system 
improvement requirements. Very few States have complied with 
more than one outcomes measure. Frankly, this is damning. I 
have been on this Committee since the late eighties, when Tom 
Downey was Chairman, and we had the first expose of how 
appalling our foster care system was nationwide. That is how we 
got into this.
    Now, I hope you don't take this personally, Wade, because I 
think very highly of you. You are doing a great job. This is 
catastrophic. Then when you look at what we are going to talk 
to the States about doing. First of all, you look at the 
failure issue, timely achievement of permanency, no State has 
met the standard. Somewhat better safety outcomes, six States 
are in substantial conformancy. This review was excellent, and 
I am glad you put the time into it because we needed to know, 
but what it tells us is what we have been doing since the late 
19eighties isn't doing much, and in the PIP programs, what are 
we focusing on? We are focusing on better training of 
supervisors, better training of staff, better assessment, 
better plans. I circulate, and I know Mr. Cardin does, and I 
know many Members of the Committee, you go to your own 
agencies, they are good. We have a lot of good people out 
there, but we are not paying attention. To go back to this 
issue of the flexible grants, we have been trying to do that, I 
have been trying to do that since the early eighties. There 
isn't any other answer, and I will not support one thin dime 
more for the training of supervisors, I won't do it, because 
even if all of the systems comply, the outcomes don't.
    So, we have got to do something far more aggressive. We 
know, I have seen it, Baylor University took all of their kids 
with mental health problems who were in the hospital more than 
6 months, put heavy services into the families, and the 
hospital time went down 2 months. Think of the re-entry change, 
think of the cost changes, and we can do this. We, the Federal 
Government, are the impediment to change because we don't pay 
until you remove the child from home. That is what we have been 
talking about.
    Flexibility masks the underlying problem in the system. The 
underlying problem in the system is us, and because we don't 
pay until you remove, we talk about supervisors, we talk about 
technology, we talk about systems. We are not talking about 
kids. The fact that you could give that example of a nurse 
practitioner. I can tell you agencies in my district that have 
the resources to place a family aide in a family at risk so 
that there can be some education about parenting, education 
about budgeting. You know, abuse comes from not knowing how to 
handle a miserable, awful child. There is not a child I have 
ever met that isn't really miserable and awful some of the 
time----
    [Laughter.]
    No adult in their right mind wouldn't become frustrated and 
angry. I love being a grandparent because all of a sudden it 
looks so easy. I mean, just relax.
    [Laughter.]
    So, we know what to do. One of the funny things here is 
that the correlation found between frequent caseworker visits 
with children and positive findings, we know that. You gave us 
an example of that. So, this Committee and the community, 
because the community has been unwilling to risk, also. We have 
had forms of this flexible grant program, and in the days when 
the foster care funding was streaming up, and you could see how 
much money you were going to get, and still you wouldn't take 
risks.
    So, my belief is not one thin dime more for what we are 
doing. We should take every penny we have got, pair it as 
challenge grants, so that if you can give us a plan that shows 
how you will use this money, and you need to tell us what you 
need to strengthen your local services. So, that, in 
Connecticut, for instance, we have a place now where, if there 
is a problem, you can put all of the siblings all together in 
the kids' home, so that the whole family can think this through 
and figure out what needs to be done. So, either all of those 
kids go back to their home or all of those kids go to one 
placement. There is a lot we could be doing, but I think these 
challenge grants should only go to States that have really 
thought through how do we strengthen community-based services 
so that the services are immediately available to the family 
and the child, but I also think they should not go to a State 
that hasn't changed their State law.
    We give people tickets for parking their car in the wrong 
place, and we do not compel parents of children, of families 
that are at risk, who clearly have alcohol or drug problems, to 
participate in treatment. So, how long are we going to pretend 
that by training supervisors, you are going to make changing 
kids' lives? We are not going to do it. We have got to get 
real, and we need to pass a bill that takes every cent we can 
possibly find and pairs it with the challenge of show us how 
you are going to change your system, so you begin to meet the 
needs early of the whole family, and then you will go to 
flexible funding, you will get this money, but we want changes 
in your law that hold adults accountable, as well as children, 
instead of just harping on our caseworkers who are not able to 
get parents to participate. Anyway, I have gone way over my 
time, but I thought this was an indictment of work that I have 
been a part of on this Committee either as a Member or as 
Chairman for, what now, almost 20 years, and I quit.
    Chairman HERGER. Please don't quit, Mrs. Johnson.
    [Laughter.]
    Dr. HORN. If I may take a moment to respond.
    Chairman HERGER. The time has expired. However, I think, 
Mrs. Johnson, you make some very good points, and, Dr. Horn, I 
would like for you to respond, if you would.
    Dr. HORN. First of all, I am bound and determined, before 
you and I retire, that we are going to reform the child welfare 
system and make it better for children. We have been working 
together on this for about 15 years now, and I am bound and 
determined to do something about this because it is appalling 
that we haven't made systemic reform in child welfare to date.
    I saw a press release recently, in which Congressman Miller 
said that the results of these CFSRs was ``bad news'' for those 
in the Administration to want to provide more flexible funding. 
Frankly, this is bad news for those who want to defend the 
current system. If the current system was working so darn good, 
we could leave it alone, but that is not what we have found. We 
need to do something dramatic to allow, encourage and motivate 
States to do better by the children that come in contact with 
the child welfare system.
    Mrs. JOHNSON. Well said.
    Chairman HERGER. Thank you. Turning to Mr. McDermott to 
inquire.
    Mr. MCDERMOTT. Thank you, Mr. Chairman. I appreciate the 
opportunity to talk. I wish we had a bill to look at, but since 
we don't, I will have to go on what I sort of surmise is going 
on here. When you put a block grant out there, and you say to 
the States you can choose a block grant or you can choose to 
stay in the old program, obviously, you want them to go to the 
block grant, don't you?
    Dr. HORN. It is completely up to the State.
    Mr. MCDERMOTT. That would be up to the State. That is 
exactly what you said. Yes, okay. The next question is would 
that be the purpose of pointing it out? You want to get off the 
old program?
    Dr. HORN. It depends on whether the State feels that that 
would be a better way to structure their child welfare system.
    Mr. MCDERMOTT. I think it is simply giving the State the 
option and that they choose what they see as their best 
interests. This is the recording that we did on the 11th of 
June, 2003. Now, this is so much baloney. I don't know how you 
have the gall to come up here. Where is the bill? If this 
Administration wants to make a change, and we have got to make 
a change, and I am going to be here 17 years, and we are going 
to change this thing, when are you going to put a piece of 
legislation on this dais for us to look at?
    You are saying exactly what you said 1 year ago, and I 
don't know how many times before that. So, this hearing is 
wonderful. I really do appreciate Mr. Herger doing it. It was 
Mr. McCrery who was in the Chair last time, but we will wring 
our hands, and we will talk about ``ain't it awful,'' and I 
will show you some articles from the New York Times about how 
awful it is and all of the rest, but until this Administration 
moves off their behind and does something, it is just talk. You 
are wasting our time coming up here.
    Now, I know you were asked up here, and I don't mean to 
berate you for coming up here, because you were asked up here, 
but there is no evidence whatsoever that anybody wants, GAO. We 
had commissioned this thing in March 2003, and they said, 
``Cause of caseworker turnover: low pay, risk of violence, 
staff shortages, high caseloads, administrative burdens, 
inadequate supervision, inadequate training.'' Then it says 
over here, ``Practices to improve recruitment and retention: 
university training partnerships, accreditation, leadership and 
mentoring programs, competency-based interviews, recruitment 
bonuses.'' Now, I think you agree to all of that, don't you? 
Why don't you write a bill and put some money behind it?
    Dr. HORN. Congressman, I can tell you that we have been 
working with the staff of this Subcommittee. I have met 
personally----
    Mr. MCDERMOTT. Which staff? Tell me which one of these 
staff you are working with.
    Dr. HORN. I have also met personally with the Ranking 
Member, Mr. Cardin, on this bill. We have had substantive 
conversations about it.
    Mr. MCDERMOTT. Substantive conversations.
    Dr. HORN. Yes, we have, and I would be very happy to come 
and talk with you about it as well.
    Mr. MCDERMOTT. It is not a matter of talking. If you think 
this should be changed, and you put it in the President's 
budget year after year after year, why don't you come up with a 
piece of legislation? The Republicans control the Presidency, 
the bureaucracy, the Senate, the House, and you people keep 
talking about it. You want to have this hearing, so you can get 
on television and look like you care about children, I know. It 
is very nice to see that. There is not one single bit of 
sincerity in what is going on here. You can have substantive 
talks till the cows come home, and if you don't put a piece of 
legislation up here for us to work on, either you or the 
Chairman, I don't know, if he wrote it, I think you guys would, 
they would dump all over him. I understand why he isn't wasting 
his time because everything is coming out of the White House. 
You can't possibly come up here and talk about caring about 
kids when you have done what you have done.
    Dr. HORN. Well, I think----
    Mr. MCDERMOTT. You know all of the States, every State out 
there is in trouble financially, and you say, ``Well, look, 
guys. We are going to give you the money and let you do 
whatever you want with it. We are not going to give you any 
more money, understand, just the same amount of money, and that 
is going to fix it.'' Well, then put a bill up here.
    Dr. HORN. You have just said something factually incorrect.
    Mr. MCDERMOTT. Oh, okay. I am sorry.
    Dr. HORN. The fact is that the Bush Administration put a 
billion dollars of sincerity on the table.
    Mr. MCDERMOTT. Has it been used?
    Dr. HORN. Congress has appropriated half of that, and we 
have continued to push for the other half in our budget. We 
have also put additional money on the table for the Child Abuse 
and Prevention Treatment Act. To say, that I don't care about 
kids, Congressman, with all due respect, that is horse hockey.
    Mr. MCDERMOTT. Well, you can authorize money, but the 
question is whether it gets spent, and the GAO comes up again 
and again with these reports that suggest that it ``ain't'' 
happening. We have got these new studies. Everybody has gone 
out to all of these States and done these studies. It isn't 
happening. The proof is in the pudding.
    Dr. HORN. The President of the United States does not 
appropriate money. The Congress of the United States does. The 
President has included a billion dollar increase in Safe and 
Stable Families in his budget for the last 2 years. Half of 
that has been appropriated and is being spent. In addition, the 
President, this year, in his 2005 budget request, has asked for 
doubling funding for CAPTA. It is part of his budget. It is now 
up to Congress to act, and I am very willing to work as 
aggressively as I can, with the Congress, to make sure that 
those additional funds are, in fact, appropriated.
    Mr. MCDERMOTT. So, you are laying the blame for this at the 
feet of the Congress, right?
    Dr. HORN. I didn't say that.
    Mr. MCDERMOTT. Well, you said it isn't----
    Chairman HERGER. The gentleman's time has expired.
    Mr. MCDERMOTT. We just do what we are doing. Thank you.
    Chairman HERGER. The gentleman's time has expired. I might 
mention the purpose of this hearing is because we do care. I 
believe that all of us care. It is obviously an area that we 
have not seen the success that we would like, and that is an 
understatement, but we are moving ahead. I might also mention 
that the Pew Foundation has been conducting a study of this for 
the last year. I understand their findings will be out this 
coming week. We intend, this Subcommittee and this Congress, to 
move forward working with all of the interested parties to try 
to make sure that these children have the care and the results 
that they deserve. With that, I want to thank----
    Mr. CARDIN. Would the Chairman just yield for one moment, 
very briefly?
    Chairman HERGER. Yes.
    Mr. CARDIN. Thank you, Mr. Chairman. First, let me thank 
you for those comments. I would hope that we would have a 
chance for a hearing on the Pew recommendations because I think 
they are innovative, and I think they may help us try and bring 
this to a conclusion. I would like to make just one 
observation. I agree with everything that Mrs. Johnson said, 
except that my two grandchildren are perfect. They have never 
been wrong.
    [Laughter.]
    Other than that----
    Mrs. JOHNSON. That shows you don't visit them often.
    [Laughter.]
    Mr. CARDIN. They live in my house a couple days a week. No, 
they are perfect, though. I have never seen them do anything 
wrong.
    Chairman HERGER. That is the beauty of being a grandparent.
    Mr. CARDIN. I do think we need to look at the reality, and 
the reality is that we are not going to pass in this Congress a 
revision of the child welfare system. There is just not enough 
time in the calendar. We are not going to have a bill. It is 
not going to happen. I would urge that we take Mrs. Johnson's 
suggestion, and that is take a look at the PIPs. These are 
specific action agendas dealing with service and figure out a 
way, through Federal and State funds, that we can get those 
programs implemented. I think that is what we really need to 
look at in the interim until we can figure out how we are going 
to redo the Federal structure for child welfare.
    Mrs. JOHNSON. Mr. Chairman?
    Chairman HERGER. Yes.
    Mrs. JOHNSON. Since I kind of started this, the critical 
line of complaining, I think we certainly do need to hear what 
Pew has to say. That is very constructive. It is part of the 
reason that we don't have the legislation yet. It is also true 
that there is, in my estimation, really no way of having any 
GAO report come out in the future any different from that one 
if we don't begin to look at the local level of services, and 
we cannot prescribe and dictate in detail that level. That is 
why this issue of flexibility is really, really critical. We 
can't have all of that money socked into out of placement when 
it could be so much better used.
    So, it is about prevention and system change, and to make 
system change, we have to have some courage to recognize that 
the old silo approach isn't going to work and the community 
does. The community has got to be much more aggressive in 
working with us to say, ``How do we get the money down to all 
of those people we know are doing a good job, so they can hire 
more people because they are doing their job?'' They know how 
to train. They are doing it. They just don't have enough, they 
can't make this switch from all of that money into foster care, 
and with two-family working, we are having a harder and harder 
time getting foster care. So, the fundamental workings of the 
structure are sliding away, and we are stuck on old language.
    So, I hope the Pew recommendations and getting more deeply 
into this will maybe give us criteria that we could develop 
about the quality of local providers, but we really have to 
have a lot of hands-on involvement, but we have got to do 
something different than more money into this system.
    Chairman HERGER. I thank the gentlelady. With that, I thank 
you, Dr. Horn, for your testimony, a very lively discussion we 
have had. With that, I would like to invite our next panel to 
have a seat at the table. Today, we will be hearing from 
Cornelia Ashby, Director of Education, Work force and Income 
Security Issues for the GAO; Edward Cotton, Director of the 
Division of Youth and Family Services for the State of New 
Jersey; and Christopher McCabe, Secretary of the Maryland 
Department of Human Resources. Ms. Ashby?

STATEMENT OF CORNELIA M. ASHBY, DIRECTOR, EDUCATION, WORKFORCE, 
   AND INCOME SECURITY ISSUES, U.S. GENERAL ACCOUNTING OFFICE

    Ms. ASHBY. Mr. Chairman and Members of the Subcommittee, 
thank you for inviting me here today to discuss States' efforts 
to comply with Federal CFSRs. While our full statement covers 
the experiences of States and the Administration for Children 
and Families (ACF) in conducting all aspects of these reviews, 
this morning, I will focus on States' experiences, developing, 
funding, and implementing 2-year PIPs, the final phase of the 
review process for States found to be deficient.
    Once ACF approves the PIP, States are required to submit 
quarterly progress reports. Federal child welfare funds can be 
withheld if States do not show adequate progress in 
implementing their PIPs, but these penalties are suspended 
during the 2-year PIP implementation period.
    My comments are based on the findings from our April 2004 
report on CFSRs. These findings were based on information 
obtained from a survey of the 50 States, the District of 
Columbia and Puerto Rico, post-survey follow-up phone calls 
with 10 States, visits to California, Florida, New York, 
Oklahoma and Wyoming, and examination of the 31 PIPs available 
as of January 31, 2004, and interviews with ACF officials and 
contractors, as well as child welfare experts.
    Forty-one States are engaged in PIPs, but uncertainties 
have affected the development, funding and implementation of 
these plans. While ACF has provided States with regulations and 
guidance to facilitate PIP development, several States 
commented in our survey that multiple aspects of the PIP 
approval process were unclear. These included how much detail 
and specificity ACF expects the plans to include, the type of 
feedback States could expect to receive, when States could 
expect to receive feedback and whether a specific format was 
required. Officials in three of the five States we visited told 
us that ACF had given States different instructions regarding 
acceptable PIP format and content.
    At least 9 or 36 percent of the 25 States responding to a 
question in our survey on PIP implementation identified 
insufficient funding, staff and time, as well as high 
caseloads, as their greatest challenges. The chart to my right 
depicts these results.
    [The chart follows:]
    [GRAPHIC] [TIFF OMITTED] 99673.001
    
    For example, as the first bar shows, 13 of the 25 or 52 
percent of the States responding to this question, reported 
that insufficient funding was challenging to a very great or 
great extent. In addition, 11 States or 44 percent reported 
that insufficient staff was a very great or great challenge. An 
equal share, 9 States or 36 percent, reported that insufficient 
time and high caseloads were significant challenges.
    While ACF has provided some guidance, ACF regional 
officials expressed uncertainty about how best to monitor 
States' progress and apply estimated financial penalties when 
progress was slow or absent, and 3 of the 5 States we visited 
reported frustration with the limited guidance ACF had provided 
on the PIPs quarterly reporting process.
    Based on data from the States that have been reviewed to 
date, the estimated financial penalties range from about 
$91,000 to more than $18 million, but the impact of these 
potential penalties remains unclear. Some States had mixed 
responses about the effect of financial penalties on PIP 
implementation. One official said that incurring the penalties 
was equivalent to shutting down social service operations in 
one office for a month, while other officials in the same State 
thought it would cost more to implement PIP strategies than it 
would to incur financial penalties.
    In our full statement, we explain that according to several 
State officials and child welfare experts, data improvements 
could enhance the reliability of CFSR findings. Without using 
more reliable data, ACF may be over--or underestimating the 
extent to which States are actually meeting the needs of the 
children in their care. These over--or underestimates can, in 
turn, affect the scope and content of the PIPs that States must 
develop in response.
    In our full statement, we also explain that, since 2001, 
ACFs focus has been almost exclusively on the CFSRs, and 
regional staff reported limitations in providing assistance to 
States to help them meet key Federal goals. Staff from half of 
ACFs regions told us they would like to provide more targeted 
assistance to States. State officials in the five States we 
visited said that ACFs existing technical assistance efforts 
could be improved.
    In our April 2004 report, we recommended that the Secretary 
of HHS ensure that ACF uses the best-available data to measure 
State performance. We also recommended that the Secretary 
clarify PIP guidance and provide guidance to regional 
officials, explaining how to better integrate the many training 
and technical assistance activities for which they are 
responsible with the CFSR responsibilities. Mr. Chairman, this 
concludes my prepared statement. I would be pleased to answer 
any questions.
    [The prepared statement of Ms. Ashby follows:]
  Statement of Cornelia M. Ashby, Director, Education, Workforce, and 
         Income Security Issues, U.S. General Accounting Office
    Mr. Chairman and Members of the Subcommittee:
    Thank you for inviting me here today to discuss states' efforts to 
comply with federal Child and Family Services Reviews (CFSR). As you 
are aware, in 2001, the Department of Health and Human Services' (HHS) 
Administration for Children and Families' (ACF) began implementing the 
CFSRs to hold states accountable for improving child welfare outcomes. 
Unlike prior federal reviews--which determined states' adherence to 
certain process measures--ACF designed the CFSR as an outcome-oriented 
approach to assess children's safety; their timely placement in 
permanent homes; and their mental, physical, and educational well-
being; and it developed certain standards against which to measure 
states' success in these areas.\1\ ACF also designed the reviews to 
assess states' performance across a range of systemic factors, such as 
caseworker training and foster parent licensing. The CFSR has multiple 
phases, consisting of a statewide assessment; an on-site review, which 
culminates in the release of a final report; and the development and 
implementation of a program improvement plan (PIP) when states are 
found to be deficient. Pursuant to CFSR regulations, ACF can withhold 
federal funds if states do not show adequate progress implementing 
their PIPs.
---------------------------------------------------------------------------
    \1\ The CFSR measures state performance on 45 performance items, 
which correspond to 7 outcomes and 7 systemic factors. The outcomes 
relate to children's safety, permanency, and well-being, and the 
systemic factors address state agency management and responsiveness to 
the community. Six national standards, as reported in the Adoption and 
Foster Care Analysis and Reporting System (AFCARS) and the National 
Child Abuse and Neglect Data System (NCANDS), apply to 5 of the 45 
items. Three of these standards are based on the 75th percentile of all 
states' performance--adoption; stability of foster care placements; and 
length of time to achieve reunification, guardianship, or permanent 
placement with relatives--because a higher incidence is desirable. 
However, the remaining three standards--recurrence of maltreatment, 
incidence of child abuse/neglect in foster care, and foster care re-
entries--are based on the 25th percentile of state performance because 
lower incidence is a desired outcome for these measures.
---------------------------------------------------------------------------
    My testimony today will focus on three key issues: (1) ACF's and 
the states' experiences preparing for and conducting the statewide 
assessments and on-site reviews; (2) ACF's and the states' experiences 
developing, funding, and implementing items in their PIPs; and (3) 
additional efforts, if any, that ACF has taken beyond the CFSR to help 
ensure that all states meet federal goals of safety, permanency, and 
well-being for children. My comments are based on the findings from our 
April 2004 report.\2\ Those findings were based on a survey of all 50 
states, the District of Columbia, and Puerto Rico regarding their 
experiences during each phase of the CFSR process;\3\ post-survey 
follow up phone calls with key states;\4\ and site visits to 
California, Florida, New York, Oklahoma, and Wyoming to obtain first-
hand information on states' experiences. We selected these states for 
diversity in their location, size, program administration, performance 
on the CFSR, and the timing of their review. We also examined all 31 
approved PIPs available as of January 1, 2004, and conducted interviews 
with ACF's senior officials, regional staff from all 10 regions, ACF 
contractors, staff from all 10 national resource centers,\5\ and key 
child welfare experts. We conducted our work between May 2003 and 
February 2004 in accordance with generally accepted government auditing 
standards.
---------------------------------------------------------------------------
    \2\ U.S. General Accounting Office, Child and Family Services 
Reviews: Better Use of Data and Improved Guidance Could Enhance HHS's 
Oversight of State Performance (GAO-04-333, April 20, 2004).
    \3\ We achieved a 98 percent response rate from this survey; Puerto 
Rico was the only non-respondent.
    \4\ The 10 states participating in our phone follow-up surveys were 
Arkansas, Iowa, Kansas, Mississippi, North Dakota, New Jersey, 
Pennsylvania, Rhode Island, Utah, and West Virginia.
    \5\ ACF has established cooperative agreements with 10 national 
resource centers to help states implement federal legislation intended 
to ensure the safety, permanency, and well-being of children and 
families. ACF sets the resource centers' areas of focus, and although 
each center has a different area of expertise, such as organizational 
improvement or information technology, all of them conduct needs 
assessments, sponsor national conference calls with states, collaborate 
with other resource centers and agencies, and provide on-site training 
and technical assistance to states.
---------------------------------------------------------------------------
    In summary, ACF and many state officials perceive the CFSR as a 
valuable process and a substantial undertaking, but some data 
enhancements could improve its reliability. ACF staff in 8 of the 10 
regions considered the CFSR a helpful tool to improve outcomes for 
children, and 26 of 36 states responding to a relevant question in our 
survey commented that they generally or completely agreed with the 
results of the final CFSR report, even though none of the 41 states 
with final CFSR reports released through 2003 has achieved substantial 
conformity on all CFSR outcomes and systemic factors. Additionally, 
both ACF and the states have dedicated substantial financial and staff 
resources to the process. Nevertheless, several state officials and 
child welfare experts we interviewed questioned the accuracy of the 
data used in the review process and noted that additional data from the 
statewide assessment could bolster the evaluation of state performance. 
While states' PIP planning is under way, uncertainties have affected 
the development, funding, and implementation of these plans. Officials 
from 3 of the 5 states we visited said ACF's PIP-related instructions 
were unclear, and at least 9 of the 25 states reporting on PIP 
implementation in our survey stated that insufficient funding, staff, 
and time, as well as high caseloads, were among the greatest 
challenges. While ACF has provided some guidance, ACF and state 
officials remain uncertain about PIP monitoring efforts and how ACF 
will apply financial penalties if states fail to achieve their stated 
PIP objectives. Further, since 2001, ACF's focus has been almost 
exclusively on the CFSRs and regional staff report limitations in 
providing assistance to states in helping them to meet key federal 
goals. To improve its oversight, we recommended in our April 2004 
report that the Secretary of HHS ensure that ACF use the best available 
data to measure state performance, clarify PIP guidance, and help 
regional offices better integrate their oversight responsibilities.
Background
    ACF's Children's Bureau administers and oversees federal funding to 
states for child welfare services under Titles IV-B and IV-E of the 
Social Security Act, and states and counties provide these child 
welfare services, either directly or indirectly through contracts with 
private agencies.\6\ Among other activities, ACF staff are responsible 
for developing appropriate policies and procedures for states to follow 
to obtain and use federal child welfare funds, reviewing states' 
planning documents required by Title IV-B, conducting states' data 
system reviews, assessing states' use of Title IV-E funds, and 
providing technical assistance to states through all phases of the CFSR 
process. In addition, ACF staff coordinate the work of the 10 resource 
centers to provide additional support and assistance to the states.
---------------------------------------------------------------------------
    \6\ Title IV-B of the Social Security Act, consisting of two 
subparts, is the primary source of federal funding for services to help 
families address problems that lead to child abuse and neglect and to 
prevent the unnecessary separation of children from their families. 
Funding under Title IV-E of the Social Security Act is used primarily 
to pay for the room and board of children in foster care.
---------------------------------------------------------------------------
    Spurred by the passage of the 1997 Adoption and Safe Families Act 
(ASFA), ACF launched the CFSR in 2001 to improve its existing 
monitoring efforts, which had once been criticized for focusing 
exclusively on states' compliance with regulations rather than on their 
performance over a full range of child welfare services. The CFSR 
process combines a statewide self-assessment, an on-site case file 
review that is coupled with stakeholder interviews,\7\ and the 
development and implementation of a 2-year PIP with performance 
benchmarks to measure progress in improving noted deficiencies. In 
assessing performance through the CFSR, ACF relies, in part, on its own 
data systems, known as NCANDS and AFCARS, which were designed prior to 
CFSR implementation to capture, report, and analyze the child welfare 
information collected by the states.\8\ Today, these systems provide 
the national data necessary for ACF to calculate national standards for 
key performance items against which all states are measured and to 
determine, in part, whether or not states are in substantial conformity 
on CFSR outcomes and systemic factors.\9\ Once ACF approves the PIP, 
states are required to submit quarterly progress reports. Pursuant to 
CFSR regulations, federal child welfare funds can be withheld if states 
do not show adequate PIP progress, but these penalties are suspended 
during the 2-year PIP implementation term.\10\
---------------------------------------------------------------------------
    \7\ The term stakeholder refers to two groups: (1) agency 
stakeholders, such as judges or advocates, whose responsibilities are 
closely related to the work of the child welfare agency and who can 
comment on the agency's overall performance on outcomes and systemic 
factors, and (2) case-specific stakeholders, such as parents, 
caseworkers, children, or others who are interviewed to provide first-
hand information that supplements reviewers' assessment of paper or 
electronic case files.
    \8\ States began voluntarily reporting to NCANDS in 1990, and in 
1995 started reporting to AFCARS on the demographic characteristics of 
adoptive and foster children and their parents, as well as foster 
children's type of placement and permanency goals. We recently issued a 
report on states' child welfare information systems and the reliability 
of child welfare data. U.S. General Accounting Office, Child Welfare: 
Most States Are Developing Statewide Information Systems, but the 
Reliability of Child Welfare Data Could Be Improved, GAO-03-809 
(Washington, D.C.: July 31, 2003).
    \9\ States achieve substantial conformity on outcomes and systemic 
factors when at least 90 percent of applicable cases are substantially 
achieved; stakeholder interviews confirm that state plan and other 
program requirements are in place and functioning as described in the 
applicable regulations or statute; and performance on items with 
national standards, where applicable, meets the applicable threshold.
    \10\ The formula for calculating penalties is based in part on each 
state's allocation of federal child welfare funds from Titles IV-B and 
IV-E and the number of outcomes and systemic factors for which 
substantial conformity has not been achieved.
---------------------------------------------------------------------------
    In preparation for the next round of CFSRs, ACF officials have 
formed a Consultation Work Group of ACF staff, child welfare 
administrators, data experts, and researchers who will propose 
recommendations on the CFSR measures and processes. The group's 
resulting proposals for change, if any, are not yet available.
The CFSR Is a Valuable Yet Substantial Undertaking, but Data 
        Enhancements Could Improve Its Reliability
    ACF and many state officials perceive the CFSR as a valuable 
process--highlighting many areas needing improvement--and a substantial 
undertaking, but some state officials and child welfare experts told us 
that data enhancements could improve its reliability. ACF staff in 8 of 
the 10 regions considered the CFSR a helpful tool to improve outcomes 
for children. Further, 26 of the 36 states responding to a relevant 
question in our survey commented that they generally or completely 
agreed with the results of the final CFSR report, even though none of 
the 41 states with final CFSR reports released through 2003 has 
achieved substantial conformity on all 14 outcomes and systemic 
factors. In addition, both ACF and the states have dedicated 
substantial financial and staff resources to the process. However, 
several state officials and child welfare experts we interviewed 
questioned the accuracy of the data used to compile state profiles and 
establish the national standards. While ACF officials in the central 
office contend that stakeholder interviews and case reviews compliment 
the data profiles, many state officials and experts reported that 
additional data from the statewide assessment could bolster the 
evaluation of state performance.
The CFSR Is a Valuable Process for ACF and the States
    ACF and state officials support the objectives of the review, 
especially in focusing on children's outcomes and strengthening 
relationships with stakeholders, and told us they perceive the process 
as valuable. For example, ACF officials from 8 regional offices noted 
that the CFSRs were more intensive and more comprehensive than the 
other types of reviews they had conducted in the past, creating a 
valuable tool for regional officials to monitor states' performance. In 
addition, state officials from every state we visited told us that the 
CFSR process helped to improve collaboration with community 
stakeholders. Furthermore, state staff from 4 of the 5 states we 
visited told us the CFSR led to increased public and legislative 
attention to critical issues in child welfare. For example, caseworkers 
in Wyoming told us that without the CFSR they doubted whether their 
state agency's administration would have focused on needed reforms. 
They added that the agency used the CFSR findings to request 
legislative support for the hiring of additional caseworkers.
    Along with the value associated with improved stakeholder 
relations, the ACF officials we talked to and many state officials 
reported that the process has been helpful in highlighting the outcomes 
and systemic factors, as well as other key performance items that need 
improvement. According to our survey, 26 of the 36 states that 
commented on the findings of the final CFSR report indicated that they 
generally or completely agreed with the findings, even though 
performance across the states was low in certain key outcomes and 
performance items. For example, not one of the 41 states with final 
reports released through 2003 was found to be in substantial conformity 
with either the outcome measure that assesses the permanency and 
stability of children's living situations or with the outcome measure 
that assesses whether states had enhanced families' capacity to provide 
for their children's needs. Moreover, across all 14 outcomes and 
systemic factors, state performance ranged from achieving substantial 
conformity on as few as 2 outcomes and systemic factors to as many as 
9.\11\ As figure 1 illustrates, the majority of states were determined 
to be in substantial conformity with half or fewer of the 14 outcomes 
and systemic factors assessed.
---------------------------------------------------------------------------
    \11\ California and Puerto Rico were determined to be in 
substantial conformity on 2 outcomes and systemic factors, while North 
Dakota achieved substantial conformity on 9.
---------------------------------------------------------------------------

   Figure 1: State Performance on the 14 CFSR Outcomes and Systemic 
                                Factors
[GRAPHIC] [TIFF OMITTED] 99673A.002

    States' performance on the outcomes related to safety, permanency, 
and well-being--as well as the systemic factors--is determined by their 
performance on an array of items, such as establishing permanency 
goals, ensuring worker visits with parents and children, and providing 
accessible services to families. The CFSR showed that many states need 
improvement in the same areas. For example, across all 41 states 
reviewed through 2003, the 10 items most frequently rated as needing 
improvement included assessing the needs and services of children, 
parents, and foster parents (40 states); assessing the mental health of 
children (37 states); and establishing the most appropriate permanency 
goal for the child (36states).
ACF and the States Report That Reviews Have Been a Substantial 
        Undertaking
    Given the value that ACF and the states have assigned to the CFSR 
process, both have spent substantial financial resources and staff time 
to prepare for and implement the reviews. In fiscal years 2001-03, when 
most reviews were scheduled, ACF budgeted an additional $300,000 
annually for CFSR-related travel. In fiscal year 2004, when fewer 
reviews were scheduled, ACF budgeted about $225,000. To further enhance 
its capacity to conduct the reviews, and to obtain additional 
logistical and technical assistance, ACF spent approximately $6.6 
million annually to hire contractors. Specifically, ACF has let three 
contracts to assist with CFSR-related activities, including training 
reviewers to conduct the on-site reviews, tracking final reports and 
PIP documents, and, as of 2002, writing the CFSR final reports. 
Additionally, ACF hired 22 new staff to build central and regional 
office capacity and dedicated 4 full-time staff and 2 state government 
staff temporarily on assignment with ACF to assist with the CFSR 
process. To build a core group of staff with CFSR expertise, ACF 
created the National Review Team, composed of central and regional 
office staff with additional training in and experience with the review 
process. In addition, to provide more technical assistance to the 
states, ACF reordered the priorities of the national resource centers 
to focus their efforts primarily on helping states with the review 
process.
    Like ACF, states also spent financial resources on the review. 
While some states did not track CFSR expenses--such as staff salaries, 
training, or administrative costs--of the 25 states that reported such 
information in our survey, the median expense to date was $60,550, 
although states reported spending as little as $1,092 and as much as 
$1,000,000 on the CFSR process.\12\ Although ACF officials told us that 
states can use Title IV-E funds to pay for some of their CFSR expenses, 
only one state official addressed the use of these funds in our survey, 
commenting that it was not until after the on-site review occurred that 
the state learned these funds could have been used to offset states' 
expenses. States also reported that they dedicated staff time to 
prepare for the statewide assessment and to conduct the on-site review, 
which sometimes had a negative impact on some staffs' regular duties. 
According to our survey, 45 states reported dedicating up to 200 full-
time staff equivalents (FTE), with an average of 47 FTEs, to the 
statewide assessment process.\13\ Similarly, 42 states responded that 
they dedicated between 3 and 130 FTEs, with an average of 45 FTEs, to 
the on-site review process. For some caseworkers, dedicating time to 
the CFSR meant that they were unable or limited in their ability to 
manage their typical workload. For example, Wyoming caseworkers whose 
case files were selected for the on-site review told us that they 
needed to be available to answer reviewers' questions all day every day 
during the on-site review, which they said prevented them from 
conducting necessary child abuse investigations or home visits. Child 
welfare-related stakeholders--such as judges, lawyers, and foster 
parents--also contributed time to the CFSR.
---------------------------------------------------------------------------
    \12\ These values are state-reported and reflect officials' 
estimates of costs associated with all CFSR-related activities except 
those incurred during PIP implementation. In reporting on their 
expenses, states were instructed to include the value of training, 
travel, infrastructure, technology, food, administrative supplies, and 
any other expenses associated with the CFSR process. States were also 
asked to provide supporting documentation for this particular question, 
but most states were unable to provide documentation. Many states 
reported that they did not track CFSR-related expenses. The 25 states 
that did provide estimates were in different phases of the CFSR.
    \13\ The number of FTEs participating in each phase of the CFSR is 
state-reported. While states were not given specific instructions for 
how to calculate FTEs, they were asked to report only on the phases of 
the CFSR that they had started or completed. Therefore, states' 
responses varied depending on the phase of the CFSR process they were 
in and the methods they used to calculate FTEs.
---------------------------------------------------------------------------
States and Child Welfare Experts Report That Several Data Improvements 
        Could Enhance CFSR Reliability
    State officials in the 5 states we visited, as well as child 
welfare experts, reported on several data improvements that could 
enhance the reliability of CFSR findings. In particular, they 
highlighted inaccuracies with the AFCARS and NCANDS data that are used 
for establishing the national standards and creating the statewide data 
profiles, which are then used to determine if states are in substantial 
conformity. These concerns echoed the findings of a prior GAO study on 
the reliability of these data sources, which found that states are 
concerned that the national standards used in the CFSR are based on 
unreliable information and should not be used as a basis for comparison 
and potential financial penalty.\14\ Furthermore, many states needed to 
resubmit their statewide data after finding errors in the data profiles 
ACF would have used to measure compliance with the national 
standards.\15\ According to our national survey, of the 37 states that 
reported on resubmitting data for the statewide data profile, 23 needed 
to resubmit their statewide data at least once, with one state needing 
to resubmit as many as five times to accurately reflect revised data. 
Four states reported in our survey that they did not resubmit their 
data profiles because they did not know they had this option or they 
did not have enough time to resubmit before the review.
---------------------------------------------------------------------------
    \14\ GAO-03-809.
    \15\ ACF provides states with their statewide data about 6 months 
prior to the on-site review, during which time states are allowed to 
make corrections to the data and resubmit the updated data so it can be 
used when determining state conformity with CFSR measures.
---------------------------------------------------------------------------
    In addition to expressing these data concerns, child welfare 
experts as well as officials in all of the states we visited commented 
that existing practices that benefit children might conflict with 
actions needed to attain the national standards. For example, officials 
in New York said that they recently implemented an initiative to 
facilitate adoptions. Because these efforts focus on the backlog of 
children who have been in foster care for several years, New York 
officials predict that their performance on the national standard for 
adoption will be lower since many of the children in the initiative 
have already been in care for more than 2 years. Experts and officials 
from multiple states also commented that they believe the on-site 
review case sample of 50 cases is too small to provide an accurate 
picture of statewide performance, although ACF officials stated that 
the case sampling is supplemented with additional information.\16\ For 
example, Oklahoma officials we visited commented that they felt the 
case sample size was too small, especially since they annually assess 
more than 800 of their own cases--using a procedure that models the 
federal CFSR--and obtain higher performance results than the state 
received on its CFSR. Furthermore, because not every case in the 
states' sample is applicable to each item measured in the on-site 
review, we found that sometimes as few as 1 or 2 cases were being used 
to evaluate states' performance on an item. For example, Wyoming had 
only 2 on-site review cases applicable for the item measuring the 
length of time to achieve a permanency goal of adoption, but for 1 of 
these cases, reviewers determined that appropriate and timely efforts 
had not been taken to achieve finalized adoptions within 24 months, 
resulting in the item being assigned a rating of area needing 
improvement.\17\ While ACF officials acknowledged the insufficiency of 
the sample size,\18\ they contend that the case sampling is augmented 
by stakeholder interviews for all items and applicable statewide data 
for the five CFSR items with corresponding national standards, 
therefore providing sufficient evidence for determining states' 
conformity.
---------------------------------------------------------------------------
    \16\ According to our calculations--which assumed that the 
attribute of interest occurred in about 50 percent of the cases--a 
sample size of 50 would produce percentage estimates with a 95 percent 
margin of error of approximately plus or minus 14 percentage points. 
This level of variability is a limitation when attempting to interpret 
estimates based on this sample size.
    \17\ Because 1 of the 2 cases applicable to the adoption measure 
was assigned a rating of area needing improvement, 50 percent of the 
cases for this item were assigned a rating of area needing improvement. 
As a result, the item was given an overall rating of area needing 
improvement since both cases would have needed to be assigned a rating 
of strength for this item to meet the 85 percent threshold necessary to 
assign an overall rating of strength.
    \18\ An ACF statistician also confirmed that the CFSR sample is too 
small to generalize to the states' populations and that the three 
sites, from which cases are selected, also are not representative.
---------------------------------------------------------------------------
    All of the states we visited experienced discrepant findings 
between the aggregate data from the statewide assessment and the 
information obtained from the on-site review. We also found that in 
these 5 states, ACF had assigned an overall rating of area needing 
improvement for 10 of the 11 instances in which discrepancies occurred. 
ACF officials acknowledged the challenge of resolving data 
discrepancies, noting that such complications can delay the release of 
the final report and increase or decrease the number of items that 
states must address in their PIPs. While states have the opportunity to 
resolve discrepancies by submitting additional information explaining 
the discrepancy or by requesting an additional case review, only 1 
state to date has decided to pursue the additional case review.\19\ 
Further, several state officials and experts also told us that 
additional data from the statewide assessments--or other data sources 
compiled by the states--could bolster the evaluation of states' 
performance, but they found this information to be missing or 
insufficiently used in the final reports. For example, child welfare 
experts and state officials from California and New York--who are using 
alternative data sources to AFCARS and NCANDS, such as longitudinal 
data that track children's placements over time--told us that the 
inclusion of this more detailed information would provide a more 
accurate picture of states' performance nationwide. An HHS official 
told us that alternative data are used only to assess state performance 
in situations in which a state does not have NCANDS data, since states 
are not mandated to have these systems.
---------------------------------------------------------------------------
    \19\ Virginia requested an additional case review to resolve a 
discrepancy between the statewide data and on-site review findings for 
the item measuring the state's performance on foster care re-entries. 
According to an ACF regional official, the state met the national 
standard for this item but the case review findings showed the state 
did not meet the threshold for this measure. At the time of publication 
of our April 2004 report, ACF and the state were still finalizing plans 
to conduct the additional case review, and until the review is 
completed, the state cannot receive its final report.
---------------------------------------------------------------------------
    Given their concerns with the data used in the review process, 
state officials in 4 of the 5 states believed that the threshold for 
achieving substantial conformity was difficult to achieve. While an ACF 
official told us that different thresholds for the national standards 
had been considered, ACF policy makers ultimately concluded that a 
threshold at the 75th percentile of the nationwide data would be used. 
ACF officials recognize that they have set a high standard. However, 
they believe it is attainable and supportive of their overall approach 
to move states to the standard through continuous improvement.
Program Improvement Planning Under Way, but Uncertainties Challenge 
        Plan Development, Implementation, and Monitoring
    Forty-one states are engaged in program improvement planning, but 
many uncertainties, such as those related to federal guidance and 
monitoring and the availability of state resources, have affected the 
development, implementation, and funding of the PIPs. State PIPs 
include strategies such as revising or developing policies, training 
caseworkers, and engaging stakeholders, and ACF has issued regulations 
and guidance to help states develop and implement their plans. 
Nevertheless, states reported uncertainty about how to develop their 
PIPs and commented on the challenges they faced during implementation. 
For example, officials from 2 of the states we visited told us that ACF 
had rejected their PIPs before final approval, even though these 
officials said that the plans were based on examples of approved PIPs 
that regional officials had provided. Further, at least 9 of the 25 
states responding to a question in our survey on PIP implementation 
indicated that insufficient time, funding, and staff, as well as high 
caseloads, were the greatest challenges they faced. As states progress 
in PIP implementation, some ACF officials expressed a need for more 
guidance on how to monitor state accomplishments, and both ACF and 
state officials were uncertain about how the estimated financial 
penalties would be applied if states fail to achieve the goals 
described in their plans.
State Plans Include a Variety of Strategies to Address Identified 
        Weaknesses
    State plans include a variety of strategies to address weaknesses 
identified in the CFSR review process. However, because most states had 
not completed PIP implementation by the time of our analysis, the 
extent to which states have improved outcomes for children has not been 
determined.\20\ While state PIPs varied in their detail, design, and 
scope, according to our analysis of 31 available PIPs, these state 
plans have focused to some extent on revising or developing policies; 
reviewing and reporting on agency performance; improving information 
systems; and engaging stakeholders such as courts, advocates, foster 
parents, private providers, or sister agencies in the public 
sector.\21\ Table 1 shows the number of states that included each of 
the six categories and subcategories of strategies we developed for the 
purposes of this study.
---------------------------------------------------------------------------
    \20\ As we reported in our April 2004 report, only Delaware and 
North Carolina had completed the 2-year term of their PIPs, and ACF was 
still analyzing the states' progress and had not determined if there 
has been overall improvement or if ACF will apply financial penalties.
    \21\ Although 41 states were developing or implementing PIPs when 
our April 2004 report was published, we reviewed the 31 available PIPs 
that ACF had approved as of January 1, 2004.

 Table 1: Number of States Including Each of the PIP Strategy Categories
                           Used in This Study
------------------------------------------------------------------------
                                               Description (number of
           PIP strategy category              states that included the
                                               strategy in their PIP)
------------------------------------------------------------------------
Policies and procedures                     Review, modify, or develop/
                                             implement any policy,
                                             procedure or case practice
                                             standard (31)
                                            Enhance foster home/parent
                                             licensing standards (7)
                                            Develop child and family
                                             assessment tools, such as
                                             protocols for risk/safety
                                             determinations (28)
                                            Identify and adopt any
                                             promising practices (19)
------------------------------------------------------------------------
Data collection and analysis                Review and report on agency
                                             performance through self-
                                             assessments or internal
                                             audits/review (31)
                                            Apply federal CFSR or
                                             similar process for
                                             internal statewide case
                                             reviews (16)
                                            Improve information and data
                                             collection systems (31)
------------------------------------------------------------------------
Staff supports                              Train and develop
                                             caseworkers (through
                                             dissemination and training
                                             on policy or through
                                             revisions to overall
                                             curriculum) (30)
                                            Assess and monitor staff
                                             responsibilities, skills,
                                             or performance
                                            (24) Recruit additional
                                             staff/retain staff (14)
                                            Lower caseloads (11)
                                            Increase caseworker pay (1)
------------------------------------------------------------------------
Foster parent supports/services and         Train and develop foster
 resources for children and families         families'/providers' skills
                                             and capacities (27)
                                            Recruit and retain foster
                                             families (22)
                                            Increase involvement of
                                             foster or birth families in
                                             case (18)
                                            Expand service array for
                                             children and families
                                             (includes developing or
                                             enhancing transportation
                                             systems to transport
                                             siblings and parents for
                                             visits, creating one-stop
                                             centers for assistance,
                                             modifying visitation
                                             services, and providing any
                                             additional support
                                             services) (27)
                                            Engage stakeholders such as
                                             courts, advocates, foster
                                             homes, private providers,
                                             or sister agencies in
                                             public sector, e.g., mental
                                             health (can include
                                             consultation, training, or
                                             formal partnering to
                                             improve services or
                                             placements) (31)
                                            Create or improve monitoring
                                             of contracts with private
                                             providers to enhance
                                             service delivery (includes
                                             development of performance
                                             based or outcome-based
                                             contracts or other
                                             evaluations of provider
                                             performance) (25)
------------------------------------------------------------------------
State legislative supports                  State request for
                                             legislative action to
                                             support any of the above
                                             strategies (20)
------------------------------------------------------------------------
Federal technical assistance                State request technical
                                             assistance from ACF or any
                                             resource center to support
                                             any of the above strategies
                                             (27)
------------------------------------------------------------------------
Source: GAO analysis.


    Our analysis also showed that many states approached PIP 
development by building on state initiatives in place prior to the on-
site review. Of the 42 surveyed states reporting in our survey on this 
topic, 30 said that their state identified strategies for the PIP by 
examining ongoing state initiatives. For example, local officials in 
New York City and state officials in California told us that state 
reform efforts--borne in part from legal settlements--have become the 
foundation for the PIP. State officials in California informed us that 
reform efforts initiated prior to the CFSR, such as implementing a new 
system for receiving and investigating reports of abuse and neglect and 
developing more early intervention programs, became integral elements 
in the PIP.
Insufficient Guidance Hampered State Planning Efforts, but ACF Has 
        Taken Steps to Clarify Expectations and Improve Technical 
        Assistance
    ACF has provided states with regulations and guidance to facilitate 
PIP development, but some states believe the requirements have been 
unclear. For example, several states commented in our survey that 
multiple aspects of the PIP approval process were unclear, such as how 
much detail and specificity the agency expects the plan to include; 
what type of feedback states could expect to receive; when states could 
expect to receive such feedback; and whether a specific format was 
required. Officials in the states we visited echoed survey respondents' 
concerns with officials from 3 of the 5 states informing us that ACF 
had given states different instructions regarding acceptable PIP format 
and content. For example, California and Florida officials told us that 
their program improvement plans had been rejected prior to final 
approval, even though they were based on examples of approved plans 
that regional officials had provided. In addition, California officials 
told us that they did not originally know how much detail the regional 
office expected in the PIP and believed that the level of detail the 
regional office staff ultimately required was too high. Specifically, 
officials in California said that the version of their plan that the 
region accepted included 2,932 action steps--a number these officials 
believe is too high given their state's limited resources and the 2-
year time frame to implement the PIP.
    ACF officials have undertaken several steps to clarify their 
expectations for states and to improve technical assistance. For 
example, in 2002, 2years after ACF released the CFSR regulations and a 
procedures manual, ACF offered states additional guidance and provided 
a matrix format to help state officials prepare their plans. ACF 
officials told us the agency sends a team of staff from ACF and 
resource centers to the state to provide intensive on-site technical 
assistance, when it determines that a state is slow in developing its 
PIP. Further, ACF has sent resource center staff to states to provide 
training almost immediately after the completion of the on-site review 
to encourage state officials to begin PIP development before the final 
report is released. Our survey results indicate that increasing numbers 
of states are developing their PIPs early in the CFSR process, which 
may reflect ACF's emphasis on PIP development. According to our 
analysis, of the 18 states reviewed in 2001, only 2 started developing 
their PIPs before or during the statewide assessment phase. Among 
states reviewed in 2003, this share increased to 5 of 9.
    Evidence suggests that lengthy time frames for PIP approval have 
not necessarily delayed PIP implementation, and ACF has made efforts to 
reduce the time the agency takes to approve states' PIPs. For example, 
officials in 3 of the 5 states we visited told us they began 
implementing new action steps before ACF officially approved their 
plans because many of the actions in their PIPs were already under way. 
In addition, according to our survey, of the 28 states reporting on 
this topic, 24 reported that they had started implementing their PIP 
before ACF approved it. Further, our analysis shows that the length of 
time between the PIP due date, which statute sets at 90 days after the 
release of the final CFSR report, and final ACF PIP approval has ranged 
considerably--from 45 to 349 business days. For almost half of the 
plans, ACF's approval occurred 91 to 179 business days after the PIP 
was due. Our analysis indicated that ACF has recently reduced the time 
lapse by 46 business days. This shorter time lapse for PIP approval may 
be due, in part, to the ACF's emphasis on PIP development. According to 
one official, ACF has directed states to concentrate on submitting a 
plan that can be quickly approved. Another ACF official added that 
because of ACF's assistance with PIP development, states are now 
submitting higher-quality PIPs that require fewer revisions.
State and Federal Uncertainties Cloud PIP Implementation and Monitoring
    Program improvement planning has been ongoing, but uncertainties 
have made it difficult for states to implement their plans and ACF to 
monitor state performance. Such uncertainties include not knowing 
whether state resources are adequate to implement the plans and how 
best to monitor state reforms. In answering a survey question about PIP 
implementation challenges, a number of states identified insufficient 
funding, staff, and time--as well as high caseloads--as their greatest 
obstacles. Figure 2 depicts these results.

 Figure 2: Most Common Challenges Affecting States' PIP Implementation
[GRAPHIC] [TIFF OMITTED] 99673A.003

    Note: This is based on responses from 25 states. The results 
reported in the figure are a sum of the states reporting that the issue 
was a challenge to PIP implementation to a very great extent, great 
extent, moderate extent, or some/little extent. States not included 
answered no extent, no basis to judge, or not applicable.
    One official from Pennsylvania commented that because of the 
state's budget shortfall, no additional funds were available for the 
state to implement its improvement plan, so most counties must improve 
outcomes with little or no additional resources. A Massachusetts 
official reported that fiscal problems in his state likely would lead 
the state to lay off attorneys and caseworkers and to cut funding for 
family support programs. While state officials acknowledged that they 
do not have specific estimates of PIP implementation expenses because 
they have not tracked this information in their state financial 
systems, many states indicated that to cope with financial 
difficulties, they had to be creative and use resources more 
efficiently to fund PIP strategies. Of the 26 states responding to a 
question in our survey on PIP financing, 12 said that they were 
financing the PIP strategies by redistributing current funding, and 7 
said that they were using no-cost methods. In an example of the latter, 
Oklahoma officials reported pursuing in-kind donations from a greeting 
card company so that they could send thank-you notes to foster parents, 
believing this could increase foster parent retention and engagement. 
Aside from funding challenges, states also reported that PIP 
implementation has been affected by staff workloads, but these comments 
were mixed. In Wyoming, for example, caseworkers told us that their 
high caseloads would prevent them from implementing many of the 
positive action steps included in their improvement plan. In contrast, 
Oklahoma caseworkers told us that the improvement plan priorities in 
their state--such as finding permanent homes for children--have helped 
them become more motivated, more organized, and more effective with 
time management.
    ACF officials expressed uncertainty about how best to monitor 
states' progress and apply estimated financial penalties when progress 
was slow or absent, and 3 of the 5 states we visited reported 
frustration with the limited guidance ACF had provided on the PIPs 
quarterly reporting process. For example, 4 regional offices told us 
that they did not have enough guidance on or experience with evaluating 
state quarterly reports. Some regional offices told us they require 
states to submit evidence of each PIP action step's completion, such as 
training curricula or revised policies, but one ACF official 
acknowledged that this is not yet standard procedure, although the 
agency is considering efforts to make the quarterly report submission 
procedures more uniform. Moreover, ACF staff from 1 region told us that 
because PIP monitoring varies by region, they were concerned about 
enforcing penalties. Shortly before California's quarterly report was 
due, state officials told us they still did not know how much detail to 
provide; how to demonstrate whether they had completed certain 
activities; or what would happen if they did not reach the level of 
improvement specified in the plan. Based on data from the states that 
have been reviewed to date, the estimated financial penalties range 
from a total of $91,492 for North Dakota to $18,244,430 for California, 
but the impact of these potential penalties remains unclear. While ACF 
staff from most regional offices told us that potential financial 
penalties are not the driving force behind state reform efforts, some 
contend that the estimated penalties affect how aggressively states 
pursue reform in their PIPs. For example, regional office staff noted 
that 1 state's separate strategic plan included more aggressive action 
steps than those in its PIP because the state did not want to be liable 
for penalties if it did not meet its benchmarks for improvement. State 
officials also had mixed responses as to how the financial penalties 
would affect PIP implementation. An official in Wyoming said that 
incurring the penalties was equivalent to shutting down social service 
operations in 1 local office for a month, while other officials in the 
same state thought it would cost more to implement PIP strategies than 
it would to incur financial penalties if benchmarks were unmet. 
Nevertheless, these officials also said that while penalties are a 
consideration, they have used the CFSR as an opportunity to provide 
better services. One official in another state agreed that it would 
cost more to implement the PIP than to face financial penalties, but 
this official was emphatic in the state's commitment to program 
improvement.
ACF's Focus Rests Almost Exclusively on Implementing the CFSR
    To implement the CFSRs, ACF has focused its activities almost 
entirely on the CFSR review process, and regional staff report 
limitations in providing assistance to states in helping them to meet 
key federal goals. ACF officials told us the CFSR has become the 
agency's primary mechanism for monitoring states and facilitating 
program improvement, but they acknowledged that regional office staff 
might not have realized the full utility of the CFSR as a tool to 
integrate all existing training and technical assistance efforts. 
Further, according to ACF officials, meetings to discuss a new system 
of training and technical assistance are ongoing, though 
recommendations were not available at the time of publication of our 
April 2004 report. Levels of resource center funding, the scope and 
objectives of the resource centers' work, and the contractors who 
operate the resource centers are all subject to change before the 
current cooperative agreements expire at the close of fiscal year 2004.
    ACF officials told us that the learning opportunities in the 
Children's Bureau are intentionally targeted at the CFSR, but staff in 
3 regions told us that this training should cover a wider range of 
subjects--including topics outside of the CFSR process--so that 
regional officials could better meet states' needs. All 18 of the 
courses that ACF has provided to its staff since 2001 have focused on 
such topics as writing final CFSR reports and using data for program 
improvement, and while ACF officials in the central office said that 
the course selection reflects both the agency's prioritization of the 
CFSR process and staff needs, our interviews with regional staff 
suggest that some of them wish to obtain additional non-CFSR training. 
In addition, although ACF organizes biennial conferences for state and 
federal child welfare officials, staff from 5 regions told us that they 
wanted more substantive interaction with their ACF colleagues, such as 
networking at conferences, to increase their overall child welfare 
expertise. Further, staff from 6 of the 10 regions told us that their 
participation in conferences is limited because of funding constraints.
    ACF staff in all 10 regions provide ongoing assistance or ad hoc 
counseling to states, either through phone, e-mail, or on-site support, 
but staff from 6 regions told us they would like to conduct site visits 
with states more regularly to improve their relationships with state 
officials and provide more targeted assistance. Further, staff in 4 
regions felt their travel funds were constrained and explained that 
they try to stretch their travel dollars by addressing states' non-CFSR 
needs, such as court improvements, during CFSR-related visits. While an 
ACF senior official from the central office confirmed that CFSR-related 
travel constituted 60 percent of its 2002 child welfare-monitoring 
budget, this official added that CFSR spending represents an infusion 
of funding rather than a reprioritization of existing dollars, and 
stated that regional administrators have discretion over how the funds 
are allocated within their regions. In addition, the same official 
stated that he knew of no instance in which a region requested more 
money for travel than it received.
    Concerns from state officials in all 5 of the states we visited 
echoed those of regional office staff and confirmed the need for 
improvements to the overall training and technical assistance 
structure. For example, state officials in New York and Wyoming 
commented that ACF staff from their respective regional offices did not 
have sufficient time to spend with them on CFSR matters because 
regional staff were simultaneously occupied conducting reviews in other 
states. However, our survey results revealed that states reviewed in 
2003 had much higher levels of satisfaction with regional office 
assistance than those states reviewed in 2001, which suggests 
improvements to regional office training and technical assistance as 
the process evolved.
Concluding Observations
    ACF and the states have devoted considerable resources to the CFSR 
process, but to date, no state has passed the threshold for substantial 
conformity on all CFSR measures, and concerns remain regarding the 
validity of some data sources and the limited use of all available 
information to determine substantial conformity. The majority of states 
surveyed agreed that CFSR results are similar to their own evaluation 
of areas needing improvement. However, without using more reliable 
data--and in some cases, additional data from state self-assessments--
to determine substantial conformity, ACF may be over--or under-
estimating the extent to which states are actually meeting the needs of 
the children and families in their care. These over--or under-estimates 
can, in turn, affect the scope and content of the PIPs that states must 
develop in response.
    In addition, the PIP development, approval, and monitoring 
processes remain unclear to some, potentially reducing states' 
credibility with their stakeholders and straining the federal/state 
partnership. Similarly, regional officials are unclear as to how they 
can accomplish their various training and technical assistance 
responsibilities, including the CFSR. Without clear guidance on how to 
systematically prepare and monitor PIP-related documents, and how 
regional officials can integrate their many oversight responsibilities, 
ACF has left state officials unsure of how their progress over time 
will be judged and potentially complicated its own monitoring efforts.
    To ensure that ACF uses the best available data in measuring state 
performance, we recommended in our April 2004 report that the Secretary 
of HHS expand the use of additional data states may provide in their 
statewide assessments and consider alternative data sources when 
available, such as longitudinal data that track children's placements 
over time, before making final CFSR determinations. In addition, to 
ensure that ACF regional offices and states fully understand the PIP 
development, approval, and monitoring processes, and that regional 
offices fully understand ACF's prioritization of the CFSR as the 
primary mechanism for child welfare oversight, we recommended that the 
Secretary of HHS issue clarifying guidance on the PIP process and 
evaluate states' and regional offices' adherence to this instruction 
and provide guidance to regional offices explaining how to better 
integrate the many training and technical assistance activities for 
which they are responsible, such as participation in state planning 
meetings and the provision of counsel to states on various topics, with 
their new CFSR responsibilities. In response to the first 
recommendation, HHS acknowledged that the CFSR is a new process that 
continues to evolve, and also noted several steps it has taken to 
address the data quality concerns we raise in our report. We believe 
that our findings from the April 2004 report, as well as a previous 
report on child welfare data and states' information systems, fully 
address HHS's initial actions, as well as the substantial resources the 
agency has already dedicated to the review process. However, to improve 
its oversight of state performance, our recommendation was meant to 
encourage HHS to take additional actions to improve its use of data in 
conducting these reviews. In response to the second recommendation, HHS 
said that it has continued to provide technical assistance and training 
to states and regional offices, when appropriate. HHS noted that it is 
committed to continually assessing and addressing training and 
technical assistance needs. In this context, our recommendation was 
intended to encourage HHS to enhance existing training efforts and 
focus both on state and on regional officials' understanding of how to 
incorporate the CFSR process into their overall improvement and 
oversight efforts.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to respond to any questions that you or other members of the 
subcommittee may have.

                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Ashby. Mr. Cotton?

STATEMENT OF EDWARD E. COTTON, DIRECTOR, DIVISION OF YOUTH AND 
   FAMILY SERVICES, NEW JERSEY DEPARTMENT OF HUMAN SERVICES, 
                      TRENTON, NEW JERSEY

    Mr. COTTON. Good morning. On behalf of the New Jersey 
Department of Human Services, I do want to begin by thanking 
you, Chairman Herger and Members of the Committee, for giving 
us the opportunity to update you on the progress or reforming 
New Jersey's child welfare system. Six months ago, we testified 
before this Committee regarding how New Jersey was unable to 
prevent the plight of four starving children who should have 
fared far better and been better served by their State's child 
protection agency.
    I am pleased to tell you that all four of these children 
are doing very well. They have gained considerable weight and 
height and are thriving in safe environments. We do acknowledge 
that this case, among others, required our State's immediate 
and concerted attention. Since that time, New Jersey has 
undertaken significant reform measures not only to respond to 
that case, but to go far beyond that and reform the entire 
child protection and child welfare system. Governor James 
McGreevey has courageously and energetically taken up the cause 
of at-risk children. We have begun implementing a long-overdue 
plan to restructure the State's child welfare system and the 
entire system that exists to protect children of New Jersey 
from abuse or neglect.
    This year, Governor McGreevey has dedicated an additional 
$15 million to this effort. In addition, he has committed 
another $305 million over the next 2 years, $125 million for 
fiscal year 2005 and another $180 million in fiscal year 2006 
to this effort. We agreed to create this plan and totally 
restructure our child welfare system as part of a court-
approved settlement reached last summer in a lawsuit filed 
against the State and anticipate the plan will be approved in 
Federal court in June.
    We have already made progress in some critical areas of 
child welfare reform. We have initiated the practice of 
placement assessments for children in foster care to assure 
their safety. We have expanded substance abuse services by 
adding another 850 treatment slots to serve an additional 2,500 
families. We have also hired an additional 158 frontline 
caseworkers, case aides and supervisors to address heavy 
caseloads and have implemented a mobile response system for 
children in crisis in 3 of our State's 4 largest counties, so 
they can be stabilized at home and not require placement.
    We have also hired 86 youth case managers to begin reducing 
the number of youth inappropriately placed in institutional 
settings, and we have hired nurses and nurse practitioners in 
each of our 32 district offices to expedite medical screenings 
for children entering foster care and have added 77 treatment 
beds for adolescents who need mental health services. Division 
staff, parents, youth, providers and many others have helped 
shaped this comprehensive reform plan, and it enjoys broad 
support in New Jersey. That is because, simply put, our current 
child welfare system has not worked. It hasn't worked because, 
for more than 20 years, the system has not been adequately 
funded and case practice has not kept up with research-based 
strategies that work, and we have not adequately involved the 
communities in the resolutions.
    Year after year, funding has been carved out of the 
Department of Youth and Family Services (DYFS) budget to pay 
for initiatives and programs elsewhere in State government that 
at the time were deemed to be more important. Today, we see the 
results of that neglect, a system that is understaffed, 
undertrained, underequipped, under siege and leaving children 
in harm's way. This should not come as a surprise. We have a 
lopsided child welfare system, one that puts most resources 
into dealing with child abuse after it happens and very little 
into preventing child maltreatment. The plan we have asked our 
State legislature to fund will turn that situation around. 
Governor McGreevey's fiscal support is a testimony to his 
dedication to fix the system. Just shy of half of the $125 
million in State funds, about 45 percent, in this plan is for 
services to develop and support preventive and intervention 
services and programs in communities throughout New Jersey.
    Indeed, the backbone of our system must be in the community 
and not at DYFS. To that end, part of this 45 percent, $56 
million, will be used to establish a system of community 
collaboratives that embrace and give structure to the role of 
communities in planning and executing critical social services 
in their neighborhood. These collaboratives will be organized 
and run in the community by members of the community to oversee 
the effort for their community.
    We are also going to focus on key issues that destroy 
families, and hurt children, and lead to abuse and neglect. 
These are substance abuse, domestic violence, homelessness and 
mental illness. To address these issues, we are providing funds 
for programs helping children affected by domestic violence, 
and we have partnered with our State's Department of Community 
Affairs to provide housing for domestic violence victims. We 
are spending more than $22 million to expand mental health 
services in the communities and $18 million in Federal and 
State funds to address the medical needs of children touched by 
DYFS by having a medical director and placing nurses and nurse 
practitioners in our offices. We are also helping families fund 
secure, affordable housing by creating low-income units and 
providing section 8 vouchers. I see my time is up. So, if I 
could hit on one more point here, I do want to talk about 
recruiting foster parents.
    First, we certainly need to do a better job of recruiting 
and supporting those resource families. This is a major issue 
to me. I, personally, have had 27 children in my home, and I 
believe our plan encompasses foster homes, adoptive homes and 
kinship homes to make these programs work and that the 
recruiting is the backbone of our system. Our goal is to 
recruit a thousand new foster resource families in the next 15 
months, with emphasis on finding homes for hard-to-place 
children, medically fragile babies, sibling groups and older 
children.
    [The prepared statement of Mr. Cotton follows:]
 Statement of Edward E. Cotton, Director, Division of Youth and Family 
 Services, New Jersey Department of Human Services, Trenton, New Jersey
    Good morning. On behalf of New Jersey Department of Human Services, 
I want to begin by thanking you, Chairman Herger, and members of this 
committee for giving us the opportunity to update you on the progress 
of reforming New Jersey's child welfare system.
    Six months ago, we testified before this committee regarding how 
New Jersey could have neglected to prevent the plight of four starving 
children who should have been far better served by their state's child 
protection agency. I want to say that all of us who are responsible for 
administering the State's child welfare system are as concerned about 
those children as are all of you, who sit on this committee.
    I am pleased to tell you that all four of those children are doing 
well--all of them have gained considerable weight and height and are 
thriving in safe environments. We certainly acknowledge that this case, 
among others, required our State's immediate and concerted attention.
    Since that time, New Jersey has undertaken significant reform 
measures, not only to respond to that particular case, but to go far 
beyond that and reform the State's entire child protection and welfare 
system.
    In New Jersey, Governor McGreevey has courageously and 
energetically taken up the cause of at-risk children.
    We are talking about helpless children--children who are caught up 
in desperate situations from which they cannot break free, without 
help.
    In New Jersey, we have begun implementing a long-overdue plan to 
restructure the State's child welfare system, also known as the 
Division of Youth and Family Services and, indeed, the entire system 
that exists to protect the children of New Jersey from abuse and 
neglect.
    This year, Governor McGreevey has dedicated $15 million to this 
effort. In addition, he has committed another $305 million to it over 
the next two Fiscal years--$125 million for Fiscal Year 2005 and 
another $180 million in Fiscal year 2006.
    The title of our plan for reforming this system is very 
straightforward. It is called ``A New Beginning: The Future of Child 
Welfare in New Jersey.''
    We agreed to create this plan, and to totally restructure our child 
welfare system, as part of a court-approved settlement reached last 
summer in a lawsuit filed against the State.
    We anticipate that the plan will be approved in Federal District 
Court in June.
    Once that happens, we will be under Court mandate to make the plan 
happen.
    And, we already have made progress in some critical areas of our 
child welfare reform:
    We have initiated the practice of placement assessments for 
children in foster care to ensure their safety;
    We have expanded substance abuse services by adding 850 treatment 
slots to serve 2,500 more families;
    We have hired 158 front-line caseworkers, case aides, and 
supervisors to help address heavy caseloads;
    We have implemented a mobile response system for children in crisis 
in three of our State's largest counties so they can be stabilized at 
home and not require placement;
    We have expanded intensive in-home behavioral services for another 
1,000 children so they can remain in their own homes;
    We have hired 86 youth case managers to begin reducing the number 
of youth inappropriately placed in institutional settings;
    We have hired nurses and nurse practitioners in each of our 
District Offices to expedite medical examinations for children entering 
foster care;
    We have added 77 treatment beds for adolescents who need mental 
health services.
    Division staff, parents, youth, providers and many others have 
helped shape this comprehensive and all-too-necessary reform plan--and 
it enjoys broad support.
    That is because, simply put, our current child welfare system 
doesn't work.
    It doesn't work because, for more than 20 years, the system has not 
been adequately funded, and case practice has not kept up with 
research-based strategies that work.
    Year after year, funding has been carved out of the DYFS budget to 
pay for initiatives and programs elsewhere in state government that, at 
the time, were always deemed to be more important.
    Today, we can see the results--a system that is understaffed, 
undertrained, underequipped, under siege and leaving children in harm's 
way.
    This should come as no surprise.
    We have a lopsided child welfare system--one that puts most of its 
resources into dealing with child abuse--after it happens--and very 
little into preventing child maltreatment.
    The plan we have asked our State Legislature to fund will turn that 
situation on its head.
    And, Governor McGreevey's staunch fiscal support is a true 
testimony to his dedication to fixing the state's child welfare system.
    Just shy of half (45 percent) of the $125 million in state funds in 
this plan for Fiscal Year 2005, or roughly $56 million, will be used to 
develop and support prevention and intervention services and programs 
in communities throughout New Jersey.
    Indeed, the backbone of our new system must be in the community and 
not at DYFS.
    To that end, part of the $56 million will be used to establish a 
system of community collaboratives that embrace and give structure to 
the role of communities in planning and executing critical social 
services in their neighborhoods.
    These collaboratives will be organized and run in the community by 
members of the community to oversee the effort for their community.
    Let me review with you the other major goals in our plan for 
reforming child welfare in New Jersey.
    In line with our goal of doing much more to prevent child abuse and 
neglect, we intend to focus on the core issues that destroy families 
and hurt children.
    These issues are well known and well documented. They are: 
substance abuse, domestic violence, homelessness and mental illness.
    To address these issues, we plan to provide funds for programs that 
help children affected by domestic violence, and we have partnered with 
our State's Department of Community Affairs to provide housing for 
family victims.
    We will spend more than $22.7 million to greatly expand mental 
health services in the community, including mobile response teams to 
provide mental health services for children in their homes.
    We will commit about $18 million in federal and state dollars to 
address the medical needs of children touched by DYFS by hiring a 
medical director for the agency, placing nurses in local offices, and 
enrolling children in foster care in HMOs so they have a family doctor.
    We will help troubled families find secure, affordable housing by 
creating 40 affordable low-income rental housing units and providing 
Section 8 vouchers and home loans to foster, adoptive and kinship 
families.
    Finally, this plan takes the scourge of substance abuse head on, 
dedicating $21.6 million in federal and state dollars to innovative 
treatment options for families.
    Other critical problems in our child welfare system have festered 
over the years--caseloads are a prime example.
    Caseloads in DYFS have long been unacceptably high--and this 
problem is worsening.
    Our intake and investigative practices are inconsistent and have 
raised safety concerns.
    We plan to create a centralized hotline that will make sure that 
every call in the state that is made to report allegations of abuse and 
neglect, receives uniform screening and rapid response.
    We also will employ a special cadre of forensically-trained 
investigators whose major focus will be on ensuring that newly-reported 
children are safe.
    To also bring some relief, we propose hiring and training hundreds 
of new caseworkers, supervisors, and aides, selecting from a growing 
pool of pre-screened and interviewed applicants.
    We will establish specialized positions, tailored tightly to the 
needs of children and families, rather than the demands of the 
bureaucracy.
    We will, for the first time, have special workers for adolescents 
and resource families, community developers to identify community 
resources.
    We also will make sure our workers have the equipment they need to 
get their jobs done, including cars, computers, cell phones and 
cameras.
    Finally, we must do a better job of recruiting and supporting 
resource families.
    If community prevention and intervention programs are to be the 
backbone of our system, then we must recognize that these families are 
its heart and soul.
    Our new system will acknowledge the importance of these resource 
families and do a better job of recruiting them and supporting them.
    Our goal is to recruit 1,000 new resource families in the next 15 
months with an emphasis on finding homes for hard-to-place kids--
boarder babies, sibling groups and older children.
                                 ______
                                 
    Having said that, I'd like to point out another critical problem 
our plan will help us correct.
    No child, not even adolescents, should be living in institutions if 
they don't need to.
    Because we lack resource families, treatment homes, and community--
based residential services for teenagers, too many children end up 
spending too much time in institutions.
    The Commissioner and I visited a youth detention center where I saw 
three and four adolescents living in rooms that had been designed for 
one.
    Often, judges, faced with a paucity of options for teens, place 
children in juvenile detention because there are too few alternatives 
in the community.
    It is unconscionable that we are incarcerating children because of 
our failure to develop the kind of alternatives called for in this 
plan.
    Our plan calls for us to expand foster care options, dramatically 
increase treatment homes and expand other community-based treatment 
options for troubled teenagers.
    By hiring dozens of youth case managers and stationing them in 
juvenile detention and shelters, those kids who do end up in detention 
can be directed out to more appropriate placements, quickly and 
efficiently.
                                 ______
                                 
    Another target outlined in the plan is our goal of finding more 
family members to provide homes for boarder babies--infants who remain 
hospitalized even after they have been medically cleared because their 
parents are unable or unwilling to take them home.
    These infants should be in homes, with parents or other family who 
love them.
    No hospital staff, no matter how generous and kind hearted, can 
ever seriously be considered an adequate replacement.
    We need to find homes for these babies--either with well-trained 
foster homes or with caring relatives.
    This is a general description of how we intend to create a system 
that is different from the one we have fallen into today through bad 
decisions and too little funding.
    Our system doesn't work and it is failing kids.
    The results of our failures have been predictable.
    As adults, thousands of these children are still in our mental 
health, welfare and correctional systems.
    We have helped consign our children to this fate by years of short-
sighted decision-making.
    And, at this point, there is no way that we can make such a stunted 
and ineffective system work simply by tightening our belts, or by 
shifting a few people here or there.
    We cannot fix the system we have.
    We need to create a new system.
    This new system must be one that doesn't begin working after 
children have been damaged, but which is literally interwoven into the 
fabric of the community in which our most troubled families live.
    This progress in New Jersey notwithstanding, we have determined 
that only $16 million, or 13 percent, of the $125 million in state 
funds that the Governor has requested this year can be matched with 
Title IV-E funds.
    One of the reasons for this is well known to this committee: Title 
IV-E eligibility is based on AFDC standards established eight years 
ago. As a result, the universe of children eligible for federal 
assistance is diminishing each year. One of the most important steps 
this committee can take to assist states to protect children is to 
expand eligibility for protective services to all abused and neglected 
children.
    Another major barrier is that Title IV-E funding is not available 
for many of the most important services that are included in the plan, 
including prevention, investigations of child abuse or neglect, 
workforce development, emergency assistance, subsidized guardianship, 
post-adoption supports, and substance abuse. Title IV-E still places 
too much emphasis on removing the child from the home rather than on 
best practices.
    We also recommend a state option under Title IV-E for the voluntary 
relinquishment of parental rights without court involvement. There are 
occasions when a parent is actively responsible and appropriately 
planning for his or her child's future by executing such a document. In 
those cases, we do not believe review by the court should be required 
as it is now.
    Furthermore, New Jersey believes that states should be allowed to 
reinvest any disallowance in Title IV-E funds to correct deficiencies 
found in the reviews. This is the common sense policy that is used in 
the Food Stamps program and it has proven to be very effective.
    In general, there is an urgent need at the federal level for more 
flexibility and greater financial commitment to respond to the growing 
problem of child abuse and neglect. Supporting families and protecting 
children must become a national priority.
    In short, we are a system that is already in motion, simply waiting 
for the funding we need to begin to go forward, with determination.
    Again, I want to thank the subcommittee for giving me this 
opportunity to testify today on New Jersey's efforts to reform its 
child welfare system and I would be happy to take any questions that 
you might have now.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Mr. Cotton. Just as a 
comment, you mentioned that you have 27 foster children in your 
home?
    Mr. COTTON. I have had over----
    Chairman HERGER. You have had them.
    Mr. COTTON. I don't have them right now.
    [Laughter.]
    Chairman HERGER. No, I understand that.
    Mr. COTTON. I have had 27 over the past 3 decades.
    Chairman HERGER. Thank you very much. I think it is very 
important, as we are having this hearing, to emphasize that, of 
course, our concern is for those homes where it is not working. 
However, it also is important to emphasize that in the vast 
majority of these homes, we do have caring individuals like 
yourself, where the program is working, and that we need to 
ensure that it is working in all of the homes not just most of 
them. With that, Mr. McCabe?

 STATEMENT OF THE HONORABLE CHRISTOPHER J. McCABE, SECRETARY, 
  MARYLAND DEPARTMENT OF HUMAN RESOURCES, BALTIMORE, MARYLAND

    Mr. MCCABE. Good morning, Mr. Chairman and Members of the 
Committee. It is good to see my friend, Congressman Cardin, 
from Baltimore, and I appreciate your kind words at the 
beginning of the hearing. I am also glad, although he has left, 
Dr. Wade Horn is someone I have known very well. He is a 
Maryland resident as well.
    So, I am very honored to be here on behalf of Governor 
Robert Ehrlich, a former colleague of yours, who is my boss, 
who is Governor of the State of Maryland, to be able to talk to 
you a little bit about the CFSR process and how it impacts our 
State of Maryland.
    I bring you greetings from Robert Ehrlich, who I have known 
for over 20 years this summer. We both share a deep commitment 
to public service. I first served with former Delegate Ehrlich, 
from 1990 to 1994, in the Maryland General Assembly in the 
first of my three terms in the Maryland State Senate. The 
Maryland Department of Human Resources is Maryland's human 
service agency. We employ approximately 7,000 employees 
throughout the State. We have an approximately $1.5-billion 
budget. Two out of every $3 that we expend for a variety of 
human service needs come from the Federal Government.
    In my role as Secretary of the Maryland Department of Human 
Resources, I am daily aware that when news is made by our 
Department, it is typically not positive. When a child is 
abused or harmed, society takes notice, rightfully so, and it 
leads to great reflection by the department and heartache by 
frontline workers on what could have been done differently. 
Sadly, there are times when little can be done to address some 
of the cases that are in our custody.
    Maryland welcomes the opportunity to work with the Nation's 
Children's Bureau in quest to improve services to America's 
most vulnerable children. Over 10,000 of these children are 
entrusted to the care, custody and oversight of social service 
agencies throughout Maryland's 24 local jurisdictions. We have 
a State-administered system in our State. Maryland, as you may 
know, is 47 out of 50 States being evaluated through the 
Federal Child Welfare Reviews. Now, they are all completed. The 
timing gives the Ehrlich Administration the opportunity to 
establish its own PIP, and that is a good thing.
    As I testify today, there are no less than five independent 
evaluations, and I believe that there are more than that, of 
child welfare programs in our State, including the CFSR and the 
State Child Welfare Accountability Task Force, chaired by the 
chief of Casey Strategic Services in Baltimore. In addition, 
our Baltimore City Department of Social Services, which 
oversees over 60 percent of our State caseloads in child 
welfare and public assistance, has 11 work groups discussing 
ways in which to improve the delivery of services. In fact, the 
Baltimore City Department of Social Services has been operating 
under a Federal consent decree since 1989, and the local agency 
is obligated to make systemic improvements in their programs.
    In preparation for the Federal CFSR last November, Maryland 
completed an extensive self-assessment of its child welfare 
programs. When I came on board, it was very clear to me in my 
first days that we had much work to do, and I undertook some 
internal processes as well. Three Maryland counties were 
included in the CFSR, including Baltimore City. All parties 
were generally satisfied with the professionalism of the 
process, and we cooperated, I think, very well. Our State has 
received preliminary results, and Mr. Cardin indicated the 
results of some them, which demonstrate that we have much work 
to do, but that is what I expected, and I don't shy away from 
the need to improve. Maryland's picture is just that. It is a 
snapshot in time.
    All States show the need for improvement, and I believe 
that the foundation for change begins with transparency, owning 
up to our weaknesses, while recognizing the inherent challenges 
in human service work as we seek to serve those most in need. 
That is the way I view our challenge to prepare our PIP, and we 
will do so in cooperation with the Federal Government.
    On June 8th, we will be visited by the ACF to initiate the 
planning process by providing on-site training for Maryland's 
PIP. Several work groups will operate over a 90-day period to 
develop the plan, and over the next 2 years, based on 
Maryland's plan, we expect that a new framework to guide all of 
our efforts in child welfare will dramatically alter child 
welfare programming.
    On a practical level, I also appreciate the opportunity to 
tell you of the day-to-day challenges in my State in protecting 
children and achieving permanency for children out of the 
custody of their natural parents. Child safety is the number 
one priority in family services at our local offices, but we 
continue to be stressed with stagnant resources, staffing 
resources and more dangerous environments, particularly in our 
urban centers.
    Whenever possible, we seek to preserve families for the 
many obvious reasons all of the experts tell us that we want to 
keep families together through family preservation programs. We 
must, and do, balance the immediate safety needs of children. 
Within our 24 jurisdictions we have slightly different 
practices and programs and some uneven results.
    In our foster care system, we are daily challenged to find 
appropriate placement for the State's children. Traditional 
foster homes are not increasing in number in our State, 
communities are objecting to the proliferation of group homes, 
and high-end care and therapeutic foster placements ranging in 
annual costs from $50,000 to $200,000 per year are needed for 
older children with severe behavioral and emotional issues. As 
children linger in foster care, at an early age, say, 5 to 12, 
we are able to preserve them in the foster specific system. As 
they get older, particularly males, this is my assessment, they 
become more troubled, emotional and behavioral issues become 
more prevalent, and we begin to see the need for high-end care 
and greater needs.
    In closing, I wish to note that the child welfare work we 
do in Maryland, as across the State, is highly complicated. We 
are talking about human beings and human weaknesses. Each and 
every day we dread the headline that the State of New Jersey 
saw in their newspapers. We have had ours in Maryland. We try 
to learn from those experiences. Mostly what I tell our 
caseworkers on the frontline, is that they are supported by 
senior management. The Governor does also. They have tough jobs 
under trying circumstances. They are not the cause of some of 
the problems we have. It is just a very complicated system, and 
we are glad to work with the Congress and the Federal 
Government to make improvements that are necessary. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. McCabe follows:]
 Statement of The Honorable Christopher J. McCabe, Secretary, Maryland 
           Department of Human Resources, Baltimore, Maryland
    Dear Mr. Chairman and Members of the Committee:

    <bullet>  Thank you for this opportunity to speak to you this 
morning on the child and family services review process and child 
welfare issues in general. I am honored to be here and wish you well 
with the many difficult decisions you have before you in the Congress.
    <bullet>  I bring you greetings from your former colleague, 
Governor Robert L. Ehrlich, Jr. whom I have known for twenty years this 
summer. We both share a deep commitment to public service. I served 
with former delegate Ehrlich from 1990-1994 in the Maryland General 
Assembly in my first of three terms in the Maryland State Senate.
    <bullet>  In my role as Secretary of the Maryland Department of 
Human Resources, I am daily aware that when news is made by our 
department, it is typically not

positive. When a child is abused or harmed, society takes notice, 
rightfully so, and it leads to great reflection by the department and 
heartache by front-line workers on what could have been done 
differently. Sadly there are times when little can be done to address 
some cases.
    <bullet>  Maryland welcomes the opportunity to work with the 
Nation's Children's Bureau in the quest to improve services to 
America's most vulnerable children. Over 10,000 of these children are 
entrusted to the care, custody, and/or oversight of social services 
agencies throughout Maryland's 24 local jurisdictions.
    <bullet>  Maryland, as you may know, is 47th of 50 states being 
evaluated through the federal child welfare reviews. The timing gives 
the Ehrlich administration the opportunity to establish its own program 
improvement plan.
    <bullet>  As I testify today, there are no less than five 
independent evaluations of child welfare programs in our state, 
including the child and family services review (CFSR) and a state child 
welfare accountability task force chaired by the Chief of Casey 
Strategic Services.
    <bullet>  In addition, our Baltimore City Department of Social 
Services, which oversees over 60% of our state caseloads in child 
welfare and public assistance, has eleven work groups discussing ways 
in which to improve the delivery of services.
    <bullet>  In fact, the Baltimore City Department of Social Services 
has been operating under a Federal consent decree since 1989, and the 
local agency is obligated to make systemic improvements in their 
programs.
    <bullet>  In preparation for the federal child and family services 
review last November, Maryland completed an extensive self-assessment 
of its child welfare program.
    <bullet>  Three Maryland counties were included in the review, 
including Baltimore City. All parties were generally satisfied with the 
professionalism of the process.
    <bullet>  Our State has received preliminary results, which 
indicate that we have much work to do, but that is what I expected. 
Maryland's picture is just that--``a snapshot in time.'' All States 
show need for improvement.
    <bullet>  Our State views the challenge to meet the high standards 
set by the Children's Bureau as a catalyst to achieve for Maryland's 
most vulnerable children that which every child deserves--a permanent 
home, safety, and a sense of well-being. Setting the standards high is 
imperative to good outcomes for all of America's children and a 
benchmark for all of the other recommendations from the review.
    <bullet>  On June 8, 2004, Federal representatives will initiate 
the planning process by providing on-site training to Maryland's 
program improvement plan team. Several workgroups will operate over the 
90-day period to develop the plan.
    <bullet>  Over the next two years, based on Maryland's program 
improvement plan, we expect that a new framework to guide all our 
efforts in child welfare will dramatically alter child welfare 
programming.
    <bullet>  As Secretary of Maryland's public child welfare system, I 
am committed to attaining Federal requirements for substantial 
conformity with standards for child protective services, foster care, 
adoption, family preservation/family support and independent living 
services.
    <bullet>  Our Nation is challenged to assure that no child in 
America is without a family to call his or her own, that children are 
safe and have a sense of well-being. Through National, State, local, 
community, and faith-based collaboratives, Maryland is ready to meet 
the challenge.
    <bullet>  On a practical level, I appreciate the opportunity to 
tell you of the day-to-day challenges in my state in protecting 
children and achieving permanency for children out of the custody of 
their natural parents.
    <bullet>  Child safety is the number one priority in family 
services at our local offices, but we are stressed with stagnant 
staffing resources and more dangerous environments, particularly in our 
urban centers.
    <bullet>  In our foster care system, we are daily challenged to 
find appropriate placement for the state's children. Traditional foster 
homes are not increasing in number, communities are objecting to the 
proliferation of group homes, and high end care in therapeutic foster 
placement, ranging in annual cost between 50k--200k, are needed for 
older children with severe behavioral and emotional issues.
    <bullet>  For greater perspective, I encourage you to review the 
report of the Pew Commission on Foster Care, which is being released 
next week here in Washington by Chairmen Gray and Fenzel.
    <bullet>  On a final note, States are eagerly anticipating the 
reauthorization of TANF; we in Maryland are already implementing 
systems to prepare for TANF II and universal engagement.
    <bullet>  In fact, we are approaching 100% engagement throughout 
Maryland. Reauthor-

ization legislation, among other things, will provide States with much 
needed additional child care funding for temporary cash assistance 
clients and lower income workers.
    <bullet>  Thank you again for this opportunity to speak with you.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. McCabe. The gentlelady from 
Connecticut, Mrs. Johnson, to inquire.
    Mrs. JOHNSON. Thank you very much. I just wanted to check a 
fact that I heard you say, Ms. Ashby, to see if it is correct. 
Did you say that some of the States are saying that the cost of 
implementing their PIP would be greater than the penalties?
    Ms. ASHBY. We did hear that from at least one State 
official.
    Mrs. JOHNSON. Thank you. I just think my statement about 
not one more penny is related to some of this. We don't have 
evidence that implementing the kind of thing we have been doing 
is going to make the system change we need. Mr. Cotton, your 
document was very helpful, and I appreciate, Mr. McCabe, your 
testimony and your frank realization of where you are and what 
has to be done. Mr. Cotton, by actually putting numbers to the 
changes that you have to make, that was very helpful. So, 
basically, what I hear you saying is, $320 million over 2 years 
is going to enable you to strengthen services at the local 
level, as well as do some of the additional hiring and training 
you need to do; is that correct?
    Mr. COTTON. Yes, and that is $320 million additional 
dollars to our existing budget.
    Mrs. JOHNSON. Right, I understand that, over and above. 
Then, presumably, the result of that in 2 years would be, to at 
least some extent, to slow down the number of kids going into 
foster care; would you not assume that that would be the case?
    Mr. COTTON. Our goals are to make fewer children get 
reabused by having better up-front safety assessments and 
taking care of those children getting out more immediately, 
preventing children from going into foster care by having 
better in-home services based in their own communities, and 
when they have to go into care, being based in their own 
communities and getting the kinds of services that allow them 
to return home as soon as possible.
    Mrs. JOHNSON. So, if you had an opportunity to freeze your 
Federal dollars at your current outplacement rate, so that as 
you were able to slow the flow of placement into foster care, 
you didn't suffer any reduction in funding, as some of those 
kids got placed permanently and, for other reasons, moved out 
of the foster care specifically system, that would gradually 
free money then to strengthen your local community services 
structure.
    Mr. COTTON. Absolutely. We could use that money for more up 
front services.
    Mrs. JOHNSON. So, if we could right now, at least for a 
State like you that has made the investment to begin the 
turnaround, protect you from any decline for 10 years of your 
foster care dollars, that would be a help, wouldn't it?
    Mr. COTTON. Yes.
    Mrs. JOHNSON. It would also be an incentive.
    Mr. COTTON. Absolutely.
    Mrs. JOHNSON. So, I think that is useful for us to know, 
because we may not be able to solve this all at once. It might 
be that we want to have some small windows of opportunity. 
Maybe, who knows, we could even get that in the budget document 
now that any State that whatever, so we need to really be 
aggressive about the kind of situation that you face.
    Secondly, any State that wants to do what you did, and we 
will put some up front money because it is better to do this 
without a court order. The court order system has been 
extremely costly and, in some cases, really destructive of 
morale, and everything, and flexibility in States, and I don't 
want to see, I am glad you are doing what you are doing, but I 
am sorry you are doing it under court order, but if that is 
what it took to get more money.
    So, maybe what we ought to be looking at is how do we learn 
from your experience and other States that are doing the same, 
as to what kind of challenge grant we need to put out there and 
what are the requirements for it so that we can get the 
attention to both adolescent service capacity development, 
which is absolutely a really big issue here because those kids 
are increasingly not going to fit in the foster care system, 
substance abuse treatment, big issue.
    Now, don't you find you need a change in State law, though, 
so that families will really get, incidently, I thought the end 
of your testimony, which you didn't get to, where you recommend 
some changes in the IV-E eligibility law, where the old AFDC 
criteria is gradually reducing access to the IV-E dollars, even 
for outplaced children in the current system----
    Mr. COTTON. Yes.
    Mrs. JOHNSON. Then also your recommendation that we be able 
to voluntarily relinquish parental rights without court 
involvement in certain situations, we appreciate those 
practical suggestions. I think those are all, the more we get 
of those kinds of practical suggestions, the more we can move 
forward with specific steps, even if we can't necessarily get 
agreement on an umbrella. Thank you very much.
    Mr. COTTON. We would certainly be glad to work with you.
    Chairman HERGER. Thank you, Mrs. Johnson. The gentleman 
from Maryland, Mr. Cardin, to inquire.
    Mr. CARDIN. Thank you, Mr. Chairman. I thank all three of 
you for your testimony. It is not often I have the opportunity 
to have my secretary across the aisle from me, where I can ask 
him questions and have it on the record. So, I am going to take 
advantage of this, if you don't mind.
    [Laughter.]
    I am glad to have Secretary McCabe here, who is a friend, 
and as I said earlier, I am very proud of his public service. 
This report is rather disturbing, to say the least, and I am 
sure you are concerned about it, also. I know you are in the 
early stages of doing the PIP, and it is too early to comment 
on the specifics, but looking at it, you have put safety as 
your top priority, and yet the two major categories, children 
are first and foremost protected from abuse and neglect, 
Maryland did not achieve substantial conformity; children are 
safely maintained in their homes whenever possible and 
appropriate, Maryland did not obtain substantial conformity, 
and you started looking at child well-being and permanency, 
where we did not meet the national standards. Do you anticipate 
that you are going to be able to implement a PIP? Will it 
require additional resources?
    Mr. MCCABE. Congressman, we welcome more resources 
throughout the system, both at the State level and at the 
Federal level. Before I can make I think any definitive comment 
about any of those specific findings, we are going to sit down 
or I welcome the opportunity to sit down and learn more from 
the people that perform the reviews. As I said in my testimony, 
I think that Maryland is where a lot of States are, and we have 
much room to improve.
    Mr. CARDIN. Jim McCrery said two things that, of two things 
he said, one I strongly agree, one I will reserve until I hear 
your response. The line of responsibility rests with the 
States, and our hearing here is not to take over that 
responsibility, but to provide a framework where you can 
achieve excellence and to be a partner.
    A second statement he made, and I will reserve judgment 
until I get your response on this, that the States are just 
flowing with money, surpluses. I was not aware that is true of 
Maryland, but maybe you are going to correct the record and 
tell me that the resources are now available at the State 
level, that something has happened that I am not aware of in 
our State.
    Mr. MCCABE. I would not want to question the good 
Congressman on the financial condition of States. The Governor, 
when he came into office, was faced with a $1.7 billion 
structural deficit. Actions last year by the executive 
departments reduced that to a certain degree. We went into 
fiscal year 2005 with an $850 million deficit, and those are 
really, compared to a lot of States, that is not a bad 
condition to be in. So, we are still operating under deficits.
    There are some indications that sales tax revenues in 
Maryland are increasing, and so there is some more moneys that 
are coming in before the end of the fiscal year closing, and 
maybe that is what is being referred to. I think other States 
are seeing that. Having said that, the budgets that we are 
dealing with in our department have grown over $100 million in 
fiscal year 2005 versus 2004, but almost all of that is in 
maintenance payments for foster care. It does not reflect 
additional funding of salaries for caseworkers, necessarily. 
So, the Governor understands the need to continue to provide 
foster care payments. We typically run a large deficit in that 
program, usually about $50 million annual deficit just in 
foster care payments.
    Mr. CARDIN. I appreciate your frankness here, but you are 
stressed with stagnant staffing resources, which I know, in a 
letter that I wrote to you questioning the judgment of closing 
local offices, your response was that it is going to free up 
some money for additional caseworkers to be hired.
    Mr. MCCABE. Correct.
    Mr. CARDIN. Were you able to hire additional caseworkers?
    Mr. MCCABE. We have hired 50 new caseworkers not only in 
child welfare, but also in public assistance. Congressman 
Cardin, you will be receiving a letter from me, today or 
tomorrow, talking about those consolidation plans in Baltimore 
City.
    Mr. CARDIN. Now, according to the accreditation for 
Children and Family Services, your case workload should be 
between 12 and 18. Have we met that in Maryland?
    Mr. MCCABE. We, as we speak, Congressman, we have 
opportunities to make offers to approximately 70 individuals 
just graduating from the University of Maryland School of 
Social Work with master's in social work degrees. Those will be 
allocated to Maryland's counties based on the number of workers 
that we have in child welfare versus the number of foster care 
cases that they have, and some counties are significantly out 
of balance. We hope to achieve 90 percent of the Child Welfare 
League of America's (CWLAs) standards in our State. By 
allocating these individuals, we will be achieving 90 percent 
of CWLA standards. So, in Baltimore City, because of the 
consent decree that requires us to get to a certain case ratio, 
we are currently over 90 percent of the CWLA standards.
    Mr. CARDIN. Mr. Chairman, if I could, I appreciate, 
Secretary McCabe, that I will be getting a reply to our 
inquiries, I asked staff ahead of time whether we had the 
ratios of caseworkers to children, and we did not have that in 
our policy. If you could provide that for Maryland, and Mr. 
Cotton, if you could provide that for New Jersey----
    [The information follows:]

                             Maryland Department of Human Resources
                                          Baltimore, Maryland 21212
                                                      June 10, 2004
Hon. Wally Herger, Chairman
Congress of the United States
U.S. House of Representatives
Committee on Ways and Means
Subcommittee on Human Resources
Washington, DC 20515

    Dear Congressman Herger:

    Thank you for your letter regarding my testimony before the 
Subcommittee on Maryland's efforts to comply with the Federal Child 
Welfare Reviews. I understand that as a result of that hearing, the 
Subcommittee is seeking information to address Congressman Ben Cardin's 
request for Maryland's child welfare worker-to-caseload ratios.
    I have enclosed the overall ratio of filled child welfare 
caseworkers to caseload by both individual local jurisdictions and 
statewide. The caseload figures were obtained from the Social Services 
Administration's Monthly Management Report for December 2003. The 
number of filled caseworker positions is calculated as of March 1, 
2004.
    Additionally, I committed to make job offers this year to all Title 
IV-E BSW and MSW graduates of the University of Maryland School of 
Social Work. In preparation for this, 79 Position Identification 
Numbers (PINs) were identified for the purpose of hiring Child Welfare 
workers. These PINs were distributed according to need based on 
caseload-to-worker ratio. In the event a Title IV-E graduate cannot be 
hired into any of these PINs, I authorized the local offices to hire a 
qualified candidate from the State's eligibility list. Once these 
positions are filled, and assuming caseloads similar to the 2003 
averages, the worker-to-caseload ratio will be reduced to the numbers 
shown in the far right column.
    These figures include all jurisdictions with the exception of 
Montgomery County. All of the Montgomery County Department of Health 
and Human Services staff positions are now county, not State. Beginning 
in Fiscal Year 1998, State resources supporting Montgomery County 
services staff are provided as a grant to the County. Montgomery County 
uses these funds along with local funds to support its county 
positions. Therefore, none of the State's tracking systems include 
county positions and, without a count of workers in the various Child 
Welfare Services, the Department of Human Resources is unable to 
compute actual caseload ratios for this jurisdiction.
            Sincerely,
                                              Christopher J. McCabe
                                                          Secretary

 
----------------------------------------------------------------------------------------------------------------
                                                                                              WORKER TO CASELOAD
                                   FILLED CASEWORKER    AVERAGE MONTHLY   WORKER TO CASELOAD      RATIO AFTER
       LOCAL JURISDICTION              POSITIONS           CASELOAD              RATIO        FILLING ADDITIONAL
                                                                                                   POSITIONS
----------------------------------------------------------------------------------------------------------------
Allegany                             43.3...........     540.3..........  1:12.5............  1:12.5
----------------------------------------------------------------------------------------------------------------
Anne Arundel                         81.3...........    1,397.8.........  1:17.2............  1:16.4
----------------------------------------------------------------------------------------------------------------
Baltimore City                      723.5...........  12,682.1..........  1:17.5............  1:17.5
----------------------------------------------------------------------------------------------------------------
Baltimore County                    108.1...........   2,003.3..........  1:18.5............  1:17.6
----------------------------------------------------------------------------------------------------------------
Calvert                              16.5...........     262.0..........  1:15.9............  1:15.9
----------------------------------------------------------------------------------------------------------------
Caroline                             11.5...........     173.9..........  1:15.1............  1:15.1
----------------------------------------------------------------------------------------------------------------
Carroll                              24.0...........     383.9..........  1:16.0............  1:16.0
----------------------------------------------------------------------------------------------------------------
Cecil                                26.5...........     478.3..........  1:18.0............  1:16.2
----------------------------------------------------------------------------------------------------------------
Charles                              32.5...........     650.6..........  1:20.0............  1:17.3
----------------------------------------------------------------------------------------------------------------
Dorchester                           15.0...........     140.7..........  1:9.4 ............  1: 9.4
----------------------------------------------------------------------------------------------------------------
Frederick                            34.0...........     975.7..........  1:28.7............  1:18.1
----------------------------------------------------------------------------------------------------------------
Garrett                              15.0...........     176.2..........  1:11.7............  1:11.7
----------------------------------------------------------------------------------------------------------------
Harford                              42.5...........     784.7..........  1:18.5............  1:17.2
----------------------------------------------------------------------------------------------------------------
Howard                               28.0...........     572.6..........  1:20.4............  1:18.5
----------------------------------------------------------------------------------------------------------------
Kent                                  9.0...........      52.0..........  1:5.8 ............  1: 5.8
----------------------------------------------------------------------------------------------------------------
Prince George's                     111.5...........   2,219.2..........  1:19.9............  1:17.1
----------------------------------------------------------------------------------------------------------------
Queen Anne's                         10.1...........     113.9..........  1:11.3............  1:11.3
----------------------------------------------------------------------------------------------------------------
St. Mary's                           23.1...........     390.4..........  1:16.91...........  1:16.9
----------------------------------------------------------------------------------------------------------------
Somerset                             15.5...........     209.2..........  1:13.5............  1:13.5
----------------------------------------------------------------------------------------------------------------
Talbot                               10.0...........     155.3..........  1:15.5............  1:15.5
----------------------------------------------------------------------------------------------------------------
Washington                           56.0...........     979.1..........  1:17.5............  1:17.5
----------------------------------------------------------------------------------------------------------------
Wicomico                             25.0...........     646.8..........  1:25.9............  1:17.5
----------------------------------------------------------------------------------------------------------------
Worcester                            13.5...........     309.2..........  1:22.9............  1:17.7
----------------------------------------------------------------------------------------------------------------
Statewide Total                   1,475.4...........  26,297  ..........  1:17.8............  1:16.9
----------------------------------------------------------------------------------------------------------------


                                 <F-dash>

    Mr. COTTON. Sure.
    Mr. CARDIN. I think it would be helpful for us to know what 
the caseload is for the caseworkers that are handling the 
children that are included in the Federal responsibility.
    Mr. COTTON. We would be glad to do that.
    [The information follows:]

                   New Jersey Division of Youth and Family Services
                                          Trenton, New Jersey 08625
Honorable Benjamin L. Cardin
1102 Longworth House Building
U.S. House of Representatives
Washington, DC 20515

    Following the testimony of Edward E. Cotton, Director of the New 
Jersey Division of Youth and Family Services, on May 13, 2004 before 
the Subcommittee on Human Resources, Committee on Ways and Means, we 
received a request for the ratio of caseworkers to children from 
Chairman Herger, asking that we respond by email to you. At the current 
time in New Jersey, we have both generic field offices and field 
offices that specialize in adoption cases. The staff to child ratios 
for these offices are 1: 42.2 and 1: 16.9, respectively.
            Thank you.
                                                     Joseph Versace
                                   Data Analysis and Reporting Unit

                                 <F-dash>

    Mr. CARDIN. Thank you. Thank you, Mr. Chairman.
    Chairman HERGER. You are welcome. Mr. Cotton, if you could 
give us perhaps an update on the current status of the Jackson 
boys and the case against their adoptive parents.
    Mr. COTTON. Thank you, Mr. Chairman. As I think was 
referenced early, an indictment just came out on the parents, 
so I don't want to comment on that at this time. That is really 
a matter with the prosecutor's office. The children themselves, 
I mentioned briefly they are doing very well. I have seen them 
recently, particularly the oldest child, the 19-year-old, who I 
saw quite a bit after this occurred. I didn't see him for about 
8 weeks. I don't know that I would have recognized him. He has 
substantially gained weight. His face has filled out. He is 
taller. The younger children have grown.
    All look much healthier, pretty much are like normal kids, 
although, for their age, they are still small. For example, the 
9-year-old looks like a really healthy 6-year-old right now, 
but healthy. They are adjusting. They are in foster homes, and 
I don't want to get into details of that. Most of them are 
together. They are doing very well in foster placement. They 
are being reintegrated into schools, as they were home schooled 
for a while. There haven't been any serious medical problems 
after the initial medical problems that were very serious were 
dealt with. We haven't had any recurrence of any serious 
medical problems. The foster parents are extremely happy with 
them. There haven't been behavior problems. So, things are 
going very well.
    Chairman HERGER. We are very happy to hear that.
    Mr. COTTON. Thank you.
    Chairman HERGER. Mr. McCabe mentioned in his testimony how 
there was some redirection of funds, I believe, in some of 
their programs. Could you tell me where New Jersey found the 
State resources to devote to improving its child welfare 
programs? You mentioned you had increased your funding fairly 
considerably.
    Mr. COTTON. Well, we have increased our funding $15 million 
this year that was found from savings or reallocations of money 
from various spots. The $125 million that I spoke of next year, 
and the $180 million after that, are in the governor's budget. 
They have not been legislatively approved yet at this point, 
but they are State funds in the Governor's budget, so that will 
be part of the entire State budget that will be funded when it 
is passed.
    Chairman HERGER. Very good. I would like to thank each of 
our panel members for----
    Mr. CARDIN. Mr. Chairman, before we adjourn, could I ask 
your patience so I could ask Ms. Ashby one question on a 
technical point?
    Chairman HERGER. The gentleman from Maryland is recognized, 
yes.
    Mr. CARDIN. Thank you. If I understand correctly, the 
States are required to issue quarterly reports on the progress 
that has been made, but the anticipated penalties would 
probably be after 2 years. My concern is whether there is 
enough leverage in the current law, as you see it, to expect 
progress to be made with the penalty provisions that are in 
current law or whether we need to revisit that issue as to how 
we can make sure that progress is being made on a quarterly 
basis.
    Ms. ASHBY. I can't answer that question, per se, regarding 
the current law. I am not an attorney, and perhaps if you 
wanted GAO to officially answer that later, I could consult 
with our attorneys and do that, but I will say one thing that 
is relevant to your question. Right now, with regard to the 
penalties, it is unclear what penalties, if any, will be sought 
from States that do not make adequate progress on their PIPs, 
and that is an uncertainty that the States are aware of, and 
that is affecting their decisions, in terms of what they are 
going to do. The ACF officials, themselves, have told us that 
they are not sure how they are going to handle the penalties. 
So, even given the current law, it is not clear what is going 
to occur.
    Mr. CARDIN. That might be an issue we might want to look 
into. Thank you.
    Chairman HERGER. Thank you. Again, I want to thank each of 
our panel members for taking the time to appear today to 
discuss State efforts to reform their child welfare system. I 
look forward to continuing to work with all of you to ensure 
that States improve their programs to comply with Federal 
requirements and, with that, this hearing stands adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]
    [Submissions for the record follow:]
Statement of Honorable Joe Baca, a Representative in Congress from the 
                          State of California
    I would like to thank Chairman Herger and Ranking Member Cardin for 
having this very important hearing. The lives of our children and 
stability of the family are in danger. While it is important to review 
state efforts to change this destructive system, we should not do that 
without first hearing the personal testimony of those families that 
were ripped apart and destroyed by local child protective services 
(CPS).
    That is why, two months ago, I sponsored a Town Hall Forum on CPS 
Reform in San Bernardino, California.The forum was held to hear 
testimony and receive evidence of what many parents, grandparents, and 
advocacy organizations describe as ``a festering cauldron of fraud, 
corruption, abuse of power and exploitation of children.''
    During the eight hours of testimony, impassioned tales of rampant 
abuses of power, denials of due process protections, violations of 
civil rights, and accusations

of blatant defrauding of the American taxpayer were presented by 
documentation, video, and prepared statements. In addition to local and 
regional activists, Arizona State Representative Ray Barnes and other 
staff members representing California legislators joined in the forum. 
Testimonies included documentation of a scheme designed by state 
counties and service providers to ``maximize the federal funding 
stream'' through financial incentives. While this in itself is not 
irregular, the focus on revenue at the cost of safety may be putting 
children and families at risk.
    The testimonies continued unabated as parents and extended family 
members presented the committee with documentation of violations of 
state and federal statutes, denial of civil rights and predation upon 
vulnerable children and families by child welfare workers that 
regularly exceed their authority.
    According to testimony, the unwarranted seizure of children from 
non-neglectful homes has become a national problem of staggering 
proportions. At any given time, there are now more than half a million 
children in custody in the United States. It was reported in the forum 
that an estimated one out of every twenty children goes into government 
custody and that CPS routinely violates the constitutional rights of 
parents and their children in the process of their ``intervention.''
    Nearly one-and-a-quarter million children now come under government 
observation each year in America. Witnesses stated that only about 
three percent of the children who are seized or taken into custody were 
physically abused. What is even worse they said, is that the children 
who are taken into state custody have an eight to eleven times greater 
chance of being abused than those who remain in their own homes.
    Although most states have laws requiring a speedy trial to test the 
flimsy and often anonymous allegations against the parent, evidence was 
given that showed that often nearly a year passes before the parent 
even gets a partial chance to tell a judge their side of the story.
    According to the forum there is little protection for the family 
once a court focuses its attention on a parent. Witnesses told stories 
of courts circumventing such basic rights as burden of proof, 
presumption of innocence and rules of evidence. They routinely violate 
due process, and equal protection rights. The system moves into a 
parent's life and does nothing to help. As news reports and evidence 
from the forum has shown, scandals and abuse of power exist within the 
family and juvenile law industry.
    As evidenced by this forum, abuses and errors in judgement are 
common. Instead of receiving comfort and encouragement, innocent 
parents and grandparents are often drawn into a system that has a sub-
par record of protecting the children entrusted to it.
    I am hoping to learn from this hearing what can be done and what 
has been done to protect our children and their families. It is a good 
start to monitor the states and review their practices. I hope that the 
result of this will yield concrete steps to protect our children and 
families from false accusations and destructive policies within the 
state CPS.
    Please find attached the list of witnesses at the CPS forum in San 
Bernardino.
Speakers from Southern California
    Ms. Patricia Barry Esq. Los Angeles, Los Angeles County
    Darla Elwood Mother of five children Saugus, Los Angeles County
    Fred Baughman, M.D. Retired Neurologist San Diego, San Diego County
    Mrs. Trini M. Estrada-Brown Paternal Aunt Riverside, Riverside 
County
    Mrs. Margaret Estrada-German Paternal Grandmother Norwalk, Los 
Angeles County
    Mr. Howard Jeff Blaydes Father Lakewood, Los Angeles County
    Rev. Joseph Campbell Mrs. Cheri Campbell Grandparents Morongo 
Valley, San Bernardino County
    Mr. Peter W. Carissimo, ASA Author and Corporate CEO Newport Beach, 
Orange County
    Ms. Cynthia Curry-Gilmore Maternal Grandmother, Guardian, Teacher, 
Los Angeles Unified School District
    Member, United Teachers Los Angeles
    Member, California American Family Rights Association Tujunga, Los 
Angeles County
    Ms. Betty Curry Maternal Great Grandmother D.A. Investigator, Child 
Support Division (Ret.) Moorpark, Ventura County,
    Mr. Kirk DeWitt Father Victorville, San Bernardino County
    Ms. Desiree Nelson Fourteen-year-old victim of abuse
    Mr. Paul Nelson and Mrs. Linda Nelson Parents of victim Simi 
Valley, Ventura County
    Candace Owen Mother West Los Angeles, Los Angeles County
    Ms. Linda Wallace Pate, Esq. Attorney at Law Los Angeles, Los 
Angeles County
    Mr. Herbert Weisel Grandfather Adelanto, San Bernardino County
Speakers from Northern California
    Ms. Karen Anderson Certified Mediator in accordance with the 
California Dispute Resolution Programs Act Certified Domestic Violence/
Sexual Assault Counselor by Office of criminal justice, Ione, Amador 
County
    Ms. Theresa Cook Mother and Advocate Co-Director, Parents Against 
Corrupt System (PACS) Member, NAACP Santa Clara, Santa Clara County
    Ms. Donna Crowder U.S. Army Veteran Nurse Grandmother, Mother of a 
Marine Past President North Kiwanis, Merced Addressed State Senate 
Health and Human Services Committee, April 5, 2000, regarding abuses of 
power by County CPS. Member, Lost Cherokee Tribes of Arkansas and 
Missouri
    Mrs. LaDonna Gonzales, daughter Miss Yolanda Valenzuela, 
granddaughter
    Mrs. Jeane Nelson, mother Merced, Merced County
    Mrs. Nancee Crowell California-Nevada State Director, National 
Foster Parent Coalition Benton, Mono County
    Ms. Myrna Fernandez Mother Burlingame, San Mateo County
    Ms. Donna Fryer Paralegal/Law Student Sole Custodial Parent Former 
CPS Victim Campbell, Santa Clara County
    Ms. Mary Gilbert Mother and Advocate Butte County Employee 
Affiliate, California Protective Parents Association Affiliate, 
Government Watch Magalia, Butte County
    Ms. Michelle Tidmore Grandmother and Advocate Legal Eagles Law 
Research East Contra Costa Legal Education and Advocacy Project Working 
in cooperation with Contra Costa Bar Association Antioch, Contra Costa 
County
    Ms. Shawna Tidmore, Mother of Zierra, Kierra, Joseph and Logan
    Ms. Michelle Lujan Mother of Kerri, Jason, Justin, Jacob, Chuckie, 
Alan, and Angel several of whom have been taken by CPS Contra Costa 
County
    Mr. Joseph K. Brown Father of Austin, Cheyenne, Cheyne, taken by 
CPS Network Administration Consultant Volunteer Firefighter Connecticut
    Mr. William O. Tower Father, Victim of Abuse by Human Services as a 
child and as a parent both in Maine and California Member of American 
Family Rights Association
    Mrs. Anne E. Tower Mother, Victim of Abuse by Human Services in 
Maine and California Member, American Family Rights Association Fair 
Oaks, Sacramento County, California Speakers from Outside California
    Mr. Fred Baker Former Foster Care Provider in Los Angeles County 
North Carolina
    Ms. Patti Diroff Paralegal Member, Children's Rights Council Aunt 
of a 5-year boy and a 2-year-old boy Testifying on behalf of their 
family from Asheville, Buncombe County, North Carolina
    Mr. Glee A. Burt Maternal Grandfather
    Mrs. Elizabeth L. Burt Maternal Grandmother
    Mrs. Jennifer McLean Mother Mr. Joe McLean Stepfather Jacksonville, 
Pulaski County, Arkansas
    Ms. Sherilyn Claverie Mother New Orleans, Louisiana
    Ms. Elaine Wolcott Ehrhardt Mother Member, American Family Rights 
Association Port Orchard, Kitsap County, Washington
    Mr. Ted Gunderson FBI Senior Special Agent in Charge (Ret) 
California and Nevada
    Ms. Judi Amber Chase Co-Founder, The Earth Harmony Foundation Co-
chair, The International Rights Children Committee Creator, The Every 
Child is Everyone's Child Campaign Author, ``Walls of Secrecy'' to be 
released Spring 2004 California and Colorado
    Mr. Tom Hanson Public Advocate for Poor Children and Family Rights 
Former Foster Child Texas
    Mr. Matthew Kneen Ms. Lori Fields Parents of two children who died 
while in foster care Minneapolis, Minneapolis County, Minnesota
    Ms. Christine M. Korn Mother, Grandmother Director of Colorado 
Family Rights Association Affiliate, American Family Rights Association 
Representing American Family Advocacy Center of Colorado Penrose, 
Fremont County, Colorado
    Mr. Earl David Retired Airline Pilot Father of an abused son 
Member, Judicial Reform Member, J'Accuse of Oklahoma Oklahoma City, 
Oklahoma County, Oklahoma
    Mrs. Joanna Wright President, Hope4Kidz, Inc. Making Time For Kids, 
Because Kids Can't Wait for Time Advocate, Foster Children in State 
Residential Treatment Centers Houston and Austin, Houston and Austin 
Counties, Texas

                                 <F-dash>

              Statement of Child Welfare League of America
    The Child Welfare League of America (CWLA) welcomes this 
opportunity to offer testimony on behalf of our 1,000 public and 
private nonprofit child-serving member agencies nationwide for this 
hearing to examine the Child and Family Services Review (CFSR) process 
and the accompanying Program Improvement Plan (PIP) component of these 
reviews. We appreciate this Subcommittee's on-going commitment to 
examine our nation's child welfare system and the important opportunity 
this offers to explore ways to ensure that all children in this country 
are protected from abuse and neglect.
    CWLA urges Congress to take a close look at what we are learning 
about the needs of state child welfare systems and to work with states 
and local child welfare partners to find ways to address these needs. 
The CFSR process is an important opportunity to address the reforms of 
the child welfare system that are needed to ensure safety and 
permanency for our most vulnerable children.
The Need For An Effective Federal Oversight Mechanism
    The assortment of mechanisms currently in place that provide 
oversight for state child welfare systems were reviewed by this 
Subcommittee in a hearing earlier this year. That hearing began the 
focus on the Child and Family Services Reviews that are the main tool 
that the federal government uses to measure the performance of state 
child welfare agencies and to hold states accountable for services to 
children though a results-oriented approach.
    During CFSRs, the federal government determines: (1) if a state 
child welfare agency's practice is in conformity with Title IV-B 
(Promoting Safe and Stable Families and Child Welfare Services) and 
Title IV-E (Foster Care and Adoption Assistance) requirements; (2) if 
children and families are achieving desirable outcomes; and (3) if a 
state needs assistance with its efforts to help children and families 
achieve positive outcomes.
    The Child and Family Services Review process was the result of a 
1994 congressional mandate that was included as amendments to the 
Social Security Act (P.L. 103-432). That law required the U.S. 
Department of Health and Human Services (HHS) to review state child 
welfare programs to ensure ``substantial conformity'' with state plan 
requirements in Titles IV-B and IV-E of the Social Security Act. That 
law requires that state child welfare programs be measured or judged in 
certain areas or standards. Over the next several years, HHS and the 
states worked to develop this review process according the dictates of 
the law. The planning for CFSRs was completed in 2000. The initial 
round of state reviews began in 2001 and was completed a few weeks ago.
    The decision by Congress to create a comprehensive review process 
was an important step for this nation's child welfare system. Some 
states have used this process as a way to engage other critical 
partners in an examination of their child welfare systems. Partners, 
such as the state's legislative body, the news media, and the 
community, are critical to creating and maintaining a system that, 
nationally, must protect the one million who are victims of abuse and 
neglect, the more than 500,000 children in foster care and other out-
of-home placements, the 50,000 children adopted each year from the 
child welfare system, and the thousands of other families receiving 
prevention and support programs.
What the Child and Family Service Reviews Tell Us
    The results of the CFSR process have been mixed and the bottom line 
is that no state has been found to be in conformance with all fourteen 
outcome measure and systemic factors. States were slightly stronger in 
the safety outcomes than in the permanency and well-being outcomes. 
States were weakest in helping children achieve their permanency goals 
in a timely manner and in helping families with services they need to 
care for their children. The U.S. Children's Bureau has been very 
careful not to compare states in any area, but rather encourages a 
state to compare itself over a period of time, measuring progress and 
improvement.
These Results Cannot Simply be Viewed as Pass or Fail
    The Children's Bureau does not use the term ``fail'' or ``pass,'' 
but considers the outcomes in terms of ``in substantial conformity'' or 
``not in substantial conformity.'' The CFSR process is intended to 
reflect both the areas in which the state is doing well and the areas 
in which the state needs to make improvement. While it is appropriate 
to focus on the areas that need improvement, the entire child welfare 
system must be considered when evaluating state performance and making 
subsequent changes based on that evaluation. For most states, the CFSRs 
have held few new surprises, but now states are being held accountable 
in two areas: (1) outcomes for children and families in terms of 
safety, permanency, and child and family well-being; and (2) the 
administration of state programs that directly affect the capacity to 
deliver services leading to improved outcomes. This accountability had 
not been a focus in the past. The CFSR is also just the first step. 
States will also be evaluated in their ability to implement the changes 
outlined in their Program Improvement Plan.
How the Measurements Used in the Child and Family Service Reviews Can 
        Be Improved
    CWLA recognizes that there are serious flaws in the measurements 
used in the Child and Family Services Reviews. The scope and 
reliability of measurable outcomes need to be refined to improve 
comparability among states and to also produce measures that reflect 
good practice in the field. The current measures fall short in these 
areas and CWLA believes that the measures need to be reexamined.
    CWLA has participated in work with all of the states through a 
National Working Group to Improve Child Welfare Data. Through that 
process, CWLA has documented the reliability deficiencies in the 
placement stability federal outcome measure, as well as reliability and 
accuracy problems with the measure on child maltreatment in foster 
care. Recommendations from this National Working Group were presented 
to the U.S. Children's Bureau and have resulted in improved guidance 
from HHS to the states.
    The establishment of common definitions for widely used terms such 
as `placement,' would also go a long way to produce comparable 
information that informs Congress of the efficacy of the child welfare 
system. CWLA has started a process working with states to determine 
definitional standards. That work will result in more clearly 
established common standards for the federal measures, using the 
existing federal guidelines.
    CWLA also has recommended to HHS that the methodology to produce 
outcome measures be modified to include measures derived from 
longitudinal analysis, to complement the present point in time and exit 
cohort data. Longitudinal data is based on entry cohorts of children 
and this approach mitigates inherent biases associated with point in 
time and exit group data. This approach also is preferable for showing 
the effects of agency programs and policies.
    State child welfare systems vary widely in terms of the populations 
they serve (juvenile justice, mental health, domestic violence, etc.), 
their administrative structures (county--or state-based), and their 
regional locations (rural, urban, north, south, etc.). CWLA recommends 
that states be allowed to use alternate measures to assess how their 
child welfare system is improving the safety, permanency, and well-
being of children. These measures may vary according to the particular 
idiosyncratic elements of particular state systems.
    The current measures do not necessarily reflect good practice. They 
are an artifact of aggregate data reported by the states through the 
Adoption Foster Care Analysis Review System (AFCARS) and the National 
Child Abuse and Neglect Data System (NCANDS). CWLA believes that the 
next generation of outcomes should be shepherded by an 
interdisciplinary group of state and federal participants, advocacy and 
consumer organizations, the research and academic communities, and the 
general public. Through this type of collaboration, evidence-based 
measurements can be identified and pursued as meaningful outcomes for 
children.
Building on the Program Improvement Plans
    As a result of performance on the Child and Family Services 
Reviews, states are required to draft and submit to HHS a Program 
Improvement Plan. These plans are varied in format and design. A recent 
report for the U.S. General Accounting Office \1\ found that the 
instruction and response from HHS regarding the Program Improvement 
Plans has not always been timely or consistent for all states.
---------------------------------------------------------------------------
    \1\ Child and Family Services Review: Better Use of Data and 
Improved Guidance Could Enhance HHS's Oversight of State Performance. 
U.S. General Accounting Office (GAO-04-333), April 2004.
---------------------------------------------------------------------------
    A review of the Program Improvement Plans offers some valuable 
insight into some of the key issues facing state child welfare systems. 
The GAO report \2\ found that the most common challenges affecting 
states' Program Improvement Plan implementation was insufficient 
funding, insufficient staff, insufficient time, and high caseloads.
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
    Seventeen of the initial 18 states \3\ to have finalized Program 
Improvement Plans referenced the need for more training. Worker and 
supervisory training should address the need for increased skill and 
competency in conducting safety assessments, in working with families 
experiencing substance abuse and domestic violence, in assisting youth 
transitioning from foster care, in assisting children and families in 
need of specialized services, and in providing effective supervision. 
There is also a need for comprehensive training and mentoring of new 
workers.
---------------------------------------------------------------------------
    \3\ AL, AZ, AR, CA, DE, FL, GA, IN, KS, MA, MN, NM, NY, OK, OR, PA, 
TN.
---------------------------------------------------------------------------
    At least 12 of the initial 18 Program Improvement Plans reviewed 
cited the need for more or better access to mental health services. 
Twelve of the 18 state plans reviewed planned to step up their 
recruitment efforts in finding both adoptive and foster parents. More 
than one-third discussed the need for increased collaborations with the 
courts. Eleven of the 18 states included in their plans greater access 
to services for families and children, including services such as 
aftercare, family intervention, therapeutic services; strategies for 
filling the gaps, including those found in rural areas; and access to 
important supports such as housing or income support.
    States are not required to include information or details on what 
it will cost the state to fully implement the PIP. Each state makes a 
determination based on resources as how to fund the requirements 
described in the PIP. The decisions to fund the improvements outlined 
in each states Program Improvement Plan now relies on each state's 
ability to dedicate scarce additional state resources.
    Without new, dedicated federal resources to assist states implement 
the needed improvements, states will continue to struggle to comply 
with federal expectations and may be penalized as a consequence. CWLA 
supports legislation pending before this Subcommittee, the Child 
Protection Improvement Act (H.R. 1534), sponsored by Representative 
Benjamin Cardin (MD), that begins to address this need. That 
legislation would give states new federal resources to assist states in 
the implementation of their Program Improvement Plans. H.R. 1534 would 
provide grants to states to help implement program improvements and 
would provide an additional bonus for the most successful states.
Imposition of Penalties Are Misguided and May Have Unintended 
        Consequences
    Once a state has received federal approval of the Program 
Improvement Plan, quarterly reports of progress, with supporting data, 
are required. At the end of the two-year PIP, a final report is 
prepared and HHS determines if a state had achieved compliance. Failure 
to achieve compliance may result in financial penalties.
    Although penalties are deferred while the state implements its 
Program Improvement Plan, the state is held accountable for meeting the 
milestones detailed in the plan and ultimately completing the plan 
successfully. If the state does not meet the milestones, or does not 
complete the plan, HHS will assess penalties commensurate with the 
extent of the non-compliance. In successive reviews, the amount of the 
penalty increases for continued non-compliance. The GAO report \4\ 
estimated financial penalties could range from a total of $91,492 for 
North Dakota to $18,244,430 for California. If a state is sanctioned 
for not achieving substantial conformity, private providers may also be 
affected. The decisions to pass on sanctions will be made at the local 
level.
---------------------------------------------------------------------------
    \4\ GAO-04-333, Child and Family Services Review: Better Use of 
Data and Improved Guidance Could Enhance HHS's Oversight of State 
Performance. U.S. General Accounting Office (), Washington, DC: April 
2004.
---------------------------------------------------------------------------
    While oversight and enforcement are critical to making the child 
welfare system better, an enforcement mechanism that relies on 
penalties is misguided. The result of the imposition of penalties for 
states that are not able to fully implement their Program Improvement 
Plan would only result in reduced funding for child welfare services in 
the state at time when more is needed. Penalties would hamper a state's 
ability to make the needed improvements.
Need For National Standards
    Unlike other systems that provide critical services to children and 
families, such as schools and hospitals, there are no comprehensive, 
nationally mandated standards for child welfare services. For many 
years, CWLA has been the principal national organization responsible 
for developing child welfare standards. CWLA's twelve volumes of 
standards provide best practice guidance on many aspects of child 
welfare, including the quantification of caseload ratios. 
Unfortunately, there remains a wide gap between the best practices 
recommended in these standards and what actually occurs in practice in 
many jurisdictions.
    The absence of a core set of nationally agreed-upon standards by 
which agency services can be measured seriously compromises quality and 
consistency across child welfare services. The lack of clear agency 
policy and accountability with regard to best practice all too 
frequently permits ``freelance'' and unstructured casework practice. It 
fosters decision-making that, by default, may be driven by individual 
workers who are often inexperienced and inadequately trained. The lack 
of national standards by which agencies are held accountable has played 
out nationally in recent reports of the disappearance, serious injury, 
and death of children. In addition to these most tragic examples, 
without complying with such standards, many agencies are ill-equipped 
to provide the basic care and protection of children and support to 
families that we expect of an effective child welfare system.
    CWLA proposes the federal government establish national standards 
for child welfare practice that would be linked to the federal Child 
and Family Service Reviews. Once established, nationally adopted child 
welfare standards would provide guidance to state efforts to achieve 
the child welfare outcomes and meet the requirements of state Program 
Improvement Plans. Establishing national standards of practice for 
child welfare services, and creating and implementing a process for 
states to use to ``gear up'' to the standards, would result in more 
consistent, quality practice across jurisdictions and nationally. It 
would provide clear guidance to states in their efforts to achieve the 
child welfare outcomes and make improvements as laid out in their 
Program Improvement Plans. It would provide a needed practice 
framework, enabling child welfare service systems to achieve good 
outcomes for children and families and to be accountable for the 
important work that they do.
CWLA's Call for Comprehensive Child Welfare Reform
    Based on the findings of the CFSR process and the documented needs 
expressed in the PIPs, CWLA continues to urge Congress to take action 
on what is truly needed to build the system of care so that children 
are protected. CWLA recognizes that the child welfare system, as 
currently constructed, cannot protect all children adequately. Failures 
occur. They are not limited to any single state. These failures will 
continue to occur until we put into place a comprehensive child welfare 
system. There is a compelling national interest in providing consistent 
levels of safety, protection, and care for America's children across 
each state.
    The national child welfare system continues to be in need of:

    <bullet>  A reliable, responsive, and predictable method of 
guaranteed funding, for a full range of essential services, as well as 
placement and treatment services.
    <bullet>  A means of maintaining consistent focus on safety, 
permanency, and well-being as outcomes for children.
    <bullet>  Rigorous standards combined with strong federal and state 
accountability mechanisms.
    <bullet>  Recruitment and support of an adequately trained child 
welfare workforce, foster and adoptive parents, mentors, and community 
volunteers.
    <bullet>  Resources that enable parents to provide adequate 
protection and care for their children. Direct tribal access to Title 
IV-E funding. Allowing Native American tribes and tribal consortia to 
apply to the U.S. Department of Health and Human Services to directly 
administer the Title IV-E foster care and adoption assistance program 
would increase opportunities for Native American children to find 
permanent families and receive the supports they need.

    Without all of these elements in place the well-being of many of 
our country's children will continue to be threatened.
New Investments Needed
    The findings of the CFSRs and the PIPs have made it clear that 
states need help in order to successfully care and protect our 
children. The federal government must recognize its unique role in 
better supporting state efforts.
Implement Program Improvement Plans
    All states have now undergone their federally mandated Child and 
Family Services Reviews. States are now putting together Program 
Improvement Plans that outline what improvements are needed to better 
ensure that children are protected. Many states will struggle to 
implement these plans unless resources are provided.
    Legislation pending before the Subcommittee sponsored by 
Representative Benjamin Cardin (H.R. 1534) offers an innovative 
approach that would target funds to assist states in the implementation 
of their Program Improvement Plans. H.R. 1534 would provide grants to 
states to help implement program improvements and would provide an 
additional bonus for the most successful states.
Increase Support for Prevention and Early Intervention Services
    Resources are needed for primary prevention services that can 
prevent many families from ever reaching the point where a child is 
removed from the home. Prevention and early intervention services play 
a vital role for children and families in communities. Family support, 
home visiting, and in-home services enable many parents to gain 
competence and confidence in their parenting while addressing other 
family concerns. Child care, housing, and job training/employment are 
services that enable families to stay together to the fullest extent 
possible. These and other preventive services need to be much more 
available to families early on, as well as when a crisis occurs.
    Community-based child protection programs have demonstrated that 
many families can be helped before there is a need for protective 
intervention with the family. Often, the family can identify what is 
needed and be connected to resources--and contact with the formal child 
welfare system can be averted. Often, after a formal report has been 
made, a child can be maintained safely at home with sufficient 
supports, clear expectations, and monitoring. At all points in the 
continuum, however, ongoing, targeted assessment must be taking place. 
Both the initial child protective services investigation and placement 
prevention services require appropriate immediate assessments of the 
family, the child, and the community. CWLA supports the Act To Leave No 
Child Behind (H.R. 936) that would allow states to claim reimbursement 
under the Title IV-E foster care program to address these needs. In 
addition, we urge Congress to approve the Administration's requested 
increases under the Child Abuse Prevention and Treatment Act.
Increase Funding for Promoting Safe and Stable Families
    CWLA, along with members of this Subcommittee, supports increased 
funding to $505 million for the Promoting Safe and Stable Families 
program (PSSF). States use these funds for family support, family 
preservation, adoption, and family reunification. Since 2001 when this 
program was last reauthorized, Congress has had the ability to add $200 
million to the $305 million in mandatory funding. Despite the best 
efforts of members of this Subcommittee, Congress had never approved 
more than $405 million for PSSF.
Restore Funding for the Social Services Block Grant
    CWLA again calls for the restoration of funding to $2.8 billion for 
the Social Services Block Grant (SSBG, Title XX of the Social Security 
Act). In 2000, SSBG represented 17% of all federal funding for child 
welfare services. While SSBG funds can be used for an array of social 
services, such as child care or services for the aging, states chose to 
spend these funds on child welfare services more than any other service 
area. In federal FY 2001, child protection and child foster care 
services each accounted for 22% of SSBG expenditures; 43 states used 
SSBG funds to address child protection services; and 35 states used 
SSBG to fund foster care.
Support the Adoption Incentives Fund
    CWLA, along with members of this Subcommittee, supports full 
funding of $42 million for the Adoption Incentives Fund. This is an 
important fund that provides resources to the states to encourage the 
adoption of children. Increased funding is especially needed to help 
states reach the new target of facilitating the adoption of older 
children. Congress, led by the work of this Subcommittee, reauthorized 
the Adoption Incentives fund just last year. Despite that effort, the 
2004 funding does not provide the full $42 million.
Adopt Strategies to Better Support the Child Welfare Workforce
    A well-trained, reliable, and experienced workforce is a critical 
element to making children safer. Legislation pending in this 
Subcommittee introduced by Representative Pete Stark (CA), H.R. 2437, 
as well as H.R. 1534 mentioned earlier, encourages a number of 
workforce strategies, including expanded access to training for new and 
current child welfare workers. In the U.S. Senate, Senator Mike DeWine 
(OH) has sponsored legislation (S. 407) that expands college loan 
forgiveness to this part of our nation's workforce.
Change the Eligibility for Title IV-E Foster Care and Adoption 
        Assistance
    To ensure child safety, permanency, and well-being, federal funding 
should be provided for all children in out-of-home care. Congress has 
mandated legal and permanency protections for all foster and adopted 
children, however, federal funding is only available to pay for the 
costs of children who are eligible for Title IV-E of the Social 
Security Act. The current law links Title IV-E eligibility to archaic 
standards that each state had in place under their 1996 AFDC 
eligibility standards.
    Since AFDC no longer exists, this continues to be an administrative 
burden on the states. Even more critical, however, is the fact that as 
time goes by, fewer and fewer children will be eligible for federal 
support. Data gathered by the Urban Institute indicates that as of 
2000, approximately 57% of all children in out-of-home placement were 
eligible for Title IV-E funding. Some states may be able to serve less 
than one-third of their children in out-of-home placement through the 
use of Title IV-E foster care fund. If the current eligibility link 
remains, fewer and fewer children will be eligible for federal foster 
care and adoption assistance.
Expand Family Reunification Services
    Reunification is the first permanency option states consider for 
children entering care. Yet, in many ways, it is the most challenging 
option to achieve in a plan-based, permanent way. Forty-three percent 
(239,552) of children in care on September 30, 2000, had a case plan 
goal of reunification with their parents or other principal caretaker 
while 57% (157,712) of the children who exited care during FY 2000 
returned to their parent's or caretaker's home. Successful permanency 
through reunification requires many things, including skilled workers, 
readily available supportive and treatment resources, clear 
expectations and service plans, and excellent collaboration across 
involved agencies, at a minimum. The Act To Leave No Child Behind (H.R. 
936) would allow states to claim reimbursement under the Title IV-E 
foster care program to address these needs.
Support Kinship Permanency and Guardianship
    One area that can serve as an important tool in providing children 
with a safe and permanent setting is the use of guardian kinship care 
arrangements. Some states have used various resources to fund this 
permanency option. A few states have utilized federal Title IV-E funds 
to support guardianship through the use of Title IV-E waivers.
    CWLA supports a federally funded guardianship permanency option 
available through Title IV-E to allow states to provide assistance 
payments on behalf of children to grandparents and other relatives who 
have assumed legal guardianship of the children for whom they have 
committed to care for on a permanent basis. Kinship guardianship 
assistance agreements and payments would be similar to the adoption 
assistance agreements in that they would take into consideration the 
circumstances and the needs of the child.
    Kinship care, when properly assessed and supported, has been shown 
to provide safe and stable care for children who remain with or return 
to their families. Twenty-five percent of children in care are living 
with relatives, some of whom will not be able to return to their 
parents. States vary in their use of relative homes for foster care 
even though federal regulations state that there is a preference for 
relative placements. States are challenged to provide the financial, 
social, and legal supports that are needed to ensure safety and 
permanency in kinship placements. Generally there is a lack of case 
management and support services made available to relative and legal 
guardian providers.
Conclusion
    The Child and Family Services Reviews offer a valuable opportunity 
to carry out a serious and ongoing examination of how well our nation's 
child welfare system is taking care of and protecting our children. The 
Program Improvement Plans also provide valuable information about what 
is truly needed to build the system of care so that children can be 
protected.
    The improvements to the child welfare system can only be made 
through an improved system of shared financing responsibilities among 
federal, state, local, and tribal governments. Now is the time for the 
federal government to help support states in their efforts to implement 
needed changes by providing states with the needed resources. Without 
additional support, states cannot reach the goals of im-

proved outcomes for the children and families that are touched by our 
nation's child welfare system.

                                 <F-dash>

          Statement of Anita M. Crowley, Wichita Falls, Texas
    My personal experience with Child Protective Services has being 
wearing different ``hats'' at different points in my life. I have been 
a foster parent, educational advocate, foster parent trainer, and most 
recently a parent with a biological child in the system. My husband and 
I were foster parents to in excess of twenty children in our home and 
worked closely with social workers, CASA volunteers, attorneys', 
educational advocates, counselors and teachers. I furthered my 
experience with employment as a legal assistant to a family practice 
attorney. In a desire to seek information for my own case and to create 
a support network for myself, I did research on the internet.
    I feel it imperative to share with you my experiences with our 
system as well as cases I have learned of due to the abuse of power 
that I have seen in the CPS system. I personally have not met anyone 
who came through this system feeling that they have benefited from 
their experience with this unit. My understanding was that this 
institution was designed to protect children while whenever possible, 
keeping families together. This is not the way this organization is 
functioning. In my own case, it was not even attempted.
    Our Courts are taking whatever recommendation given by CPS. 
Hearings are held in the hallway, oftentimes never making it into the 
courtroom. When parents attempt to defend themselves they are told 
things like: ``don't say things about your child that will hurt their 
self esteem,'' ``children don't lie,'' ``children don't lie about these 
kinds of things,'' ``better to destroy one hundred parents then allow 
even one child to be harmed.'' While I understand the need to protect 
children, I find it appalling that we would consider the premise of 
throwing away any life for another, even in the name of child 
protection. My family and I spent literally hundreds of man-hours as 
well as thousands of dollars building a case for mine and my spouse's 
defense as well as to support (show) the need for mental help for my 
daughter. Come the time to present it to the Court, the Judge refused 
to hear it since he said it would hurt my daughter to hear our case. It 
is acceptable to the Court for my daughter to destroy my livelihood and 
my husband's life but not for us to present a defense in the event that 
she is not telling the truth.
    District Attorneys file papers based on whatever they are told by 
CPS. Police investigations are not always done to verify the 
information. If the DA does not have a strong case, they will allow the 
case to drag on for years to allow the case to be settled for lesser 
charges or dismissed.
    Attorneys employed by the parents locally are often afraid to 
defend their clients due to fear of repercussions against their 
families. Others will give in on cases of their clients to gain favor 
for their family members. Some lawyers are so inexperienced that they 
do not have the knowledge to properly defend their clients; those who 
know of the resources available are so expensive that most parents 
cannot afford the proper defense and that is when it remains a civil 
matter. The average price of a defense of one parent in a criminal case 
is considered the price of a new car. I personally cannot afford a new 
car and that would be the case even if I had not faced this situation. 
There is no such thing as a public defender against CPS. A public 
defender is only a consideration if it becomes a criminal matter and 
will not assist in the civil case; it is not their job. It would make 
the criminal case more difficult to defend because working through any 
steps that would be required for the civil case would give information 
to be used against the defendant in the criminal case. The other issue 
regarding attorneys is that each parent must retain their own 
representation since their issues might conflict. The majority of 
children in the system are those of low income to poverty level; one 
cannot help but feel that this is a reflection of the fact that those 
are in fact, the same people who cannot afford to defend themselves.
    The abuse of power from these factors crosses more lines than most 
people can even begin to fathom. There is double dipping of the pots. 
If a child is brought into the system for multiple reasons (which is 
usually the case) then there is the ability for more than one dip. 
Welfare is provided for this child plus parents are charged with child 
support.
    There is a system of ensuring that many people are paid from this 
pot as well. There is a program that is easy to see is the pattern. 
Once the case is assigned to a caseworker the child will be going into 
counseling as well as the parents into by parenting classes, CASA 
workers will be assigned. Family workers might be needed or supervised 
visitation, which will require a social worker to supervise visitation. 
Often times there will be testing or evaluations required such as 
psychologists or sexual abuse examinations. The list is endless.
    All of what you have heard so far is just the beginning. These 
matters are of 
importance but what else goes on in the day-to-day working is even more 
horrifying! My father said it best when he told the head of Child 
Protective Services in our local office, ``--CPS is more powerful that 
the IRS and that scares the hell out of
me--'' This is a very true statement; there is no one who these 
departments are held accountable to, if there were, the abuse of power 
would not be so far out of control.
    Case in point, my husband, my father and I went to talk to the head 
of our local office to discuss my daughter's first allegations against 
my husband, which were stated, in writing, to have been unfounded. As 
we were leaving the office this individual told my husband, ``if your 
name ever crosses my desk again, I'll burn you guilty or not--'' It 
takes someone who is confident in his or her power to have the gall to 
make such a mighty statement. Considering the lack of investigation in 
our case and the fact that we were never permitted a hearing to prove 
our innocence; it makes one wonder as to the power of this person.
    The previous scenario is just one example of the types of things 
going on in this corrupt program. One case I heard of was a young 
mother who was told that she could not have her child back until she 
could prove that she could support herself. She got a job, took a bus 
to and from work, attended visitation and hearings and established 
herself in her own apartment. When the time came that she asked for her 
son back; they told her not until she got a car for transportation. 
Does this imply that a parent is unfit if they do not have a car?
    Another situation: I heard the District Attorney talking with one 
of the local lawyers and a caseworker. There were three children, one 
of whom was old enough to want to stay with her mother. After the case 
progressed for over a year this child just would not lose her desire to 
be with her mother and would cause terrible disruption to the family. 
The powers that be made the decision to trade off returning this child 
to the mother in return for allowing another parent to ``lose'' their 
case. Are these children we are talking about or pawns? I believed 
cases were to be disposed of based on merits.
    Realizing that you do not know the facts of my personal situation, 
please take some of the following points into consideration. These 
incidents happened while we had a case with CPS.

    <bullet>  My daughter was a straight A student. An ``academic 
athlete''; participating in sports as well as her good grades. She 
dropped out of high school and has not held a job for six months since 
she left state custody.
    <bullet>  My son was called into the office and made to remove some 
of his clothing to see if he had marks on him. This was not one of the 
charges or allegations nor was any complaints made by my son.
    <bullet>  I was not allowed to speak with my daughter without 
supervision prior to having any charges or allegations brought against 
me.
    <bullet>  Family members were not considered for placement.
    <bullet>  Reintegration was implied in the beginning but no 
attempts were ever made.
    <bullet>  Child Protective Services drew up the paperwork for the 
``Removal of Disabilities of a Minor'' and made it part of our civil 
case with the State rather than it being a separate legal matter. When 
I attempted to challenge my daughter's readiness for this situation, 
they utilized the information and created documents to imply she was 
prepared. To this date, she has never resided by herself.
    <bullet>  My husband had an Ex Parte ordering him not to be in our 
home. He was living with my parents in another county. His attorney had 
notified the police and the DA that if he was to be arrested they 
should call him and he would bring my husband into be processed. After 
my husband was sitting in jail in another county the police, (over 10 
officers) came and surrounded my house to arrest my husband.
    <bullet>  I requested that my daughter be required to continue her 
religious education and to attend church weekly, this was disregarded; 
in spite of a court order for it to continue.
    <bullet>  I was only permitted supervised visitation one hour, 
weekly and my son was permitted to share the same hour with me since 
the people my daughter was placed with did not like my son. This was 
later reduced to thirty minutes once a week. The judge told me in open 
court that he would not force my daughter to love me.
    <bullet>  Court documents stated that my husband had visitation 
however, he was never permitted to see my daughter after the date of 
removal. If my husband accidentally ran into my daughter in a public 
place, the ``significant others'' (this was CPS's term for the neither 
non-family members nor foster parents to my daughter) would call CPS 
and report that he was attempting to see her.
    <bullet>  Since my husband and I were married in the Catholic 
Church, we do not believe in divorce. In an effort to cope with the 
situation and to give my son the full benefit of two parents and still 
abide by the wishes of the state, I made a proposal that my husband and 
I live apart as if we were divorced. My son would be afforded the 
ability to see his dad and go between our homes; my daughter could live 
at home and not see her dad. I would have them both at home since my 
children had never before lived apart and we would have met the burden 
of the State. This would allow my husband and I to be able to return to 
our cohabitation after the children were grown. The State deemed this 
unacceptable.
    <bullet>  I turned in a written statement to the school that my 
daughter was not to see visitors including CPS, without my presence and 
CPS said that they did not have to abide by my request.
    <bullet>  Medical records of my child were never requested and when 
I told the workers of health issues, they ignored me. I had to file 
hearings to make them abide. Even after that incident, the state did 
not request any medical records for my daughter.
    <bullet>  Police came to my home looking for my husband and when my 
father in law told them he was not home they called him a liar. (this 
is prior to any knowledge of CPS coming into our life)
    <bullet>  I requested that a nun be able to be my counselor (who is 
a licensed social worker) and was told the state would not recognize 
this person.
    <bullet>  School teacher (male) made arrangements with my daughter 
for her to come live with him while she was still residing in my home. 
I even have a tape recording where he tells her that he will do her 
thinking for her. He also gave her gifts and began creating a 
relationship between my daughter and his wife.
    <bullet>  No investigation beyond one test was done for entire 
case. This by a doctor who had no training in sex abuse detection and 
his findings were very questionable.
    <bullet>  Daughter eventually made allegations against a total of 
six men/boys and charges were only brought against my husband. No 
investigation was done into any of the other accused.
    <bullet>  Offer was made by the State that they would drop all 
charges against my husband if we would sign away our rights to my 
daughter.
    <bullet>  While in CPS custody, Jone, my daughter was tested by a 
physician and found to have a venereal disease; Kevin, my husband was 
forced to be tested and found not to have it.
    <bullet>  CASA worker came to our home and said it was too small 
with too many people living there for this situation to have occurred. 
Also that the family my daughter was living with was avoiding her 
visit. (She later changed her story). She also grossly lied in her 
statement to the Court.
    <bullet>  My husband and I received letters to attend permanency-
planning hearing from CPS; when we showed up my husband was told if he 
did not leave, they would have him arrested. During the hearing, my 
father and I were told to leave and that I could not even tape it to 
hear what was being said.
    <bullet>  Social worker promised my daughter that her college would 
be paid for by the State and that her father would be kept away for at 
least a year. When my son tried to talk to this same social worker, she 
told him none of this was any of his business.
    <bullet>  New social worker came to visitation to introduce herself 
to family and schedule next home visit. She proceeds to ask my daughter 
her long-term goal. When the child responds with emancipation; she 
turns to me and says, ``--and you're ok with that?'' I responded, 
``NO!'' She counters with ``why not--'' This is happening during a 
visitation session that occurs between the parent and child for one 
hour, once a week. Precious time that is now destroyed by CPS.
    <bullet>  During the same visit, the social worker takes my child 
out of the visit to have her introduce her to the people with whom she 
is residing. My daughter never came back into the room; she just left. 
I lost over 30 minutes that day and I was only entitled to 60 minutes 
once a week.
    <bullet>  Another visit my child invited me to a play she was 
working on. The CASA worker (not the social worker) heard me telling my 
daughter that I would be attending and proceeded to call CPS and report 
that I was trying to see my child without supervision.
    <bullet>  Numerous times, I requested a copy of file from CPS and 
was denied. When I finally received copy, it was mostly not there and 
what was there was either blacked out or almost entirely blank pages.

    Most of the above-mentioned incidents may not seem like a critical 
matter however, we are but one case; one family who has been devastated 
by a corrupt system that is totally out of control. These people 
running this system are protected. They cannot be harmed because of the 
immunity given to them through there jobs, consequently, they have gone 
out of control. Absolute power is never just and this system is in dire 
need of accountability.
    I appreciate your time in listening to me and look forward to 
seeing you reform this system for the betterment of the American 
people. Thank you.

                                 <F-dash>

Statement of Christina M. Amtower, Family Rights West Virginia, Keyser, 
                             West Virginia
    I request that Congressional Inquiries of Health and Human Services 
Child Protective Services (CPS) be conducted in All States so that 
families can present evidence of the widespread abuses of power and 
discretion, the unjust victimization of families, the unjust and 
unnecessary incarceration of children in CPS custody due to the federal 
financial incentives to states, the egregious violations of families' 
constitutional rights and denials of due process which are routinely 
committed by CPS departments across the U.S. each day.
    My online Petition requesting Congressional Inquiries of HHS CPS 
appears on: http://www.thepetitionsite.com/takeaction/253404476 family 
advocate has offered to absorb the cost of submitting the petition by 
FAX for me to the hearing on states' efforts to comply with federal 
standards.
    I reside in West Virginia and sent my evidence book regarding my 
experiences with West Virginia Department of Health and Human Resources 
Child Protective Services (CPS) to Rep. Joe Baca for the March 13, 2004 
Congressional Inquiry in California. It is my understanding my evidence 
book was forwarded to legislators in Washington, DC.
    In my own case, my son was taken into CPS custody unjustly and 
illegally. Many constitutional violations occurred and denials of due 
process. No pre-deprivation procedures were followed and the post-
deprivation procedures were sham procedures based on knowingly false 
allegations lodged by CPS. I was wrongfully adjudicated neglectful due 
to the condition of the home as no defense was presented.\[1]\ After 
incarcerating my son unjustly in CPS custody for seven months, although 
being informed of domestic violence issues on the part of my ex-husband 
and his current wife, CPS was successful in having custody of my son 
awarded to my abusive ex-husband \[2]\ and his criminally violent 
current wife.\[3]\ I have not been allowed to see my son, have any 
contact with, or any sort of parent-child relationship whatsoever with 
my son in two years five months.
---------------------------------------------------------------------------
    \[1]\ The condition of the home did not meet the definition of 
neglect under West Virginia Code. I was in the midst of spring cleaning 
the home and lacked the funds to hire help to get the tasks 
accomplished quickly. CPS and police illegally entered my home without 
consent, permission, court order or search warrant and searched my home 
on two separate occasions on April 23, 2001. I have filed a pro se 
appeal of my case to the West Virginia Supreme Court of Appeals.
    \[2]\ R. Lundy Bancroft, UNDERSTANDING THE BATTERER IN CHILD 
CUSTODY AND VISITATION DISPUTES http://www.lundybancroft.com
    \[3]\ My son's stepmother stabbed one of her former husbands in the 
chest with a knife. The man survived and filed a police report against 
her. Law Enforcement were called to my son's stepmother's home on a 
number of different occasions, the woman is allegedly an alcoholic.
---------------------------------------------------------------------------
    I had learned after the fact from the CPS case manager that shortly 
after my son's physical custody was awarded to my ex-husband, my son 
complained to CPS and KVC that my ex-husband had become physically 
abusive with my son almost immediately. The CPS case manager admitted 
no one checked my son for marks or bruising, no one took him to a 
doctor, and CPS and KVC took no action whatsoever.
    Through my own research, I have learned that cases such as mine 
where CPS knowingly violates families' rights, enlists the aid of law 
enforcement to coerce entry and to intimidate and CPS making knowingly 
false statements to the Court are not unique or rare, it is actually 
commonplace in the ``child protection industry.'' Single low-income 
mothers are one of the easy ``soft targets'' of CPS.
    In matters involving divorce/custody, CPS becomes involved (to 
collect federal funds for doing so) and the push has been to remove 
families from public assistance or prevent them from receiving it. 
Therefore, CPS awards children to the parent with the most income 
(typically fathers) even when there is clear evidence it is not in the 
child's best interests to do so.
    According to R. Lundy Bancroft, abusive men are twice as likely to 
demand sole custody of children than non-abusive men and 70& of all men 
who demand custody are successful in winning custody (because they can 
afford much better legal representation).
    Some abusive men want custody of the children to negate their 
financial incentives, to further hurt, manipulate and control their 
former victims, and/or to force their former spouses into returning to 
them, if their spouse wishes to see her children again.
    However, as Dr. Orr reported, it costs taxpayers over ten times as 
much to care for children in foster care than if the children were to 
safely remain with their natural families and receive a welfare 
check.\[4]\
---------------------------------------------------------------------------
    \[4]\ Policy Study No. 262, October 1999, Child Protection at the 
Crossroads: Child Abuse, Child Protection, and Recommendations for 
Reform by Dr. Susan Orr http://www.rppi.org/socialservices/ps262.html
---------------------------------------------------------------------------
    One of the most important reasons that states are failing to meet 
federal standards for child welfare in the foster care system is 
because there is an extreme overpopulation of children in CPS custody 
who should never have been placed in CPS custody in the first place.
    At the very least, the definitions of child abuse and neglect must 
be drastically narrowed. Far too many children are in CPS custody 
unnecessarily due to false allegations lodged by CPS or allegations so 
trivial that they did not merit governmental interference in the first 
place.
    Dr. Susan Orr's primary recommendation for child protection reform 
in ``Child Protection at the Crossroads: Child Abuse, Child Protection, 
and Recommendations for Reform'' 1. Narrow the scope of child abuse and 
neglect definitions. Scholars and child-welfare experts from across the 
political spectrum agree that narrowing the scope of child abuse and 
neglect would allow CPS to focus on the most drastic cases. Much that 
is now defined as child abuse and neglect does not merit governmental 
interference.
    The National Coalition for Child Protection Reform (NCCPR) \[5]\ 
first recommendation is ``do nothing''. According to NCCPR in ``Nine 
Ways to do Welfare Right,'' ``There are, in fact, cases in which the 
investigated family is entirely innocent and perfectly capable of 
taking good care of their children without any ``help'' from a child 
welfare agency. In such cases, the best thing the child protective 
services worker can do is apologize, shut the door, and go away.'' Some 
of the other NCCPR recommendations are: Basic, concrete (financial) 
help and Intensive Family Preservation Services.
---------------------------------------------------------------------------
    \[5]\ National Coalition for Child Protection Reform (NCCPR) 
Successful Alternatives to Taking Children From Their Parents. http://
www.nccpr.org/index_files/page0005.html Sincerely, Christina M. Amtower 
Family Rights WV PO Box 845 Keyser, WV 26726 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f4b295999d988dab869d939c8087ab8382b48d959c9b9bda979b99">[email&#160;protected]</a> 
http://www.geocities.com/family_rights_wv/ COPY: Rep. Joe Baca Whereas 
I am an indigent person, and have filed affidavits to that effect with 
the Mineral County Courthouse, Keyser, West Virginia for my appeal to 
the West Virginia Supreme Court of Appeals, I request that the 
requirement that a copy of this letter be FAXED to the Herger Hearing 
be waived due to the costs of FAXING.
---------------------------------------------------------------------------
    Nationwide Child Protective Services Reform must take place. The 
focus of federal funding must shift from removals to family 
preservation. Funding to states' legal aid services must be made 
available and indigents must have legal representation for divorce, 
custody, visitation issues as allegations of child abuse and neglect 
often arise in those contexts. Every state should allow advocates to 
assist families, to inform them of their rights and of CPS rules and 
procedures, to accompany families to court and meetings with CPS, and 
to assist attorneys in presenting a defense.
    CPS is simply corrupt and out of control. Something must be done to 
fix these problems and to stop the destruction of the American family.

                                 <F-dash>

     Statement of Fostering Results, Mike Shaver, Chicago, Illionis

Accountability for Results in Child Welfare: Identifying and Using Data 
                      to Improve State Performance

    Fostering Results--a national, nonpartisan project to raise 
awareness of issues facing children in foster care, is pleased to 
submit this written testimony on state efforts to comply with federal 
child welfare review requirements related to safety, permanency and 
child and family well-being.
    The need for accountability in the child welfare arena is something 
embraced both at the state and federal level. Changes ushered in with 
the passage of the Adoption and Safe Families Act (ASFA) in 1997 not 
only detailed the importance of ensuring safety, permanency and well-
being for children, but also outlined a process whereby states would be 
evaluated based upon their success in delivering these outcomes for 
children coming into contact with child welfare. This process--the 
Child and Family Services Review--has been carried out in every child 
welfare jurisdiction in the country. The news, as lamented in the 
editorial pages of both the New York Times and the Los Angeles Times, 
is less than encouraging: the failure of all 50 states, the District of 
Columbia and Puerto Rico to meet basic federal expectations in child 
welfare service delivery.
    Failure of this magnitude is clearly reason to take note, but in 
the rush to highlight yet another failure in state and local efforts to 
protect vulnerable children, policy makers should seek to understand 
these failures with a clear sense of each outcome indicator and how 
these indicators are related to a state's performance and what this 
performance means for children and families.
    What follows is a brief overview of some of the more problematic 
measures and ways in which the current measures fail to capture key 
underlying dynamics such as worker caseloads and workforce development 
as a way of improving service delivery. Additionally, this testimony 
offers suggestions for ways in which the Program Improvement Plans 
initiated by states to respond to their identified failures can be used 
to combine innovation, rigorous evaluation and accountability in an 
effort to turn around performance.
Flawed Measures
    Unfortunately, federal reviews of state child welfare systems can 
inaccurately label states as ``failing'' even when their systems are 
improving. In many states, a documented failure in one of the national 
outcome indicators stands in striking contrast to evidence that many of 
these systems have turned the corner on performance.
    For the first time in years, public foster care caseloads are 
shrinking as a result of successes in finding permanent homes for 
children who otherwise would have languished in long-term foster care. 
The median time it takes children to exit foster care has shortened, 
and nationwide the number of children in foster care peaked at 565,000 
in 1999 and has declined continuously to 533,000 in 2002.
    The federal Adoption Incentive Program has rewarded a majority of 
states for peak improvements in adoptions out of foster care, which 
when summed across all states is twice the overall baseline the federal 
government set in 1997. When other permanent placements such as legal 
guardianship are counted the data show that our nation's child welfare 
systems delivered a year ahead of schedule on a national goal to double 
by 2002, ``the number of children adopted or permanently placed.\1\
---------------------------------------------------------------------------
    \1\ Administration for Children and Families. 1997. ``Adoption 
2002: Safe and Permanent Homes for All Children.'' Press Release, 
February 14, Washington, D.C.: U.S. Department of Health and Human 
Services.
---------------------------------------------------------------------------
    Yet these notable improvements in public child welfare performance 
fail to register on the federal radar screen because of significant 
flaws in the methods used to assess performance and track program 
improvement. The reauthorization of the Adoption Incentive program 
signals an interest at the federal level for using financial incentives 
as one means of ensuring that child welfare jurisdictions are in moving 
towards appropriate outcomes for children and families. If this is to 
be continued as a strategy for improving child welfare performance, 
then ensuring that states are working toward the right outcomes, and 
that these outcomes are appropriately measured, is essential.
    The problem with the data used by the federal government dates back 
to the AFCARS regulations issued by the Children's Bureau in 1994, 
which implemented Section 479 of Title IV-E of the Social Security. 
These regulations drew heavily from the recommendations of the 1987 
Advisory Committee on Adoption and Foster Care Information that 
Congress mandated to study the various methods of collecting data with 
respect to adoption and foster care in the United States. The Committee 
recommended an information system that would support individual child-
based reporting but not allow for identification or tracking of 
individual children prospectively over time. This decision in favor of 
a ``cross-sectional'' reporting system ran opposite to the 
recommendations of the experts hired by the Committee. Their reports 
stressed the importance of organizing a national information system on 
the basis of cohorts of children entering the system (entry cohorts) 
and tracked longitudinally from the date of removal to the date of 
discharge.\2\
---------------------------------------------------------------------------
    \2\ Testa, M. F. 1987. ``Data Necessary to Support National Policy 
Functions in Foster Care and Adoption''; Fanshel, D., Finch, S., and 
Grundy, J. 1987. ``Collection of Data Relating to Adoption and Foster 
Care.''
---------------------------------------------------------------------------
    In hindsight, the Committee's recommendation for a cross-sectional 
reporting system may have served the information needs of the federal 
government at the time. But recent developments since the passage of 
the Adoption and Safe Families Act (ASFA) of 1997 have revealed serious 
inadequacies in this approach and underscore the importance of an 
approach that supports longitudinal tracking of child outcomes.
    All states strongly recognize the need to track system performance 
in order to evaluate the impact of programs and policies on child 
welfare outcomes. However, the inability of the current cross-sectional 
reporting system to track the achievement of child welfare outcomes 
prospectively for entry cohorts (children entering care during the same 
time period) makes it ill-suited to assess the performance of state 
systems. The restriction of AFCARS to reporting retrospectively on 
child welfare outcomes only for exit cohorts (children exiting care 
during the same time period) undercuts the federal government's 
attempts to measure performance trends accurately and to establish 
valid performance benchmarks.
Retrospective Data and Performance Analysis
    The problems associated with assessing performance using 
retrospective measures can be illustrated with real data from Illinois. 
By contrasting the retrospective and prospective approaches using one 
key outcome measures--time to adoption--the inherent weakness of the 
retrospective approach becomes obvious.

    Federal retrospective measure of time to adoption (Child Welfare 
Measure 3.1): Of all children who exited care to a finalized adoption, 
what percentage exited care within 24 months?

        FFY1            FFY2            FFY3            FFY4            
FFY5

        16.1%           10.8%            12.7%            8.4%          
   7.3%

    Alternative prospective measure of time to adoption: Of all 
children who entered substitute care, what percentage exited to 
finalized adoption within 24 months?

        FFY1            FFY2            FFY3            FFY4            
FFY5

        1.7%            1.8%             3.0%            5.4%            
 7.8%

    Clearly, the retrospective measure distorts performance trends. It 
is based on exit cohorts that simply measure the average amount of time 
spent in foster care by a group of children exiting care at the same 
time rather than looking at the experience of children who enter care 
at the same time. Consequently, this state's success in moving long-
term foster care cases to adoption paradoxically shows up as if the 
state is taking a longer time each year to move children to permanence 
(16.1% down to 7.3%) The prospective approach of following children 
from date of entry to date of adoption clearly shows the tempo of 
achieving permanence is increasing in the state (1.7% up to 7.8%). 
Answering the key question of whether or not this state is headed in 
the right direction is only possible using a prospective approach to 
analyzing performance data--analysis made possible only through the use 
of longitudinal data. Being able to adequately identify improvements in 
system performance is key to aiding states as they implement and 
monitor Program Improvement Plans.
The Importance of Longitudinal Data in Correcting Performance
    The inability of AFCARS to reconstruct a complete longitudinal 
record of foster care greatly restricts its utility for monitoring the 
achievement of child welfare outcomes and evaluating system 
performance. This also clearly poses problems for states attempting to 
respond to failures with Program Improvement Plans. The expectation 
that states improve performance begins with having the right data. 
Under the current methodology, this data is incomplete, making any 
expectation around performance improvement problematic.
    The problem of incomplete data gives rise to what statisticians 
call ``biased statistics.'' The figure below illustrates three sources 
of data that are commonly used to generate child welfare statistics. 
First, the caseload (cross-sectional) snapshot is what is typically 
reported and refers to the number of active foster care cases on a 
particular day or end of a year or quarter. Keeping track of the active 
foster care caseload is essential to good management, but can tell you 
little about the trends resulting in caseload decline or growth. The 
chart below, which illustrates caseload dynamics from Illinois, shows 
the differing trends which can impact caseload size.

                 Figure 1--Comparing Data Perspectives
[GRAPHIC] [TIFF OMITTED] 99673A.004

    Second, generating statistics from an exit cohort, as is done for 
the Child and Family Services Review, also results in statistical bias 
because it systematically excludes children who are stuck in care and 
over-represents children who exit quickly. It is a mishmash of samples 
that do not have a clear referent population--who are we talking about 
and how does this year's exit cohort compare to last year's exit 
cohort?
    In Figure 2--also generated using Illinois data--is useful in 
understanding how misleading statistics are generated by relying on 
exit cohorts or caseload snapshots for estimating median length of 
stay. In this particular example, exit cohorts show lengthening time in 
care because of the state's success in moving long-term cases to 
permanence. The caseload snapshot shows lengthening time in care 
because of the sharp drop in the intake of new cases.

           Figure 2--Comparing Length of Stay in Foster Care
[GRAPHIC] [TIFF OMITTED] 99673A.005

    Only the entry cohort--and longitudinal data analysis--yields an 
unbiased measure of time in care because it captures the experiences of 
all children. There are special statistical procedures that permit 
estimation regardless of whether the children remain in the system or 
exit placement. Using these methods, the data show that the median 
length of stay in this state has actually been declining steadily for 
10 quarters. As a means of understanding whether a child welfare 
jurisdiction is headed in the right direction, understanding the 
comparative experiences of those children entering the system each year 
is the only meaningful measure.
    The need for longitudinal data analysis is not just confined to the 
national standard for time in care prior to adoption. Two other 
national standards are calculated using flawed data limited to 
retrospective analysis: time in care prior to reunification and foster 
care re-entry. As with time in care prior to adoption, the use of exit 
cohorts and retrospective data analysis gives a misleading view of 
state performance. States, like Illinois, moving in the right direction 
with respect to each of these measures can appear to be failing to meet 
national benchmarks. Failure to address this basic problem not only 
perpetuates false-reads on public child welfare performance, it poses a 
real threat to the important gains made in promoting accountability in 
child welfare.
Evaluating Child Welfare Capacity
    Another limitation in the CFSR that potentially impedes the ability 
of states to identify and correct performance is the lack of 
information about perhaps the most significant factor effecting a 
jurisdiction's success and failure: the workforce. The CFSR is replete 
with measures examining systemic factors related to service provision, 
but it completely inadequate with respect to collecting information 
about direct service workloads (caseloads) and the preparedness of this 
workforce with respect to their education and training. In other social 
service fields such as child care, analysis of these and other 
characteristics directly related to the quality of care proved useful 
in identifying areas where changes were warranted.\3\
---------------------------------------------------------------------------
    \3\ Congressional Research Service. 2001. ``The Child Care 
Workforce.'' CRS Report for Congress, Washington, D.C.: Congressional 
Research Service, Library of Congress.
---------------------------------------------------------------------------
    In child welfare across the country, there is significant variation 
in caseloads and the level of training, education and experience of 
child welfare caseworkers and their supervisors. Unfortunately, this 
information can be difficult to gather due to a lack of systematic 
review of the child welfare workforce. This is especially disconcerting 
given research findings that show that caseload size and education and 
training are directly related to improved outcomes for 
children.<SUP>4,}5,}6</SUP> A recent study released by the General 
Accounting Office suggests overlooking these key workforce dynamics 
could pose a barrier for states interested in turning around 
performance. A review of nine items most frequently assigned a rating 
of ``Area Needing Improvement'' in 41 states that completed the CFSR 
illustrates where caseloads, education and training are all factors 
related to whether or not a state is likely have an impact in improving 
performance.
---------------------------------------------------------------------------
    \4\ Tittle, G. Caseload Size in Best Practice Literature Review. 
Urbana, IL: Children and Family Research Center, School of Social Work, 
University of Illinois, 2002; U.S. General Accounting Office. Child 
Welfare: HHS Could Play a Greater Role in Helping Child Welfare 
Agencies Recruit and Retain Staff. GAO-03-357. Washington, DC: GAO, 
March 2003. This report suggests the merit of establishing reasonable 
worker-caseload ratios and cites caseload standards recommended by the 
Child Welfare League of America and the Council on Accreditation for 
Child and Family Services.
---------------------------------------------------------------------------
    \5\ Booz-Allen & Hamilton. The Maryland Social Service Job Analysis 
and Personnel Qualifications Study. Baltimore, MD: Maryland Department 
of Human Resources, 1987.
    \6\ Albers, R., and Albers, R. Children in Foster Care: Possible 
Factors Affecting Permanency Planning. Child and Adolescent Social Work 
Journal (1993) 10 (4) 329-341.

     Table 1: CFSR Concerns: Areas Most Cited as Needing Improvement
------------------------------------------------------------------------
                                               States rated as needing
                   Item                            improvement\7\
------------------------------------------------------------------------
Assessing the needs and services of child,  40
 parents, and foster parents.
------------------------------------------------------------------------
Assessing mental health of child..........  37
------------------------------------------------------------------------
Establishing the most appropriate           36
 permanency goal for the child.
------------------------------------------------------------------------
Demonstrating efforts to involve child and  36
 family in case planning activities.
------------------------------------------------------------------------
Ensuring stability of foster care           35
 placements.
------------------------------------------------------------------------
Achieving a child's goal of adoption......  35
------------------------------------------------------------------------
Providing a process that ensures that each  35
 child has a written case plan to be
 developed jointly with child's parent(s)
 that includes the required provisions.
------------------------------------------------------------------------
Ensuring workers conduct face-to-face       31
 visits with parent(s).
------------------------------------------------------------------------
Ensuring worker conducts face-to-face       31
 visits with child.
------------------------------------------------------------------------
\7\ U.S. General Accounting Office. Child and Family Services Reviews:
  Better Use of Data and Improved Guidance Could Enhance HHS's Oversight
  of State Performance. GAO-04-333. Washington, DC: GAO, April 2004.


    These areas--all of which represent important components of 
ensuring results for children--rely heavily on a basic, adequate 
workforce infrastructure. Building this infrastructure, while no easy 
task, will require considerably more information than is currently 
available or collected as part of the CFSR process. Adding to this body 
of information represents an important step in guiding states as they 
undertake program improvements.
The Importance of Innovation in Improving Child Welfare Performance
    The permanency challenges identified through the CFSR process offer 
useful examples of where state-initiated innovation has been key to 
performance turnarounds. Three of the national performance standards--
failed by most of the states--include reducing time to reunification, 
reducing time to adoption, and reducing the number of placements while 
in care. One tool which offers promise for states looking to address 
service failures highlighted by the CFSR is the federal waiver 
demonstration program.
    Since 1995, state child welfare jurisdictions have had the ability 
to seek waivers to restrictions in population and service eligibility 
for federal financial participation. Waiver authority gives states an 
important option to help determine ``what works.'' Under current 
statute, as many as ten states each year are permitted to conduct 
demonstration projects by waiving certain requirements of titles IV-B 
and IV-E to facilitate the demonstration of new approaches to the 
delivery of child welfare services. Expansion of IV-E child welfare 
waivers could reduce fiscal restraints on innovation, encourage 
controlled experimentation on promising practices, and advance the 
evidence-based practices that are needed to promote wider system 
reform, ensuring states are managing toward improving their 
performance.\8\ By using the waiver process to gain flexibility in 
paying for foster care innovations with promise, several states have 
begun to make progress in getting the right results while maintaining 
cost neutrality or even reducing costs.
---------------------------------------------------------------------------
    \8\ Testa, M. (2004). ``Encouraging Child Welfare Innovation 
through IV-E Waivers.'' Paper presented at the Title IV-E Child Welfare 
Dialogues. School of Social Work, University of Wisconsin at Madison, 
February 13, 2004.
---------------------------------------------------------------------------
    An example of one such area of innovation implemented through the 
waiver process is subsidized guardianship and permanence through 
kinship care. Models were implemented in Delaware, Illinois, Maryland, 
Montana, New Mexico, North Carolina and Oregon. While each state's 
model varied in approach and magnitude, these efforts to improve 
permanency for children through greater flexibility in the use of 
federal funds proved invaluable in terms of getting better results for 
states. Subsidized guardianship in Illinois--by far the largest 
demonstration in this area--used federal financing waivers to subsidize 
private guardianship and provide more than 6,800 children with stable, 
permanent homes. The accumulated evidence made possible through the 
evaluation of this and similar waivers are have created the foundation 
to advocate for legal guardianship as a policy change at the federal 
level which is both good for children in foster care and fiscally 
responsible.
    Other examples offer important lessons. Connecticut was granted a 
waiver to use federal funds to offer intensive residential mental 
health services to children in need, reducing the time these children 
spent in foster care and improving their behavior once they returned 
home and Delaware cut by nearly one-third the amount of time that the 
children of drug and alcohol abusing parents spent in foster care 
through a waiver program using federal dollars to identify families in 
need of immediate substance abuse treatment and services.\9\ Not only 
does affording greater flexibility through waivers in the use of 
federal funds promise real opportunities to improve state performance 
in those areas identified as concerns by the CFSR, the use of this 
flexibility through a waiver ensures that states capture evidence that 
their innovation is having the desired result.
---------------------------------------------------------------------------
    \9\ McDonald, J., Salyers, N., Shaver, M. The Foster Care Strait 
Jacket: Innovation, Federal Financing and Accountability in State 
Foster Care Reform. Chicago, IL: Fostering Results, 2004.
---------------------------------------------------------------------------
    This suggests that waivers could be an important tool for states 
looking to implement reforms in an effort to comply with their Program 
Improvement Plans (PIPs) which are required for every state failing to 
meet federal standards in child welfare service provision. Under the 
existing federal regulatory framework, states failing to show 
measurable improvement in failed areas of the CFSR can lose millions of 
dollars in federal funds for child welfare.
    The federal government could do much to drive wide-scale system 
improvements in child welfare service delivery simply by inking 
innovations in state practice through federal waivers to the 
requirement to implement PIPs. A state failing to meet a specific 
outcome identified in the CFSR could choose to test one or more 
strategies to secure better results for kids. Linking state PIPs to the 
opportunity to implement demonstrations offers a couple of important 
advantages over what currently exists.
    First, rather than pursue a patchwork of policy and practice 
changes without a real evidence base as to their efficacy, states could 
target changes using a specific intervention or multiple interventions 
designed to better manage identified problems. Second, by ensuring that 
these changes in policy and practice are aggressively evaluated, the 
results of the innovation can be documented, creating an evidence-base 
outlining potential strategies for other child welfare jurisdictions 
facing similar challenges.
    Public child welfare jurisdictions everywhere are committed to 
improving the way they serve children and families in their care. Too 
many, however, come up short on the strategies and resources needed to 
secure meaningful change. States with an emerging sense of how to do 
the work better should be encouraged to structure their strategy, build 
an evaluation design to test the results, and make those results 
available to other systems looking for similar tools. By creating an 
incentive for states to innovate in solving their problems, efforts at 
real accountability can be greatly strengthened.
Conclusion
    There is no question that children and families are better served 
with accountability efforts like the Child and Family Services Review. 
There is clearly more discussion about the need to ensure that children 
served by child welfare are safe, quickly moved to permanency and have 
their needs meet while in care. Calling attention to system deficits 
will continue to play an important role in raising the bar for meeting 
the needs of vulnerable children and families. This careful monitoring, 
however, should be increasingly focused on documenting outcomes useful 
in terms of understanding state performance, and whether state 
performance is good or bad for the children in their charge. Without 
the use of longitudinal data, this kind of insight into child welfare 
practice at the state level is impossible.
    An effective system of accountability should also create an 
environment where states can be responsive in terms of meeting 
identified service failures. By linking state efforts at program 
improvement through the PIPs to the federal waiver demonstration 
process, child welfare jurisdictions could begin the much-needed 
process of identifying and implementing field-tested innovations. These 
strategies--tested for financial viability and evaluated for their 
potential to better serve kids--represent the greatest promise to 
deliver a child welfare system known more for success than failure.

                                 <F-dash>

Statement of Honorable George Miller, a Representative in Congress from 
                        the State of California
    Good morning and thank you for affording me this opportunity to 
testify. I commend the Chairman for examining states' performance in 
meeting Federal child welfare laws and regulations.
    As you are aware Mr. Chairman, I have a special concern about the 
foster care system. In 1980, I was the author of the federal foster 
care and adoption law that established many of the parameters for 
remedying failures that plagued the system at that time. That law 
requires States to comply with a number of core requirements intended 
to protect children placed in foster care as a condition of receiving 
Federal foster care funds. Specifically, that law mandated 
individualized case planning, case management, periodic reviews of 
placement, and expanded support for adoption. However, many of the 
severe problems in this system have continued despite laws and 
subsequent efforts to address the shortcomings that threaten foster 
children.
    Newspaper, academic studies and media coverage across this nation 
are daily reporting the sweeping crisis affecting the 550,000 children 
in foster care in this country. In Florida, New Jersey, California, and 
many other states, accounts of physical abuse, sexual abuse, neglect 
and even death of foster children under the care of the state child 
welfare agencies are commonplace. In fact, some child protection 
agencies unfortunately make victims of the very children and families 
they are supposed to benefit.
    Susan Notkin of the Center for Community Partnerships in Child 
Welfare, appropriately stated that ``these tragedies initiate 
predictable events. Politicians, journalists and others point fingers. 
A caseworker, supervisor or child welfare commissioner resigns. A blue 
ribbon panel is convened. But real system reform seems impossible, and 
the sense of urgency fades until the next headline.''
    I couldn't agree more with Ms. Notkin's observations and this 
Subcommittee should take them to heart. Study after study has 
documented the severe problems in many of our states. We held a Child 
Welfare Summit a year and a half ago that identified not only the 
failures, but how states and local communities could more successfully 
administer their foster care programs. Last November, following the New 
Jersey tragedies, this subcommittee held a series of hearings to 
examine ``Recent Failures to Protect Child Safety.'' However, this 
subcommittee has failed to take any legislative action to reform the 
child welfare system and protect children from harm while in states' 
care.
    In recent weeks, the national scope of the failures has become 
apparent. A recent General Accounting Office report stated that, of the 
41 states examined by HHS, all were out of compliance with federal 
regulations to protect children. Every one. The report, requested by 
Representatives DeLay, Rangel, Cardin, Stark, and myself, raises 
profound questions about the adequacy of federal oversight of state 
child welfare programs.
    This study is very bad news for those in the Administration who 
would supposedly ``reform'' foster care by abandoning accountability 
and granting even greater latitude to the states in managing their 
federally financed foster care systems. With 41 state agencies failing 
to meet basic standards for their foster care programs, it would be 
foolhardy to award states a block grant in hopes they would run their 
programs more responsively than they do with the specific mandates in 
current law.
    Last year, I joined Representative Cardin in co-sponsoring a bill 
that would strengthen Congress' will and commitment to protect 
children. The Child Protection Service Improvement Act includes 
provisions designed to improve outcomes for children in foster care and 
move quickly to either return them to their families or find permanent 
adoptive homes. The bill provides for improved services, support for 
caseworkers, flexibility in foster placements, and a renewed commitment 
to permanent homes--these are urgent goals for children and families in 
the child welfare system.
    We spend $5 billion annually in response to child abuse and 
neglect. We could spend this money far more wisely by implementing the 
types of reforms proposed by the nation's leading child welfare experts 
and incorporated into the Child Protection Service Improvement Act.
    Congress needs to act before the next tragedy. Thank you for this 
opportunity to testify today.

                                 <F-dash>

            Statement of Thomas E. Miller, Smithfield, Utah
    I am requesting that this statement be submitted as a voice for the 
people against the government agencies of DCFS and DHS which abuse the 
powers and trust vested in them by the people, which they routinely use 
in destroying, lying and causing great pain to the people they are 
supposed to serve and protect. The tail is clearly wagging the dog.
    Numerous others and I (and especially children) have been 
extensively abused by DCFS and DHS who have also abused my children and 
countless others. DCFS caseworkers upset my children by improperly 
interviewing them and planting ideas and false accusations against 
their father (me), convincing them that their father is a bad person as 
falsely alleged by themselves and my soon to be ex-wife. They 
encouraged and supported her lies and emotional abuse/maltreatment of 
my children through Parental Alienation and other severe emotional 
maltreatment. Parental Alienation is specified in Utah's DCFS 
guidelines as child abuse under the category of emotional maltreatment. 
Yet they refuse to do anything about this alienation and other verbal 
and emotional abuse (defined in their own guidelines) severe enough to 
cause 2 of my children to become emotionally out of control, distraught 
and suicidal. The only thing! they do about it is to badmouth me and 
make false allegations about me and cause my children to become worse 
when further abused. If they were required to record all interviews and 
conversations they could not do this so easily. They make false 
statements about me (and countless other parents) and about what I've 
said to them and to my children. They put words in my mouth and prevent 
my children from receiving relief from their abuse and from their other 
abusers as well (their mother and grandparents).
    DCFS canceled a recorded interview which was scheduled for my 4 
year old daughter. Instead they improperly interviewed her and my other 
daughter with the perpetrators waiting for them outside the interview 
room. They upset my children by introducing false allegations about me. 
The purpose for which the police scheduled a videotaped interview of my 
daughter at the Children's Justice Center was to determine if my 4 year 
old daughter's claim that her maternal grandfather molested her were 
true or not. DCFS and their associates turned the tables against me 
instead of letting my daughter get interviewed on video to solve things 
once and for all. Now my daughter lives with her mother in the home of 
her alleged molester. It is not uncommon for DCFS to keep molested or 
allegedly molested children with the molester and the molester's 
supporters who keep the child in danger.
    I've written letters to the editor about many generalized cases of 
abuse that DCFS and associates perpetrate on children and families; 
excerpts from real accounts from other men and women I've interviewed. 
I've also interviewed now grown child victims of DCFS neglect and 
abuse. My letters to the editor generated many phone calls with more 
accounts of even more, and similar, horror stories about DCFS and 
bedfellows. All accounts have similarities. All the DCFS victims 
recount that ``DCFS caseworkers have no accountability. They lie, lie 
and then they lie some more. They ``put words in your mouth'' when they 
write up their false reports on you. To DCFS, the end justifies the 
means, with their constant diarrhea of lies.'' WE know through personal 
experience that the current ``constraints, regulations and safeguards'' 
put in place to protect the public from DCFS fraud, waste and abuse are 
nothing short of an ineffective mess; fraud, which only supports DCFS 
further in their abuse of power and of the people.
    DCFS and DHS must be made accountable. The best solution would be 
to completely abolish DHS and it's bastard child DCFS ``who can do no 
wrong.'' The next best beginning of a solution would be to require DCFS 
and DHS to record ALL conversations, interviews, etc. Anything not 
recorded cannot be proven and therefore should be completely 
invalidated, inadmissible to courts or any entity, due to their long 
track record of uncontrollable lying. Any person or agency with an 
inkling of honesty and integrity should not and would not oppose 
recording their own interviews and conversations to prove their 
validity, unless they have something to hide. DCFS and buddies do have 
a lot to hide. They enjoy having no accountability, except for the 
broad false accountability they presently have and enjoy; 
accountability backed by lies and more lies. Lies which testify that 
DCFS is reputable, hard working and honest. . . .
     My son and daughter could not get any help or relief from the 
abuse by their mom and grandparents or the neglect and abuse by DCFS 
and associates. The abuse took its toll resulting in my teenage son 
becoming so out of control at home and school (including depression, 
hostility, rage and failing his classes) that his mom and grandparents 
couldn't handle him, nor could they stand to be around him any more. 
They kicked him out and sent him to live with me over two years ago. 
They wouldn't let him or my teenage daughter get proper counseling 
(which was court ordered--they backed my wife up in lying to the judge 
about this), medication treatment or management for their depression 
and other disorders. Once my son lived with me I could get him back in 
to his psychiatrist to receive real medication help for his previously 
diagnosed depression, ADHD, OCD and anxiety. I also use a parenting 
program with logical and appropriate consequences, consistency and 
unconditional love. I'm strict but not mean. I do net yell, coerce, 
belittle, threaten or hurt my kids. I use positive reinforcement also. 
This works like the professionals say it will. DCFS is against these 
type of programs. They threatened one lady I talked to that if she 
didn't cease using the parenting programs that they'd take away her 
other child also. This doesn't happen when there is genuine 
accountability, which does not exist for DCFS and DHS.
     It comes as no surprise that my son turned around once he lived 
with me. His teachers, principal, school counselor, psychiatrist and 
others were and are amazed at the change in him, academically and 
socially. He's now an honor roll student. DCFS and DHS will not 
acknowledge this positive change in my son while he's been in my 
custody. DCFS and DHS made sure my daughter could not get this same 
help as she struggles to cope and survive, with failing grades in 
school and explosive behavior and social problems collimating in a 
suicide attempt right in the midst of a DCFS and DHS investigation on 
the matter last fall. I warned them both that she was likely to become 
suicidal once again if they did not take action to stop the negative 
(abuse) and introduce the positive (positive parenting). They blew it 
all off, twisted it around and blamed me for her problems. They kept 
her in the circumstances which led her to these depths. I gave them 
statements from many witnesses including professionals which they also 
blew off or sickly twisted around against me. They could not do this if 
they really had accountability. Is it really that big of a mystery that 
my most out of control child finally started doing well now that he's 
living with me, and my daughter is still struggling and doing poorly 
living in the very abuse infested home which my son escaped? How can 
they ignore and twist the testimonials of professionals on these 
matters? They know they can. They know who checks up on them. They know 
they won't get in trouble.
     Please help stop abuse! & Please help stop institutionalized 
abuse! Please help stop DCFS and DHS!

                                 <F-dash>

  Statement of John A. Johnson, New York State Office of Children and 
                 Family Services, Rensselaer, New York
    First, I would like to extend my thanks to Chairman Herger and the 
members of the Subcommittee for this opportunity to provide testimony 
on a topic very dear to me. As Commissioner of the New York State 
Office of Children and Family Services (OCFS), the state's lead agency 
that oversees child welfare services, I appreciate Congress' efforts to 
account for the government funds it spends on vulnerable children.
    Through the leadership of our Governor, George E. Pataki, New York 
has consolidated family, child, and youth services under the aegis of 
an all-encompassing agency, called OCFS. His vision for this agency was 
to provide services in a sensible continuum to vulnerable families. We 
at OCFS believe ``that each child is to be served within his/her 
family, and each family is to be served within their community.'' That 
being said, I want to draw to your attention the federal government's 
funding program for child welfare services.
    A majority of the nation's dollars spent on child welfare services 
annually are spent on the maintenance of children when they are placed 
out of their homes. It is a method that is ``reactive'' and not 
``proactive.'' A truly proactive approach would be to expand on the 
types of services that can be funded with federal dollars to those that 
provide early intervention, family support services and preventive 
treatment. When more children can remain safely with their own 
families, then government dollars will not be necessary to maintain 
them outside of their homes.
    Although thousands of children nationally are placed outside of 
their homes, the most extreme cases are the ones that get national 
media attention. This can cause the public perception of child welfare 
as the system of despair for children. Clearly, this is not true and 
certainly is a disservice to the thousands of loving foster families 
that provide loving homes for vulnerable children. It is unfair to 
judge the entire system by the sad results of a handful of extreme 
cases.
    The same can be said of the CFSR process. Not a single state has 
been able to pass this test. Therefore, the public assumes that not one 
of the 50 states in the union or the territories can properly care for 
vulnerable children placed out of their homes. Is this accurate? I 
hardly think so.
    I believe that the 50-state case sampling is fundamentally flawed 
and that stakeholder interviews do not compensate commensurately for 
this flaw. Many other states hold this view as well.
    Consider that the CFSR's evaluation of New York State's performance 
as a whole was based on:

    1.  A review of less than .001 of the statewide caseload (i.e., 
only 50 cases);
    2.  An examination of only 3 of New York's 58 social services 
districts;
    3.  Interviewing only a handful of stakeholders of the thousands 
working in the system.

    The integrity of the findings is further compromised by the 
diversity of the demographics and economic climate throughout the 
state. What works for a rural county differs substantially from that of 
New York City or counties surrounding it. Although the Administration 
for Children and Families (ACF) claims a goal of seeking to eliminate 
cookie cutter approaches to child welfare delivery systems, it gauged 
state performances using the same cookie cutter methodology.
    Stakeholder comments also were used in a misrepresentative fashion. 
In one instance, the verbal comments of a single stakeholder were 
portrayed as a statewide finding. Specifically, a stakeholder commented 
on New York's methodology of recruitment of foster parents. In the 
State's Response to ACF's Final CFSR report is found in Appendix A, I 
stated,
    ``One item in particular concerns us in this regard. The report 
indicates that one area described as needing improvement has been so 
deemed solely on the basis of stakeholder comment. Item 44 pertains to 
the requirement that the State have in place a process for the diligent 
recruitment of potential foster and adoptive families that reflect the 
ethnic and racial diversity of children in the State for whom foster 
and adoption homes are needed. The State provided a strong self-
assessment in this area and ACF concluded in the on-site review that it 
is ``generally accepted that the State is making significant and 
organized efforts to recruit foster and adoptive parents.'' ACF's 
comment at the exit conference was that this area was a strength. 
Further, there is no claim that the State lacks a sufficient number of 
foster and adoptive parents. However, due to what appears to be 
requests for improvement by stakeholders, New York did not pass this 
item in the review. In this instance, we believe that opinion has 
overruled fact. We believe it is more accurate to say that this item is 
an area not in need of improvement.''
    Clearly, stakeholder comments are valuable sources of information, 
but they must be handled appropriately and characterized as opinion and 
not necessarily fact.
    OCFS has closely examined the process and found that it lacks in 
consistency as well as reliable data assessment. The federal measures 
were derived by a flawed data system. Specifically, we believe that the 
federal data that measure time to adoption (and time to reunification) 
is flawed for the following reasons. The federal measures compare exit 
cohorts to judge whether length of stay is getting shorter or longer.
    The length of time children exiting foster care have been in foster 
care is a poor measure of performance. Policy and programmatic changes 
intended to reduce a backlog of cases that have been in foster care for 
a long time can actually increase the length of time to reunification 
or adoption among discharge cohorts. This occurs because the cohorts 
exiting foster care after this programmatic shift takes place will 
contain a higher concentration of children who stay a long time. Thus, 
while the State is improving performance, it would appear that 
performance had gotten worse. Furthermore, the use of exit cohorts 
create a disincentive to decrease length of stay for children who have 
been in foster care for more than a year or two.
    The federal measures do not account for the effect of changes in 
case mix. The average length of stay for all children in foster care 
can increase or decrease as a result of changes in case mix, not 
because a child welfare agency has changed its practice. For example, 
if very young children represent a higher proportion of children being 
admitted to foster care in 1999 than in 1998, average length of stay in 
foster for all children admitted will likely increase. This is because 
children admitted under the age of 1 tend to stay in foster care longer 
than older children.
    In our recently approved Program Improvement Plan, which can be 
found on the Internet at http://www.ocfs.state.ny.us/main/misc/pip.asp, 
we incorporate many adjustments that take into consideration the 
inequalities of the CFSR. I believe that any efforts to oversee the PIP 
implementations nationally should consider the problems the CFSR has in 
its fundamental design and look to compensate for this, especially 
before planning the second round of reviews. Our PIP proposes the 
following alternative, and we believe improved, approach.

    1.  Methodology that uses historical data for groups of children 
that share characteristics associated with different patterns of length 
of stay.

    For the purposes of estimation as well as tracking care day 
utilization during implementation, OCFS has divided the population of 
children in foster care into groups that experienced different lengths 
of stay, as well as those that share clinically relevant 
characteristics. With separate estimates for these mutually exclusive 
groups, the methodology will accommodate basic changes in the case mix 
over time. These groups are also intended to focus each county's 
efforts on reducing length of stay in developmentally relevant ways.

    2.  Distinguishing between two groups of children who will be 
affected by any new program strategies.

    OCFS believes it critical to track the following two groups 
separately: children who have already been in care for some time on the 
first day of the performance period identified in the PIP (the in-care 
population) and children admitted during the first and subsequent years 
of the new initiative (admissions).
    First, these two groups are distinct clinically. Children who are 
in care on a given date have been in foster care for varying lengths of 
time and have been affected to varying degrees by a child welfare 
agency's policies and programs. Children who are entering care after 
the beginning of a new initiative will experience their entire length 
of stay in the new environment.
    Second, these two groups are distinct with respect to length of 
stay. For the in-care population, only the amount of time after the 
initiative has begun can be reduced. Thus, the alternative measures 
seek to understand length of stay for these children from the beginning 
of the PIP period to the end. For the admission population, length of 
stay is measured from the day of admission to the end of the PIP 
period.
    In a recent letter to the Government Accounting Office, OCFS staff 
offered suggestions to improving the quality of data collected for the 
CFSR. In light of the upcoming second round of reviews quickly 
approaching, I thought it appropriate to restate OCFS' suggested 
enhancements in this venue. These enhancements may offer a more 
accurate view of child welfare data in the states. New York OCFS' 
suggestions are:
Seek Alternative Measures To National Standards For Length Of Time To 
        Reunification And Adoption
    The methodology for evaluating the length of time to adoption and 
reunification measures the number of care days of foster care used 
during the two-year period by different groups of children and the 
proportion of children who exit from each group to reunification or 
adoption by the end of the two-year period.
Data:
    A child's spell(s) is associated with the county that most recently 
had jurisdiction over the child's case. Children are counted as exiting 
foster care if they have been absent or on trial discharge for more 
than 30 days. If the child returns to foster care, this is counted as 
an admission. A child's spell in foster care continues if the time out 
of care is 30 days or fewer. Only spells that are at least 5 days long 
are included.
Strata: 
    Admission Population--Three Strata
    Admitted under the age of 1
    Admitted between the ages of 1 and 13
    Admitted between the ages of 14 and 20
In Care Population--Four Strata
    Began spell in progress under the age of 1
    Began spell in progress between ages 1 and 13, have been in care 
for less than two years.
    Began spell in progress between ages 1 and 13, have been in care 
for two or more years.
    Began spell in progress between ages 14 and 20.
    New York has urged ACF to set standards of improvement that 
recognize change within a state, rather than cross-state comparisons. 
Several reasons make interstate comparisons inaccurate and 
inappropriate. Most obviously, comparing small states with larger 
states fails to recognize different sizes of caseloads, proportionate 
challenges in creating substantial statistical improvements, and 
difficulties in creating and sustaining a culture of change. In 
addition, definitions of services vary markedly across states, which 
obviates the value achieved by comparison of change.
    Despite methodological flaws and the dangers that the general 
public can misinterpret them, the CFSR process has had positive 
benefits. It has served, brilliantly, to galvanize a nationwide focus 
on the need for a change in practice. Hopefully, this process will also 
bring new resources to our under-funded systems. The danger that I see, 
however, is that the process for continuing this effort may be 
jeopardized by the application of the same methodology used in the 
first round. In the first round of reviews, states were so far from the 
mark that the level of precision of the methodology, while problematic, 
was not fatal.
    In this state, we have worked diligently to engage in earnest and 
productive work to affect our system. It would be unconscionable if the 
50-case sample review were used to determine whether we improved or 
failed. Either of these findings could serve to remove support from 
continuing our efforts. Changing a child welfare system, especially one 
as large and complex as New York's, is a daunting task and one that 
requires commitment and time. We are in this for the long haul. I need 
a Round II process that carefully supports and builds on gains made. 
This cannot be accomplished with a 50-case sample. Instead, the State 
should be allowed to use its systems data to provide universal data 
where it is available. Where data is not available from the system, 
careful, systematic sampling to fill in those gaps and structured 
interviews, where those are needed, can also be developed.
    As Congress continues to seek ways to reform child welfare services 
and better serve vulnerable children and families, I look forward to 
more opportunities for state input into this process. Again, my thanks 
to Chairman Herger and the committee for the tremendous efforts made in 
this important area.

                                 <F-dash>

         Statement of Elaine Reeves, Fort Walton Beach, Florida
    My name is Elaine Reeves. I am an American citizen living in Fort 
Walton Beach, Florida with my husband, Steven Reeves, and my three 
children, Heather Ann Norman, age 15, Peyton Elwyn Norman III, age 14, 
and Steven Edward Reeves Jr. age 2. After three years of continual 
harassment by the Florida Department of Children and Families, on 
January 26, 2004, my children were kidnapped and secreted from me under 
color of state law, by Michelle Colwell, a child protective 
investigator from district one of the Florida Department of Children 
and Families (DCF), as retaliation for a letter delivered to her on 
January 20, 2004, in which she was informed that if she and her 
department did not cease harassing my family there would be legal 
action taken against them. Please see the accompanying evidence book 
that I have submitted for this hearing for the particulars of my case. 
My older two children have been out of control and have run away 
several times and reported that they were abused when they did not get 
what they wanted. I have found out that this is a popular game with 
today's teenagers. They know that their parents live in fear of a 
government agency that has the power to confiscate children with little 
or no evidence of wrongdoing or abuse. My older children will now both 
openly admit that they have played this game and made false abuse 
reports when they were never abused. On January 20, 2004, I delivered a 
letter to Michelle Colwell, a child protective investigator (CPI) with 
the Florida Department of Children and Families (DCF), that stated if 
she and the department did not stop harassing my family that I would 
take legal action against them. Every time that DCF has come to my 
house they have demanded that I subject myself to having one of their 
``family counselors'' invade my privacy and my right to parent my own 
children by coming into my home for ``counseling'' sessions, which by 
their own definition meant that they would negotiate the rules of my 
home with my out of control teenagers. I do not believe in rewarding 
bad behavior, and I refused to negotiate anything. This infuriated the 
CPI, as she stated that the individual counseling that I had arranged 
would not be sufficient, even though that was the recommendation of a 
psychiatrist. On January 26, 2004, Colwell filed a sworn affidavit that 
contained information that she knew to be lies and then attempted to 
suppress exculpatory testimony and evidence in order to kidnap my 
children and secrete them from me under color of state law. In the 
affidavit she stated that my oldest son had bruises on him, which he 
did not and she was forced to admit this under oath at the shelter 
hearing on the following day. She also committed perjury during the 
shelter hearing when she stated that she had not heard that my oldest 
son (who made the most recent false abuse report) had run away and was 
in trouble for having fireworks in our home. She also stated in the 
affidavit that my daughter was unable to give a statement, when my 
daughter gave a very long statement and informed her that no one was 
being abused in our home in any way. There are many items on the 
original affidavit for the shelter petition, the dependency petition, 
and then an amended dependency petition that we can prove are lies, and 
that she knew at the time of filing this that they were lies. My two 
year old son was returned to me the day after he was taken as the Judge 
informed the CPI that she had no legal basis to take him due to the 
fact that no one ever said that he had been abused. Then when 
information was presented to the Judge to disprove the CPI's 
accusations the hearing was continued to the next day and my daughter 
was returned to me because she stated that she had not been abused. My 
older son maintained his abuse story. He was told by the CPI at the 
time that if he would maintain his abuse story that he would be allowed 
to remain at his friend's house, where the CPI had placed him for 
foster care. This is the home of a ``friend'' that my older son had 
been forbidden to associate with due to the fact that the child was on 
probation and was caught setting off fireworks with my son. The CPI 
knew this at the time that she placed my son in this home. This was 
brought to the Judge's attention and the Judge ordered my son to be 
moved. My son was moved to a foster home in another city, and the first 
day that he attended school there he was beaten severely at the school. 
DCF refused to get any treatment for my son, beyond initial visits to 
the hospital emergency room. His nose was severely broken and he had 
been hit in the face so hard that it shattered his front teeth down to 
the gum line. In order to force them to get medical treatment for my 
son, after they told me that it would be six months to a year before 
they could arrange this, I reported them to themselves on their abuse 
hotline for medical neglect, and after several more documentation 
letters and complaints he finally had surgery to repair his broken nose 
and several trips to the dentist to restore his teeth. When my children 
were kidnapped from me, I began delivering ``documentation'' letters to 
DCF. The purpose of a ``documentation'' letter is to specifically state 
in exact wording any and all interactions, in order to prevent CPIs 
from being able to twist words and information to suit their own 
purposes, as had been done several times to me, and as I have 
subsequently found to be a common tactic used by child protective 
workers to frame parents and portray them as monsters. After each 
interaction, I would deliver a documentation letter, and ask the 
recipient of the letter to respond in writing outlining any 
discrepancies they might find within a certain amount of time. When the 
CPI and her supervisor began ignoring my phone calls and refusing to 
accept correspondence that I dropped off at the DCF building in Fort 
Walton Beach, I began emailing the documentation letters to them, as 
they handed back anything that I delivered to their office and refused 
to accept it. I was able to find the format for each DCF employee's 
email address on the myflorida state website, and began sending the 
documentation letters as emails with return receipt to show the time 
and date that they had displayed the email on their computer, thereby 
proving delivery of the documents they claimed to have never received. 
At the same time I was also forwarding all correspondence from me to 
them and from them to me to the Inspector General for investigation. 
This really infuriated them. They began to put ``confidentiality'' 
notices on the bottom of all their correspondence in an attempt to 
conduct off the record communications regarding this case and to 
prevent me from forwarding these to the Inspector General for 
investigation. When that did not work and I continued to send the 
documentation letters, they then sent threatening letters stating that 
they would prosecute me for breach of confidentiality and that was a 
felony. When that did not work the Chief Legal Counsel for DCF district 
one, Katie George, actually called my employer in what was obviously an 
attempt to cause me trouble at my workplace to inform them that I had 
sent emails from my company computer to them, and requested that my 
employer prevent me from doing this in the future. Thankfully, my 
employer fully supports my position and encouraged me to continue to 
use the company facilities for these purposes. The Inspector General 
referred this back to DCF for investigation, and of course they say 
that the CPI did nothing wrong even though we can prove otherwise. I 
went to the Fort Walton Beach police department and spoke with a 
detective regarding prosecution of the CPI, as we have proof and 
evidence that she knowingly filed not one but now 3 sworn affidavits in 
which she lied and suppressed testimony and evidence that would have 
cleared us. The detective stated that he could take the report, but was 
very reluctant to do so. He said that since we have this proof and the 
department's position is that the CPI did nothing wrong, that would 
make this not only a case against the CPI, but also a conspiracy with 
others in the department that aided her in her actions and to cover up 
what happened. My oldest son was returned to me on April 7, 2004 after 
the department was forced to dismiss the dependency petition, so I now 
feel somewhat safe in attempting to get justice for what was done to us 
as a family. For malicious reasons this woman kidnapped our precious 
two year old baby and two older children and attempted to both suppress 
and manufacture evidence and testimony against us. They let my older 
son remain in intense pain for a long period of time while withholding 
medical treatment after he was severely beaten while in their custody. 
At a group home where they placed my older son, he ran away and they 
failed to report him as a runaway. After I forced them to report him 
they then did not inform me or the police for over 48 hours after he 
had been recovered. They failed to produce him for court ordered 
visitation and counseling. They left no contact orders in place at my 
daughters school for weeks and I finally had to take my own court order 
to the school after they threatened to arrest me for going to my own 
daughter's school. They failed to report to the police when my son was 
initially taken into custody by them and that resulted in a detective 
coming to my home more than a month later to investigate my son's 
disappearance, after I informed the CPI on the first day they took him 
that he was listed in NCIC as a runaway and that they would need to 
call the police and have him removed from the system. They have 
endlessly harassed our family, there are many incidents that are not 
included here in the interest of time, but I can say that they have 
pulled every dirty trick in the book, and I have documentation for 
everything and can prove it all. In her official capacity, Michelle 
Colwell filed a sworn affidavit with information that she made up and 
knew to be false for the sole purpose of kidnapping my children and 
secreting them from me under color of state law. After my children were 
taken from me, there followed a subsequent conspiracy and collusion by 
several people within DCF including supervisors, investigators from the 
Inspector General's DCF department, district administrators, and all 
the way up to the Chief legal counsel for DCF district one to cover up 
the crimes that were committed against my family. This begs the 
question, what country do I live in? Is this the United States of 
America? In the United States of America, my children were kidnapped 
and secreted from me under color of state law based on a sworn 
affidavit filed by an agent of the government, that was filled with 
lies that no one bothered to verify or even check. A government agent 
was able to do this as retaliation for being told to mind her own 
business. Subsequently, one of my children was so severely beaten while 
under the care of the state that he required several reconstructive 
surgeries and will never be the same. Medical treatment was withheld 
from my child for an extended period of time. I was told that it would 
be six months to a year before they could ``get around'' to getting him 
an appointment because they could not find anyone that would accept 
Medicaid. Every time I attempted to report the crimes committed against 
my family and myself, it was met with a deaf ear. I immediately made 
reports to the State of Florida inspector General's office. They 
referred my complaint back to DCF for investigation, despite my 
objection that it was a conflict of interest for them to investigate 
themselves. Since the state sanctioned kidnapping of my children, I 
have learned a lot about the child welfare industry. My case is not an 
unusual one. Child protective investigators routinely trample the 
rights of parents in this country every day. There are certainly 
serious cases of child abuse in which children require protection and 
removal from the home, however sadly, the truly abused children are 
often not the ones that are taken from their parents, and are left to 
suffer in their circumstances. Abused children are not ``adoptable.'' 
People looking to adopt children have no interest in a child who has 
severe emotional problems, crack babies, or children who have been 
truly abused States do not receive large sums of money for children who 
``age out'' in foster care. The current form of funding for child 
welfare agencies has in effect placed a bounty on middle class well 
adjusted healthy babies and toddlers in this country, because they are 
the adoptable ones. In order to receive huge amounts of money from the 
United States Government, every day in this country children are stolen 
from loving parents with no evidence of abuse whatsoever, they are set 
up by agents of the government and railroaded through a system that 
ignores their federal civil rights and steals the most precious thing 
we all have, our children. I want an explanation as to why the United 
States of America has placed a bounty on my children. I want to know 
why agents of the United States government are allowed to lie with 
impunity and orchestrate wholesale legalized abduction of children who 
are not abused to ``sell'' them in the adoption market, while the 
fundamental civil rights of the parents are completely ignored and 
trampled upon. How dare they be allowed to do this to us? Hardworking 
American people are experiencing legalized abduction of children from 
non abusive homes, due to the monetary value placed on them for 
adoption, or simply because they failed to kiss the proper appendage of 
the social worker that came to their home. How, in the United States of 
America, can people have their parental rights to their children 
terminated, with no evidence of anything? Is truly the United States of 
America? I used to believe that I actually had rights guaranteed by the 
constitution of the United States of America. Now I know that the Bill 
of Rights which are supposedly guaranteed to each citizen is nothing 
more than a fantasy, because those rights are certainly not being 
enforced. Every day in this country good parents are railroaded through 
a system that denies them there fundamental civil rights, and due 
process of law. People have their children stolen and get railroaded 
through this system with no evidence whatsoever, all this can happen 
based on the ``testimony'' of one Child protective investigator, as 
happened to me. What country do we live in? Is this the United States 
of America, or is this 1940's Nazi Germany, where people live in fear 
of the secret police? As parents, we now live in fear of child welfare 
services, the new secret police of the United States of America, who 
stand to profit enormously from the theft of our children. This is an 
outrage. I demand justice for my family. On behalf of every Floridian 
who has had their children stolen by the state for profit or for petty 
retaliation because they refused to bow in worship to a state social 
worker, and are now living in state sponsored terror which leaves them 
too afraid to speak out for themselves, let me say on their behalf, WE 
DEMAND THE RETURN OF OUR CHILDREN! My battle has been short compared to 
some, but it is just beginning. The people who kidnapped MY children 
under color of state law and committed various crimes in the process of 
doing so will be brought to justice, each and every one, if I have to 
spend the rest of my life in pursuit of that justice.

                                 <F-dash>

        Statement of James D. Untershire, Long Beach, California
    Jim Untershine previously submitted written testimony to the Ways 
and Means Committee during the ``Welfare and Marriage Hearings'' \1\ 
(07-04-01) and the ``Waste, Fraud, and Abuse Hearings'' \2\ (07-26-03).
    Jim Untershine holds a BSEE from Mississippi State University and 
has 13 years experience in feedback control system design while 
employed by Northrop/Grumman Electronics Division. Mr. Untershine was 
the Responsible Engineer for the Platform Stabilization and Angle 
Measurement subsystems used on the B2B bomber, as well as the Attitude 
subsystem used on the Peacekeeper missile. Mr. Untershine is currently 
using the teachings of Warner Heisenberg and Henry David Thoreau to 
expose Family Law in California as the exploitation of children for 
money and the indentured servitude of heterosexual taxpayers who dare 
to raise children in this country.
INTRODUCTION
    The Disney movie entitled `Lilo and Stitch' has instructed our 
children that `Family' means: ``Nobody is left behind or forgotten.'' 
The movie also instructed our children that the oldest daughter (Nani) 
of parents who are killed in a car wreck, may have an uphill battle 
raising her younger sister (Lilo) without losing the child to Social 
Services. A care-taking relative may lose the child to Social Services 
for failing to connect with the child after school, or being locked out 
of the house with the stove on, or failing to find a baby sitter prior 
to a crucial job interview, or failing to stay employed. The movie's 
happy ending came when Social Services were forced to stand down, when 
the child (Lilo) proved that she legally adopted an alien pet (Stitch). 
This caused the United Galactic Federation to recognize the child as 
the `Official Guardian' of the adopted pet, which entitled the family 
to be put under their protection, since ``Aliens are all about rules.''
    Parents and relatives, desperately attempting to support the 
children, may lose the children to Foster Care. The new financially 
stable Foster parents, who have a spare room for guests, may receive 
more Foster Care maintenance than the children's family would have 
received on TANF. The children's parents are expected to repay the 
Foster Care maintenance provided by the program.
    As reported by the The Indianapolis Star: \3\ Family and Social 
Services Administration (FSSA) spokeswoman Cindy Collier says ``Judges 
issue reimbursement orders, but no one actually enforces payment'' -- 
``If someone owes on a child-support order, we have tools like tax-
refund intercept, seizing bank accounts, putting liens on vehicles and 
income withholding. But we are prohibited from doing these things on 
reimbursement orders.'' -- ``Parents may be persuaded to pay because 
sometimes the reimbursement is a condition that must be met before the 
child is returned home.''
    If a State shows data suggesting that un-abused children were 
removed from a National group (heterosexuals), it would seem incumbent 
on the State to prove that the children were not transferred to another 
group (i.e. homosexuals). A more thorough investigation into a State's 
Foster Care program may reveal other Genocide violations (USC 18 1091).
    (a) Basic Offense--Whoever, whether in time of peace or in time of 
war, in a circumstance described in subsection (USC 18 1091 d) and with 
the specific intent to destroy, in whole or in substantial part, a 
National, ethnic, racial, or religious group as such----
    (1) Kills members of that group--Homicide statistics extracted from 
the NIBRS system cannot be used to report victim/offender data 
regarding parents of the same child (see Appendix One--``The Human Cost 
of Raising Children'').
    (2) Causes serious bodily injury to members of that group--Domestic 
violence between parents may be provoked by States that employ an 
outrageous child support guideline, as well as sole custody Family 
Courts that actively maximize the cash flow between parents.
    (3) Causes the permanent impairment of the mental faculties of 
members of the group through drugs, torture, or similar techniques--
Severe depression (and suicide) of some parents may be the result of 
State's Family Court judges; forbidding them to contact their own 
children, kicking them out of their own house, and extorting up to 65 
percent of their imputed income in exchange for their limited freedom.
    (4) Subjects the group to conditions of life that are intended to 
cause the physical destruction of the group in whole or in part--
Impoverishment and persecution of parents may be the consequence of a 
State's CSE program that is not compliant with the same Federal law 
(USC 42 666 b6D) that allows them to wield the power to persecute.
    (5) Imposes measures intended to prevent births within the group--
Homicides of pregnant women and forced abortions may be provoked by a 
State's outrageous child support guideline, as well as sole custody 
Family Courts that actively maximize the cash flow between parents.
    (6) Transfers by force children of the group to another group--
Foster Care has become a supply and demand industry in some States (see 
Appendix Two--``Schwarzenegger attempting to stop exploitation of 
children for money in CA'').
    or attempts to do so, shall be punished as provided in subsection 
(USC 18 1091 b).
PRESERVATION (WELL-BEING)
    President George W. Bush immediately led the Sarasota, Florida 
elementary school children in a moment of silence, after learning of 
the terrorist attacks of 9/11. The immediate first reaction, in the 
face of that crisis, illuminated the fact that: American children 
represent the only Americans that will be around one generation from 
today.
Families have enhanced capacity to provide for their children's needs
    Children living in an intact, divorced, single parent, or foster 
family must be provided the support they deserve. Federal programs that 
attempt to provide assistance to a family to support the children, fail 
to insure that the assistance provided to the family actually results 
in support delivered to the children (see Appendix Three--``Family 
Control Systems'').
    CSE (IV-D) exists to provide a family with financial assistance 
based on the State's child support awards. Money is paid to the 
custodial parent but there is no accountability as to how the money is 
spent to support the children.

    <bullet>  TANF (IV-A) exists to provide a needy family with 
financial assistance based on the State's welfare benefits. Money is 
paid to a needy parent for housing as well as providing food stamps and 
Medicaid to allow accountability as to how the assistance is used to 
support the children.
    <bullet>  Foster Care (IV-E) exists to provide a financial stable 
foster family with financial assistance based on the State's Foster 
Care maintenance. Money is paid to the foster parent but there is no 
accountability as to how the money is spent to support the children.

    Comparing the 3 programs above, it seems obvious that TANF provides 
the only assistance that provides any accountability as to how the 
assistance is used to support the children. Since the children's 
biological parents are ultimately responsible for repaying the 
taxpayers for assistance provided to their children, it seems obvious 
that a family should be put in the TANF program as soon as their child 
is born.
    Comparing the 3 streams of assistance above, it seems obvious that 
child support awards, TANF benefits, and Foster Care maintenance should 
all be exactly the same. A California noncustodial parent earning 
$30,000 per year net income and supporting 3 children will be forced to 
pay $1,250 \4\ per month to the custodial parent. When the child 
support stops, the custodial parent becomes a needy parent and can 
receive $1,071 \5\ per month in TANF assistance. When the children are 
left home alone, the needy parent is replaced with a financially stable 
foster parent who can receive $1,339 \6\ per month in Foster Care 
maintenance.
Children receive appropriate services to meet their educational needs
    States that have a representative from Social Services at every 
public school would allow visibility into a foster child's well being, 
as well as a point of contact for suspected child neglect or abuse 
regarding any other child attending public school.
Children receive adequate services to meet their physical and mental 
        health needs
    States that allow Medicaid to be offered at childbirth would insure 
medical coverage with upgrades available at increased cost to the 
parents.
PROTECTION (SAFETY)
    The First Lady, Laura Bush, immediately announced ``Parents need to 
reassure their children everywhere in our country that they're safe,'' 
after learning of the terrorist attacks of 911. The immediate first 
reaction, in the face of that crisis, illuminated the fact that: 
American children must feel confident that their family has the power 
to protect them.
    Children are first and foremost protected from abuse and neglect
    Implementing demonstration projects that serve to insure the 
protection of children should be an integral part of the Foster Care 
package. The Foster Care program should be allowed to exercise 
constructive intrusion into a foster family, since it was the 
government who was responsible for their placement. The success of 
progressive demonstration projects may allow them to be adopted, 
funded, or mandated by Federal programs.
    The Custody Free credit card account allows accountability of child 
support purchased for the children. (see Appendix Four: ``Custody Free 
Child Support'')
    The Child Watch system utilizes a device that incorporates a Panic 
Button alert system and Talk To The Hand communication. The caregiver 
must be equipped with a Parent Watch device that is matched to a given 
Child Watch device.

    <bullet>  Child Watch device is a wristwatch that displays the time 
of day, with digital voice recorder, GPS processor, cell phone 
communication, and nearby Parent Watch device polling.
    <bullet>  Panic Button alert system--A button on the Child Watch 
opens direct communication with an attendant nearest the child and 
downloads the child's location. While the child explains the problem to 
the attendant, the audio recorded a few minutes before pushing the 
Panic Button is downloaded along with the locations of all Parent 
Watches within a given radius.
    <bullet>  Talk To The Hand communication--The microphone is in the 
wristband near the base of the child's palm. The speaker can be heard 
anywhere near the child.
    <bullet>  arent Watch device--Same as Child Watch device, but is 
coded to be assigned to a particular Child Watch device.

    Children are safely maintained in their own homes whenever possible 
and appropriate;
    Implementation of the Child Watch device and Custody Free child 
support renders these aspects moot.
PROSPERITY (PERMANENCY)
    Senator Edward Kennedy immediately announced ``We are not going to 
see the business of America deferred because of terrorism whether its 
in education or another area of public policy.''--after learning of the 
terrorist attacks of 911. The immediate first reaction, in the face of 
that crisis, illuminated the fact that: American children must feel 
confident that their government will vigilantly monitor the effects of 
social policy to insure their everlasting prosperity.
Children have permanency and stability in their living situations
    Forcing children to reside with the only parent that is unable to 
financially support them is contrary to permanency or stability. The 
family law system in many States completely ignores the findings of the 
Legislature regarding equal involvement by both parents. To maximize 
the legal fees paid to officers of the court, a Family Court will 
deliberately deny custody to the breadwinner to maximize the cash flow 
between parents.
    Andrea Williams \7\ killed her 9, 6, and 5 year-old children 
(Ilona, Ian, and Ivey), after attempts by the children's father, Gary 
Williams, to convince a State's Family Court judge to rescue them.
    Awilda Lopez \8\ killed her 6 year-old daughter Elisa, after she 
convinced a State Family Court judge to remove her from the child's 
father, Gustavo Izquierdo.

    <bullet>  Child rights advocates may feel that the community must 
respond to a `cry for help' from a parent who is `unfit' to care for 
their children, and Foster Care should immediately be allowed to rescue 
the `at risk' children to adequately protect them.
    <bullet>  Noncustodial parent rights advocates may feel that Family 
Court judges must respond to a `cry for help' from a parent who is 
`fit' to care for their children, rather than assigning custody to 
maximize the cash flow between parents.
    <bullet>  Responsible Fatherhood advocates may feel that Family 
Court judges must not trust irresponsible fathers who desperately 
attempt to reduce their child support obligation by pretending to love 
their children.

Continuity of family relationships and connections is preserved for 
children
    States that perform paternity tests at childbirth would not only 
increase the likelihood of placing a child with their actual family, as 
well as eliminating the ongoing paternity fraud problem that persecutes 
people who are not parents.
REFERENCES
    \1\ James D Untershine, 07-04-01, ``Family Law Design Review,'' 
``Ways and Means Welfare and Marriage Hearings,'' http://
www.geocities.com/gndzerosrv/fl--design--rev.htm
    \2\ James D Untershine, 07-26-03, ``Welfare Design Review,'' ``Ways 
and Means Waste, Fraud, and Abuse Hearings,'' http://
waysandmeans.house.gov/hearings.asp?formmode=printfriendly& id=953
    \3\ Eunice Trotter, The Indianapolis Star, 05-02-04, ``State bills 
parents for foster care,'' ``Agency says revenue could help it provide 
aid to children,'' http://www.courier-journal.com/localnews/2004/05/
03in/b1-foster0503-8865.html
    \4\ California Child support guideline demands 50 percent of net 
income regarding 3 children (CAFC 4055). http://www.leginfo.ca.gov/cgi-
bin/displaycode?section=fam&group=04001-05000& file=4050-4076
    \5\ CA TANF assistance provides $1,071 per month maximum combined 
TANF and food benefits for single parent family supporting 3 children 
(Ways and Means Greenbook 2003, Table 7-12). http://
waysandmeans.house.gov/media/pdf/greenbook2003/Section7.pdf
    \6\ CA Foster Care basic maintenance rate provides an average of 
$446 per month for each child (Ways and Means Greenbook 2003, Table 11-
9), http://waysandmeans.house.gov/media/pdf/greenbook2003/Section11.pdf
    \7\ Phil Long, Miami Herald, 05-12-04, ``Police: Mom admits killing 
3 kids,'' Police said a Florida woman arrested in North Carolina 
confessed to killing her three children and they later found the bodies 
at home. Murder charges were pending.,'' http://www.bradenton.com/mld/
bradenton/news/nation/8649297.htm
    \8\ David Van Biema, Time Magazine, 12-11-95, ``Abandoned to her 
fate,'' ``Neighbors, teachers, and the authorities all knew Elisa 
Isquierdo was being abused, but somehow nobody managed to stop it,'' 
http://affiliate.timeincmags.com/time/archive/preview/from_search/
0,10987, 1101951211-133526,00.html
                                 ______
                                 

                              Appendix One

                  The `Human Cost' of Raising Children

 American parents are killing each other, and State Attorney Generals 
                          are covering them up

         http://mensnewsdaily.com/archive/u-v/untershine/2004/
                          untershine011604.htm

    Jim Untershine, GZS of LB, 01-15-04
    Cover-up is defined as ``an effort or strategy of concealment, 
especially a planned effort to prevent something potentially scandalous 
from becoming public/'' If a system of control is imposed on American 
parents, then the effects of the system must be constantly scrutinized 
to verify proper operation. The Family Law system that operates in all 
States, is allowed to: identify bread-winning parents, deny them due 
process, deny them contact with their children, and then impose a 
financial obligation on them that will claim a percentage of their 
income for up to 18 years.
    The Federal Bureau of Investigation (FBI) \1\ reports that across 
all States in 2002:
---------------------------------------------------------------------------
    \1\ Federal Bureau of Investigation (FBI), Crime in the United 
States 2002, Crime Index Offenses Reported, Murder, http://www.fbi.gov/
ucr/cius_02/html/web/offreported/02-nmurder 03.html

    <bullet>  32.1 percent of the total 3,251 female homicide victims 
represent wives and girlfriends killed by their husband or boyfriend. 
(18.5 percent by husbands plus 13.7 percent by boyfriends)
    <bullet>  6.5 percent of the total 3,251 female homicide victims 
represent daughters killed by their parent.
    <bullet>  2.7 percent of the total 10,779 male homicide victims 
represent husbands and boyfriends killed by their wife or girlfriend 
(1.2 percent by wives plus 1.4 percent by girlfriends).
    <bullet>  2.2 percent of the total 10,779 male homicide victims 
represent sons killed by their parent.
    <bullet>  22.9 percent of the total 14,054 homicide victims 
represent victims killed by an acquaintance.
    <bullet>  17.0 percent of the total 14,054 homicide victims 
represent victims killed in California.\2\
---------------------------------------------------------------------------
    \2\ Federal Bureau of Investigation (FBI), Crime in the United 
States 2002, Crime Index Offenses Reported, Murder 2002-Table 20, 
http://www.fbi.gov/ucr/cius_02/html/web/offreported/02-table20.html

    The data reported above excludes homicide data from Washington DC 
and Florida, and also omits data related to victim relationships to an 
ex-spouse and common-law spouse. Another potentially interesting 
relationship that was excluded involves victims who were killed 
involving a murder suicide (victim is offender).
    The Justice Statistics and Research Association (JSRA) \3\ reports, 
``The primary source of information on crime in the United States is 
law enforcement agencies that submit monthly counts of index crime to 
the Uniform Crime Report (UCR)\4\ system of the Federal Bureau of 
Investigation (FBI). Data on homicides are collected through the 
Supplementary Homicide Report (SHR) section. Implemented in the 1960s, 
the SHR is designed to provide limited incident-specific information on 
each murder and nonnegligent manslaughter that occurs in the United 
States.'' ``While the SHR provides information that would otherwise not 
be available, it has some key limitations. As with the UCR program in 
general, participation in the SHR is voluntary, and not all law 
enforcement agencies report.'' ``Another potential source of 
information about homicides is the National Incident Based Reporting 
System (NIBRS),\5\ which provides for the collection of 53 data 
elements, organized into six data segments, on each incident.''
---------------------------------------------------------------------------
    \3\ Lisa Walbolt, Project Manager, Justice Research and Statistics 
Association (JRSA), The Forum- Vol21 No.1, `` Developing a NIBRS-
Compatible Homicide Database: A Multistate Pilot Test,'' http://
www.jrsa.org/pubs/forum/forum_issues/for21_1.pdf
    \4\ Federal Bureau of Investigation (FBI), Crime in the United 
States 2002, Summary of the Uniform Crime Reporting (UCR) Program, 
Section 1, http://www.fbi.gov/ucr/cius--02/html/web/summary/
summary.html
    \5\ Federal Bureau of Investigation (FBI), Criminal Justice 
Information Services Division, Uniform Crime Reporting, National 
Incident-Based Reporting System, Volume 1: Data Collection Guidelines 
Aug. 2000, http://www.search.org/nibrs/PDFs/FBIv1.pdf
---------------------------------------------------------------------------
    The major problem inherent to the structure of the present NIBRS 
system is that it does not allow parent vs parent homicide statistics 
to be gathered. The only NIBRS data element that allows identifying 
Family Law related deaths is element 35, which assigns a victim/
offender relationship regarding each homicide. Data element 35 can be 
assigned many values, but the Family Law related values include: SE 
(spouse), BG (boyfriend/girlfriend), CH (child), XS (ex-spouse), CS 
(common-law spouse), and VO (victim is offender).

    <bullet>  Why did mainstream America (except Dan Rather) suspect 
Gary Condit of killing Sandra Levy? Was it because 13.7 percent of the 
total 3,251 female homicide victims were killed by their boyfriend?
    <bullet>  Why does mainstream America suspect Scott Peterson and 
Robert Blake of killing Lacy and Bonny-Lee? Is it because 18.5 percent 
of the total 3,251 female homicide victims were killed by their 
husband?
    <bullet>  Why does mainstream America still suspect O.J. Simpson of 
killing Nicole? Is it because 22.9 percent of the total 14,054 homicide 
victims were killed by an acquaintance?
    <bullet>  Why does mainstream America suspect any California parent 
of killing the other parent of their child? Is it because California 
leads the nation by producing 17.0 percent of the total 14,054 homicide 
victims?

    The common denominator, regarding the example homicides above, is 
that the victims and suspected offenders are all parents (or suspected 
parents) of a common child, and also that the victims and suspected 
offenders all reside in California. The only way to allow parent vs 
parent homicide data to be gathered is to add a completely new data 
element that allows the number of children to be entered that are 
common to the victim and offender. Not only would it be easy to 
associate parent vs parent homicide statistics, but may reveal trends 
based on the number of common children and the amount of child support 
demanded of the offender by the State in which they reside.
    Lawmakers will never recognize the Family Law motive for murder 
until they are shown the effect it has on parents by pointing to 
reported numbers. The lawmakers are denied visibility of the parent vs 
parent homicide statistics, as well as the financial demands imposed on 
parents that vary as a function of children. An unknown number of 
parents are being killed in America due to the unknown financial 
demands that are (or might be) imposed on them by the State that they 
reside in.
    ``Causality--action, reaction, cause, and effect, there is no 
escape from it, we are forever slaves to it. Our only hope, our only 
peace, is to understand it, to understand the `why.' `Why' is what 
separates us from them, you from me. `Why' is the only real source of 
power, without it you are powerless, and this is how you come to me, 
without the `why,' without power, another link in the chain.'' (Matrix 
Reloaded) \6\
---------------------------------------------------------------------------
    \6\ Larry and Andy Wachowski, Warner Brothers, movie: ``The Matrix 
Reloaded.'' Also see: Jim Untershine, GZS of LB, 09-23-03, ``The Family 
Law Revolution,'' ``Prophecy, History, and Hollywood . . . Ignorance is 
bliss,'' http://mensnewsdaily.com/archive/u-v/untershine/03/untershine 
092403.htm
---------------------------------------------------------------------------
                                 ______
                                 

                              Appendix Two

   Schwarzenegger attempts to stop exploitation of children for money

    California may be setting the example for the rest of the nation

         http://mensnewsdaily.com/archive/u-v/untershine/2004/
                          untershine030504.htm

    Jim Untershine, GZS of LB, 03-02-04
    California Governor, Arnold Schwarzenegger, is attempting to change 
the purpose of Department of Social Services (DSS) and that of the 
Attorney General. DSS will be rewarded for allowing the children to 
stay with their family, rather that taking them away. The Attorney 
General will be allowed to keep his job by enforcing the laws of his 
State, rather than allowing illegal marriage between gays.
    The impoverishment of the family caring for their own children is 
becoming apparent and disturbing: As reported in the Sacramento Bee,\1\ 
``In a ruling that will cost California and its 58 counties more than 
$80 million, a Sacramento Federal judge has ordered the payment of 
unlawfully withheld Foster Care benefits for children living with 
relatives.'' ``the California Department of Social Services estimates 
that $30 million will have to be taken from the State general fund and 
another $42 million from county treasuries to cover the back payments. 
The Federal government will be obligated to match those amounts''
---------------------------------------------------------------------------
    \1\ Denny Walsh, Sacramento Bee Staff Writer, 02-12-04, ``Foster 
ruling to cost state millions,'' ``A Federal judge orders back payments 
for homes where kids live with relatives,'' http://www.sacbee.com/
content/news/story/8254476p-9185108c.html
---------------------------------------------------------------------------
    The supply side of the Foster Care industry is finally being 
recognized and scorned. As reported in Star News, \2\ ``Gov. Arnold 
Schwarzenegger has called for an overhaul of California's Foster Care 
system to end financial incentives that critics say encourage counties 
and their contractors to make money off children in their care.'' 
``State and Federal laws create financial incentives for placing 
children in Foster Care because counties receive $30,000 to $150,000 
annually in State and Federal funds for each child, say officials and 
critics.''
---------------------------------------------------------------------------
    \2\ Troy Anderson, Star News Staff Writer, 02-15-04, ``Governor 
calls for reform of foster care system,'' ``Proposals would end 
incentives, focus on families,'' http://www.pasadenastarnews.com/
Stories/0,1413,206 percent257E24533 percent257E2154603,00.html
---------------------------------------------------------------------------
    The demand side of the Foster Care industry is becoming obvious and 
creepy: As reported in the San Diego Union Tribune\3\ ``The California 
Supreme Court declined a request Friday by Attorney General Bill 
Lockyer to immediately shut down San Francisco's gay weddings.'' 
``Pressure on Lockyer, a Democrat and the State's top law enforcer, 
intensified when Republican Gov. Arnold Schwarzenegger directed him to 
`take immediate steps' to halt San Francisco's marriage march.'' 
``Regardless of Friday's order, the San Francisco-based Supreme Court 
did not indicate whether it would decide the issue. The seven justices 
usually are loath to decide cases until they work their way up through 
the lower courts, which this case has not.''
---------------------------------------------------------------------------
    \3\ David Kravets, San Diego Union-Tribune, AP Legal Affairs 
Writer, 02-28-04, ``Calif. Supreme Court won't immediately stop same-
sex marriages,'' http://www.signonsandiego.com/news/state/20040228-
0003-ca-gaymarriage.html
---------------------------------------------------------------------------
    DSS, operating in each State, is paid by the taxpayers to actively 
pursue removing children from their families and permanently giving 
them to strangers. As reported by the California Children's 
Services,\4\ most of these children were not victims of abuse:
---------------------------------------------------------------------------
    \4\ Needell, B., Webster, D., Cuccaro-Alamin, S., Armijo, M., Lee, 
S., Lery, B., Shaw, T., Dawson, W., Piccus, W., Magruder, J., Ben-
Poorat, S., & Kim, H. (2004). Child Welfare Services Reports for 
California. University of California at Berkeley Center for Social 
Services, http://cssr.berkeley.edu/cwscmsreports/highlights/
showhighlightHTML.asp?subj=referrals

    <bullet>  45 percent of the 498,720 children that were referred to 
CA DSS in 2003 alleged general/severe neglect or caretaker absence/
incapacity.
    <bullet>  23 percent of the 498,720 children that were referred to 
CA DSS in 2003 were substantiated.
    <bullet>  53 percent of the 113,702 children that were 
substantiated by CA DSS in 2003 confirmed general/severe neglect or 
caretaker absence/incapacity

    The California child pay-off can be presented using the net per 
capita income (PCI) of California in 2000 as $26,422 \5\/yr ($2,202/
mo). 
---------------------------------------------------------------------------
    \5\ Bureau of Economic Analysis (BEA), Table SA51-52, ``Net PCI 
across all States for 2000,'' http://www.bea.doc.gov/bea/regional/spi/
drill.cfm?table=SA51-52&lc=400&years=2000&format= htm&sort=0

    <bullet>  $550\6\/mo (25 percent net PCI) in child support for one 
child, and $881/mo (40 percent net PCI) for 2, is payable to a 
financially dependent parent who is ordered to care for the children.
---------------------------------------------------------------------------
    \6\ AllLaw.com, ``Child support awards across all States,'' http://
www.alllaw.com/calculators/Childsupport/
---------------------------------------------------------------------------
    <bullet>  $627\7\/mo (28 percent net PCI) in TANF and food stamps 
for one child, and $813/mo (37 percent net PCI) for two, is available 
to a financially impoverished parent who is not receiving child 
support.
---------------------------------------------------------------------------
    \7\ Ways and Means Greenbook 2000, Table 7-9, ``TANF and food 
stamps provided by all States,'' http://aspe.os.dhhs.gov/2000gb/
sec7.txt
---------------------------------------------------------------------------
    <bullet>  $446\8\/mo (20 percent net PCI) in Foster Care benefits 
for one child, and $892/mo (41 percent net PCI) for two, is payable to 
a financially stable stranger with a spare room.
---------------------------------------------------------------------------
    \8\ Ways and Means Greenbook 2000, Table 11-8, ``Foster Care 
benefits provided by all States,'' http://aspe.os.dhhs.gov/2000gb/
sec11.txt

    Foster Care and Welfare are paid for by the taxpayers, and are 
subject to repayment by the parents who are separated from their 
children. The State share (USC 42 1396d b) of these collections depends 
on the State's PCI relative to that of the nation. The State share of 
Foster Care and Welfare collections = 45 percent* (PCIstate/
PCInation)-2 and cannot exceed 50 percent. California is allowed to 
keep 50 percent of the Foster Care and Welfare collections with a gross 
PCI of $32,363\9\/yr ($29,760/yr Nationally).
---------------------------------------------------------------------------
    \9\ Bureau of Economic Analysis (BEA), Table SA1-3, ``Gross PCI 
across all States for 2000,'' http://www.bea.doc.gov/bea/regional/spi/
drill.cfm?table=SA1-3&lc=400&years=2000&format=htm &sort=1
---------------------------------------------------------------------------
    Child Support Enforcement (CSE), operating in each State, is paid 
to actively prevent the payment of child support and drive both parents 
to poverty. The new and improved State incentive calculation (USC 42 
658a b) doubles the Foster Care (IV-E) and Welfare (IV-A) collections 
compared to child support (IV-D) collections.
    It is not hard to understand why States, like Utah,\10\ have opened 
the floodgates regarding unwed mothers giving babies up for adoption. 
The exploitation of children for money is more palatable if the 
children are supplied willingly. The new demand for children by same-
sex customers may allow some States to distribute a catalogue, complete 
with a schedule of tax-free income that will be provided by the 
taxpayers or the parents roped into repaying it.
---------------------------------------------------------------------------
    \10\ Mary Mitchell, Chicago Sun-Times, 01-15-04, ``Utah's adoption 
laws ensnare poor parents here,'' http://www.dadsdivorce.com/mag/
essay.php/020204Utah.html
---------------------------------------------------------------------------
    Same-sex marriage would be a public policy wasted on a group of 
people who are proud of a lifestyle that precludes children. The 
institution of marriage does not confer commitment (in this no-fault 
divorce era we are forced to live in) it is simply a means to get free 
health care from the breadwinning partner's employer. State Attorney 
Generals of the Executive branch, who wish to ignore the law in an 
effort to force a new group of people into the divorce courts, only 
serves to feed the officers and agencies of the Judicial branch.
    Schwarzenegger may see through his Attorney General's murky motive, 
in hesitating to enforce the laws uniformly and adequately throughout 
the State of California. Attorney General Bill Lockyer must choose to 
put the `smack down' on Mayors and Judges who choose to ignore the 
Legislative branch, or he must choose to resign his office.
    Is the California Attorney General a puppet of the California Bar 
Association or does he report to the California Governor?
                                 ______
                                 

                             Appendix Three

                         Family Control Systems

                        Source: James Untershine

    The figure below shows the Federal programs implemented in all 
States using the Custody Free credit card account (see Appendix Four--
``Custody Free Child Support''). The figure below shows the various 
types of feedback regarding support actually received by the children:

    <bullet>  The CSE agency monitors money deposited into the Custody 
Free account as well as the support purchased by both parents to 
provide support for the children.
    <bullet>  [USC 42 666 b6D] allows CSE to enforce wage withholding 
from employers or payment from noncustodial parent.
    <bullet>  [Custody Free CC account] allows accountability of money 
contributed by each parent and the support purchased for the children.
    <bullet>  [Cost of raising children data] allows data to be 
gathered regarding the support purchased to support the children.
    <bullet>  [Parents] monitor the actual support received by the 
children, to compare with the support that is purchased.
    <bullet>  The TANF agency monitors assistance/money deposited into 
the Custody Free account as well as the support purchased by both 
parents to provide support for the children.
    <bullet>  [Custody Free CC account] allows accountability of money 
contributed by TANF and the support purchased for the children.
    <bullet>  [Cost of raising children data] allows data to be 
gathered regarding the support purchased to support the children.
    <bullet>  [Parents] monitor the actual support received by the 
children, to compare with the support that is purchased.
    <bullet>  The Foster Care agency monitors maintenance/money 
deposited into the Custody Free account as well as the support 
purchased by both parents to provide support for the children.
    <bullet>  [Custody Free CC account] allows accountability of money 
contributed by FC and the support purchased for the children.
    <bullet>  [Cost of raising children data] allows data to be 
gathered regarding the support purchased to support the children.
    <bullet>  [Foster parents] monitor the actual support received by 
the children, to compare with the support that is purchased.
                                 ______
                                 

                             Appendix Four

                       Custody Free Child Support

   It's never too late to do the right thing, especially if it's free

          http://mensnewsdaily.com/archive/ u-v/untershine/03/
                          untershine061703.htm

    Jim Untershine, GZS of LB, 06-17-03
    Custody Free child support is welfare reform and is designed to 
allow parents to remain financially solvent, but it also serves to 
remove the motivation for separation. It not only provides 
accountability of money paid to support the children for a particular 
family, it also provides data that can be used to estimate the cost of 
raising children for a family of this type. Since either parent can 
access the money set aside to support the children, then it really 
doesn't matter who has custody, provided the money is being spent to 
support the children.
    A family that is functional before separation should be allowed to 
function after separation. Developing a history of a particular 
family's costs of raising children will eliminate any surprises after 
separation. The following credit card account can be set up by parents 
upon the birth of their child, rather than waiting until after 
separation.

    <bullet>  Cardholders--Parents and/or Children
    <bullet>  Depositors--Parents, Employers, Health Insurance 
Providers, and Government Agencies
    <bullet>  Summary Recipients--Parents, Arbitrator, and Government 
data gathering Agencies
    <bullet>  Charges--Credit Card Company itemizes all authorized 
charges and charges back any unauthorized charges to the offending 
cardholder. Point of Sale (POS) software can allow itemization of all 
purchases to be charged to the account rather than the transaction 
total.
    <bullet>  Restrictions--Parents and Arbitrator enter into an 
agreement of authorized charges intended to support the children. The 
contributions of each parent may be decreased if funds exceed a certain 
level or can be rolled over to a college fund account.
    <bullet>  Authorized Charges--The purpose of the Custody Free 
account is to establish a baseline for expenditures in supporting the 
children. Food, Clothing, School Supplies, etc will be included as 
authorized charges. Rent, Utilities, Services, etc can be agreed upon 
by the parents as well as any other expenses that they may deem 
necessary. A case of beer, a carton of cigarettes, or a crate of 
condoms would be charged back to the offending cardholder, thereby 
increasing the contribution amount for that cardholder.
    <bullet>  The Arbitrator--The Arbitrator is not necessarily the 
Family Court, or Child Support Enforcement. The Arbitrator could be a 
recognized representative from the Credit Card Company, Church, 
Employer, School, or any Privatized Agency. The Arbitrator will be 
responsible for resolving any issues regarding funds not deposited into 
the account as agreed, or disputes regarding inappropriate charges, or 
if it appears that the children are naked and starving. The Arbitrator 
can allow welfare money to flow into the account to make up for 
unemployment of a parent or other irregularities that may threaten 
continuity of child support. The Arbitrator can issue actions against 
employers who fail to make scheduled contributions and act immediately 
to protect a parent from employer discrimination regarding child 
support withholding.
    <bullet>  Government Agencies--Government Agencies that may make 
deposits to the account include Welfare, Unemployment Insurance, 
Disability Insurance, Internal Revenue Service, etc. Government 
Agencies that receive the Account Summary are data gathering agencies 
(US Census, USDA, etc) that would only have visibility as to the 
statistics regarding a family of this type, rather than who this family 
actually is.
    <bullet>  Roll it up Parenting--In the event of separation the 
family residence stays intact and one parent resides there until they 
have to Roll it up and stay somewhere else. The children continue to 
reside at the family residence and the parents take turns residing with 
them. The parenting rotation will be agreed on by the parents or 
ordered by the Arbitrator. Dad doesn't have to relocate his workshop, 
garden center, or workout equipment, and Mom doesn't have to recreate 
her culinary empire, or abandon her masterpiece of interior design. The 
kids keep their room, their toys, their friends, and continue to go to 
the same school.
    <bullet>  The Separation Station--Parents who must Roll it up may 
choose to stay at the State of the art housing complex, subsidized by 
the taxpayers and those who have been ordered to pay restitution 
resulting from their exploitation of children for money. With a `Gold 
Club' on one side and a `Chippendales' on the other, this sprawling 
oasis is guaranteed to provide the means by which a parent can `sow 
their wild oats' in the name of `getting it out of their system.' This 
`Club Med' for parents will allow them to discover what they have been 
missing, or realize what they took for granted. Classes available to 
Roll it up parents include relationship, parenting, sex therapy, and 
anger management, as well as career counseling, job training, and job 
placement services. For the more extreme cases there is drug 
rehabilitation, psychotherapy, and jail.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
